<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 7
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  347
 U.S. Fish and Wildlife Service...................................  541
 National Park Service............................................  779

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-566                     WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          




                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director


=======================================================================


                       Department of the Interior



                       Secretary of the Interior

=======================================================================




DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                      Wednesday, February 26, 1997.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR
MARY ANN LAWLER, DIRECTOR OF BUDGET

                       Department of the Interior

    Mr. Regula [presiding]. We'll start the meeting of the 
subcommittee.
    We're happy to welcome another new member, Zach Wamp, from 
the great State of Tennessee, the volunteer State; am I 
correct?
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. We've already welcomed Mr. Miller from Florida, 
and George, you're moving up the line. [Laughter.]
    At least you're now where you can see the witness seat. 
[Laughter.]
    Well, I think we have an interesting year ahead.
    And, Mr. Secretary, we're happy to welcome you. We're 
pleased that you're continuing on in your position. Your 
statement will be made a part of the record, and we look 
forward to your comments.
    Before we start that, Mr. Yates, do you have anything you 
would like to say?
    Mr. Yates. I want to welcome the new members of the 
committee as well, and the old ones, too. I'm sure that the new 
members will find this a most interesting committee. I 
personally think it's the best of the Appropriation Committee 
subcommittees, for all the interesting activities that we 
oversee.
    I want to welcome the Secretary back. After four years in 
office you don't look harried, you don't look worn. I don't 
know whether that's good or bad, whether that's an indication 
of your physical condition or whether the fact is that we 
haven't given you enough problems. At any rate, we welcome you, 
and I look forward to your statement.
    I wonder, Mr. Secretary, whether, after four years, you can 
get along on the new balanced budget that seems to be in the 
offing. Somehow it seems that Interior is always the first to 
be cut, and I think that's unfortunate. However, again, let me 
say that like the chairman, I welcome you, and we'll do 
everything we can to give you the funds you need to do a good 
job.
    Mr. Regula. Thank you, Mr. Yates.
    David, happy to have you.
    Mr. Skaggs. Good morning.
    Mr. Regula. I see you're at the same location.
    Mr. Skaggs. Actually I think George is at the same 
location. It's just that he's had reinforcements to his right.
    Mr. Skeen. Mr. Secretary, how are you this morning?
    Secretary Babbitt. Good morning. My day is brightened by 
your presence. [Laughter.]
    Well, I thought I'd try.
    Mr. Skeen. I didn't bring any clouds with me; you got by 
with that one. Good to see you.
    Mr. Regula. Joe, we welcome you also.
    Mr. Secretary, as I stated, your statement will be made a 
part of the record. I hope in your summarization that you'll 
give us some idea of where you would like to go.
    You've had a number of years in the Department. What do you 
see prospectively in managing the resources that are so much a 
part of the American culture? It's something that people care a 
lot about, and given the constraints on dollars and given the 
fact that I think we all have a commitment to managing public 
functions in a better fashion than we have historically to meet 
the economic challenges of the reduced expenditures, we'll look 
forward to whatever you'd like to give us as committee members 
by way of information.

                              partnerships

    Secretary Babbitt. Mr. Chairman, thank you. That's why I 
say it really is a pleasure to be back and to anticipate the 
chance to spend some more years with you in the second Clinton 
Administration. Obviously, I enjoy the job, and I enjoy working 
with you, and I'm increasingly impressed with the importance of 
trying to work through these long-term projects that we 
undertake.
    I think the nature of this job is changing. As we look at 
all of the Federal agencies, all the Federal laws, the changing 
nature of budget realities, and the expectations of the 
American people, increasingly what's happening is that we are 
not looking at discreet projects, like a park here with a fence 
around it administered by the Federal Government exclusively in 
isolation from the rest of the landscape. Rather, we are 
looking more and more at partnerships, at sharing of 
responsibilities with State and local Governments, and at 
understanding the relationships between conservation and 
economic activity.
    The Ohio and Erie Canal National Heritage Corridor project, 
that we spoke of before we began, is a perfect example of the 
evolution of the mission of the National Park Service, from one 
of exclusive steward of the ``back forty'' to a mission of 
rendering technical assistance and participating in efforts by 
many communities to restore the landscape. To say, ``How do we 
preserve history? How do we preserve not just 40 acres, but 
protect the entire landscape including our presence and our 
economic activity on the landscape?'' I'm coming back to those 
concepts throughout my presentation, which I will try to make 
succinct and brief.
    These projects take time. They unfold across a period of 
years; they involve a great deal of intermediation and 
participation at the local level, and it's for that reason, 
among others, that I'm really very pleased to have the 
opportunity to continue this process.

                         annual appropriations

    Just very briefly, a word or two about the large picture. 
The President's budget includes for the Interior Department a 
modest increase for 1998. Depending on how you calculate it, in 
terms of the jurisdiction of this committee, it's somewhat less 
or somewhat more than $300 to $350 million. I would say that 
this increase, were it enacted, would still bring us in below 
the levels we had in my first full fiscal year as Secretary in 
1994. And that, I think, reflects a new reality.
    This Department is not about grant management and 
distributing money. This Department is about personnel and 
services and managing assets with some 68,000 employees. Now, I 
would remind you that we have trimmed our workforce in the last 
four years by 12 percent below 1993, there are 15 percent fewer 
people in Washington than we had in 1993, and we have managed 
our budget. We've had to peel off those people to cover 
uncontrollable costs, and I think, and also appreciate, the way 
we've worked with the committee in trying to get those results.
    I say that as prelude to the increases that are being 
requested this year. We can get into those in some detail, 
including uncontrollable costs and very modest increases in 
personnel to manage additional new land units in the system and 
for other purposes.
    I think we had a relatively good experience together last 
year, and I want to acknowledge that. I think we worked this 
budget, and I think we got a reasonable result. I hope we cando 
that again this year; and in the larger picture of the proceedings in 
this Congress that we can make it without getting into fights over all 
the riders and other issues that were so difficult in 1994 and 1995.
    Once again, the efforts of this committee and the 
legislation on the authorizing side have been enormously 
helpful. For example, the Omnibus Park Act has been very 
helpful.

                       land management increases

    In terms of the details of the budget, each of the land 
management agencies has modest increases.

                       fish and wildlife service

    In the Fish and Wildlife Service, the increases are 
principally directed at some extra help in the refuge system. 
The refuge system has really been the stepchild of the National 
Park System, and we need some more help there.
    We have about an $11 million increase requested for the 
administration of the Endangered Species Act. I point that out 
because I think one of the great successes that this 
administration has produced, with the help of this and other 
committees, is lowering the level of contention over endangered 
species issues and making that legislation work. I hope we can 
continue that. Principally through engagement at the local 
level and a great deal of participation of stakeholders and 
State Governments, I think the patterns of success will 
continue to emerge.

                         national park service

    In the National Park Service, we have a 1 percent across-
the-board increase. That simply reflects the continuing 
escalation of personnel costs and increased visitation to units 
in the Park System.
    I would identify just one trend in the National Park System 
that I think is of importance for the future and for the 
deliberations of this committee, and that is the continuing 
trend toward the planning and implementation of mass 
transportation.
    Grand Canyon is going to be the first one up. We have 
developed a consensus management plan which has the support of 
the Arizona delegation as well as a great deal of public 
support. In the next five to seven years, to plan will allow 
visitors to park their cars at the entrance to Grand Canyon and 
then move into the South Rim via mass transit. It will change 
the entire nature of that park experience because the South Rim 
of the Grand Canyon on a summer day right now is worse than 
downtown Manhattan. There has been talk of putting up a ``No 
Visitors'' sign on a summer day, that is, ``No Additional 
Visitors'' and I am absolutely opposed to that. I think we have 
an obligation to say to the American people, ``These are your 
parks and you ought to be able to see them.'' The mass transit 
transition is the way to do that.
    We're going to have a chance at Yosemite to look at this 
issue in great detail. The reason is that the General 
Management Plan at Yosemite, which is the other really bad 
congestion problem in the park system, has laid out a track 
toward reconfiguring that park.
    The flood of last month, really a disaster which ripped the 
place to shreds, ironically now provides us an opportunity to 
think about how we restore the infrastructure through an 
emergency supplemental forthcoming, in a way which facilitates 
the transition to a very different experience in Yosemite. Once 
again, all that congestion can be phased out at the staging 
area at the bottom end of the valley and create an experience 
much better and radically different from what goes on in that 
park on a summer day right now.

                       bureau of land management

    In the Bureau of Land Management, I would single out two 
items. Congressman Cannon is here; he introduced himself to me. 
He did not threaten to lynch me or do violence on the spot. 
Where is he? Is he here somewhere? Well, at any rate, he's here 
somewhere because of his interest in the Grand Staircase-
Escalante National Monument.
    We have a $5 million proposed increase to work out a 
management plan and to handle all of the related issues at that 
site. I must say that notwithstanding the very substantial 
differences among the various players concerning the wisdom of 
the monument designation, we have established a pretty good 
working relationship with the Governor of Utah in which we have 
essentially said, ``The debate can go on, but in the meantime, 
we must, out there on the ground, see if we can put together a 
working arrangement.'' That's reflected in the budget.
    We have a slight reduction, I believe, for ALMRs, 
reflecting the way in which the investment in the new BLM 
information system has actually reached its peak trajectory of 
funding, because we are now on the threshold of implementation.
    There will be a big base-system test in New Mexico this 
summer, a huge project. These base information projects have a 
very mixed history in both the private sector and Government, 
trying to put up these massive information systems, and I was 
originally very skeptical. I came here and said, ``Include me 
out of this project.'' I would have never begun it.
    Mr. Regula. This is a BLM project.
    Secretary Babbitt. Yes, we're basically putting in an 
information record-keeping, and land management data, and 
geographic information-capable system which encompasses all of 
the data that is in the possession of the BLM. Congressman 
Skeen, you can appreciate what kind of data that is in terms of 
New Mexico. We have all of the original land records going 
clear back to the establishment of the Republic, the Northwest 
Land Ordinance, for instance, and it's all being automated.
    Mr. Regula. This is private and public land.
    Secretary Babbitt. It is only the public piece.
    Mr. Skeen. BLM land.
    Mr. Regula. Okay.
    Secretary Babbitt. But interestingly enough, if you go out 
here to the BLM office in Virginia and want to get into the 
title history of your farm, it was public land once. George 
Washington was out there surveying it, and he kept a notebook 
which is now in the possession of the Bureau of Land 
Management. We're trying to put this all into an automated 
system.
    Let me say a word about the Everglades, the California Bay-
Delta, and the Forest Plan. These are the big, cross-
jurisdictional systemic restoration efforts that we are now 
engaged in. The Everglades restoration continues on track. It's 
an impressive effort.
    What's most impressive is that the State of Florida, the 
South Florida Water Management District, and the other local 
governments in Florida, are putting up half the cost of 
restoration. It's essentially on track and the budget includes 
a proposal for about $100 million to fund land acquisition that 
will be part of therestoration project that is being carried 
out under the leadership of the Army Corps of Engineers at the Federal 
level in partnership with the State of Florida.

                          california bay-delta

    The California Bay-Delta is, in a manner of speaking, a 
western analogue of the restoration of the Florida Everglades. 
Like the Everglades, it is a vast, systemic project that 
extends through the Central Valley and all the river drainages.
    It, like the Everglades, is a mixture of economic municipal 
water development, wildlife restoration, water supply 
management, and in fact extends all the way down into southern 
California through the water system. It is an attempt to 
restructure and reconfigure the system to provide environmental 
benefits and enhanced water supply for agricultural and 
municipal uses.
    Now, like the Florida Everglades, the distinguishing 
feature of this project is the partnership nature of which I've 
spoken earlier. The State of California passed a $1 billion 
bond issue at the last election, essentially to bring up their 
share of participation in this restoration project.
    Under authorizing legislation enacted last year, our budget 
includes $143 million on the energy and water development side, 
but it affects many of the agencies under the jurisdiction of 
this committee. I, therefore, think it's of some importance for 
you to be aware of and involved in the project.

                     pacific northwest forest plan

    The President's Forest Plan has an appropriation request of 
about $70 million this year. That is about the same as last 
year. We are now moving through the implementation phase of the 
plan, and I think it's going very well. The doomsayers were 
wrong. The transition is going very, very well. We are on 
schedule.
    The BLM timetable for the acceleration of the timber cuts 
to match the level of the plan is actually slightly ahead of 
schedule. We have worked out some really important 
relationships with the Fish and Wildlife Service for the 
consultation on timber contracts, and the plan is moving.
    The economies of the timber towns and the other areas in 
the western Cascades are doing quite well. Some of that, of 
course, is because of the transition job money that is in the 
budget. Much of it, I think, is due to broader regional factors 
in the economy, but, by and large, the Forest Plan is an 
emerging success story and the willingness of this committee to 
support it has been a significant factor in that.

                            fire management

    I would like to conclude on two issues, one new and one 
well-known to you. The new one is fire, and the recurring one 
is the Native American issues.
    A year ago, Secretary Glickman and I put out a joint 
document addressing the forest health issues in the American 
West. This is not the Pacific Northwest; this is across the 
Divide in the inland west where we have these drier forests 
dominated in many areas by the Ponderosa pine ecosystems, and 
farther north, the lodgepole pine.
    The problem is now quite well understood and it's quite 
serious. We have a forest health problem. There are, to put it 
bluntly, too many trees in the forest. There are too many trees 
in the forest, and they are causing some deleterious effects. 
Insect infestations and the spread of fungus pathogens are 
killing these tree stands which are weakened by excessive 
competition for water and nutrients. You can see it most 
dramatically in the Blue Mountains of eastern Oregon.
    Ironically, this state of affairs is due to our success at 
fire suppression. That, in turn, is a function of the over-
grazing which accompanied the introduction of livestock into 
the West, removing the fine fuel which used to carry the 
periodic fires that thinned out the forests and kept them 
healthy. They've been exacerbated by the success of our 
firefighting effort in which we, with all good intentions in 
light of the knowledge of the times with forest fires, 
instilled the 10:00 a.m. policy: ``It will be out by 10:00 a.m. 
the next morning, no matter what it takes.'' And we have gotten 
very good at it.
    Now the ironic result of this is that the forests are now 
dense, cluttered, huge accumulations of ground fuel, and when 
fires occur and get out of hand--well, you can see it in 1994 
and 1996--we have these huge, explosive stand-replacing fires.
    Historically, fire tended to move as ground fires, at 
regular intervals, kind of cleaning out but not damaging the 
trees, which have now evolved to be quite fire-resistant. But 
the forests are full now. The fires burn the whole thing down. 
I mean, they just take it out completely, doing enormous 
damage. Our firefighting costs are going out of sight. We used 
to spend an average of $100 million a year fighting forest 
fires; it's now up to $1 billion a year, last year.
    There's an emerging consensus, and I believe it is a 
consensus, that we can manage these forests in an ecologically 
correct way by putting fire back on the land. In order to do 
that--this is one of the ironies of this--we first have to thin 
the forests because they're so thick now that a prescribed fire 
is likely to get out of hand and you would get a chaotic 
result.
    The important thing is, you've got to thin the right trees. 
We can't go back and cut any more of the old growth and further 
decimate that piece of the forest structure. But we do need to 
do some thinning of smaller trees, and it can be done in a way 
that creates jobs and income in the industry.
    We have some wonderful examples of that in Idaho and, 
interestingly enough, down in northern Arizona in an experiment 
carried out by the BLM under the jurisdiction of this 
committee, about which I could talk for hours. I'll make it 
real short, and I'll conclude with the economics of the Mount 
Trumbull experiment, as it's known.
    The old-time timber company left town. There weren't any 
more big yellow-bellies to cut; the old growth had essentially 
been eliminated. This committee, two years ago, financed a 
restoration project carried out at Northern Arizona University 
in which they actually managed to map and use science to tell 
us exactly what the pre-settlement optimum forest should look 
like. They went in and let contracts to thin prior to putting 
the fire back on the land.
    If you go to Fredonia, Arizona, there is a brand new forest 
products company there. They're using small timber, pole-sized 
timber, and making a lot of innovative products. And if you go 
out to Mount Trumbull, you'll see a forest which is being 
restored to health, which is judged by reference to what the 
natural fire of maintained forests looked like.
    There are some implications in this year's budget where we 
have asked for some modest increases. Equally important we have 
asked that you help us examine the fire suppression budgets to 
make certain that we have the flexibility in the appropriate 
circumstances to include fuel management as partof the overall 
firefighting program. There has not been enough of this kind of front-
ending of forest and fire management in previous years.

                        bureau of indian affairs

    Well, lastly, a word about the Indian issues. If it's one 
area where we really haven't reached closure, it's on the 
Bureau of Indian Affairs budget. We are still almost $100 
million below where we started prior to the 1995 budget cuts. 
The administration, myself included, feel quite strongly about 
that, and you'll see it reflected in an increase which would 
bring us slightly above the 1994-95 baseline.
    We recognize the level of dissatisfaction about the conduct 
of these programs and the management of the Bureau of Indian 
Affairs. I'm prepared to talk about that. I would say, just in 
terms of my initial comments, that the reorganization document, 
which has been required by this committee, will be to you about 
April 1.
    It is an enormously complex set of issues, and I have 
personally jumped off the edge into this, feeling that I owe it 
to this committee to give you my best judgment. I have now 
personally gotten into micro-managing one of these 
reorganization projects out in New Mexico for the explicit 
purpose of informing myself of the problems so that I can, 
henceforth, come before you and say, ``Here is my experience 
with this tortured issue of reorganization.''
    Let me just say two or three things. Some of the 
stereotypes are damaging and highly inaccurate. We don't spend 
much on overhead in the Bureau of Indian Affairs. Ninety 
percent of the dollars appropriated by this committee go 
straight out to programs on the ground.
    A significant portion of the budget pays for teachers in 
BIA schools and Indian police wearing a BIA badge out on 
reservations. We have whittled administrative expenses down to 
the point that the amount of overhead is really reaching a 
point beyond which we cannot reduce, for fear of losing fiscal 
and administrative control. There are reorganization issues 
still of some importance, and I can discuss those to the extent 
the committee wants to.
    The two remaining issues: we're going to need to deal with 
this issue of fractional shares. Let me just very briefly talk 
about it because we must come to grips with it. We were dealt a 
blow by the Supreme Court this last year in our efforts, with 
the help of the committee, to do just that. The General 
Allotment Act of 1887 began divvying-up Indian reservations, 
not so much in New Mexico, but all over the Pacific Northwest, 
basically saying, ``We're going to break up the reservations,'' 
so that what were perceived as excess lands could be thrown 
open to the Homestead Act. And they broke the reservations up 
by giving, in effect homesteads, to individual tribal members 
who didn't want the system, but that's the way it went.
    Those homesteads have been held in trust by the Department 
ever since. Many of them are 40 acres of desert shrub land. You 
can go out and find a 40-acre or 80-acre or 160-acre allotment 
today that still looks like it did in 1887. The difference is 
that there are 300 owners of that homestead, and the amount of 
money that it's taken us to manage those records, probate those 
wills, collect maybe $50.00 a month for a grazing lease, 
probably less than that, and put it in a record system and send 
out a check for 10 cents a month to each of 300 heirs is 
collapsing the system.
    We will submit legislation with a fairly straightforward 
way of trying to solve that by limiting any further 
fractionation through changing the heirship laws to limit 
descent in-common to the next generation, and then proposing a 
method, over a period of years, to begin buying these 
fractionated pieces out, conveying them to the Tribes with a 
lien for repayment from any proceeds from the land.

                  special trustee for american indians

    Lastly is the Special Trustee. There is an increase of 
about $4 million or $5 million in the budget request for the 
special trustee. This is an attempt to automate and update the 
trust accounting records for all individual and tribal trust 
accounts. Those problems are proliferated across the years. 
We're getting a handle on them. We have remaining problems 
about what we do about the preceding 150 years. Those issues 
are in court, and we will propose some legislation.
    With that, and noting the arrival of the esteemed chairman 
of the Appropriations Committee, I will quit talking and invite 
any questions or comments.
    [The information follows:]

[Pages 12 - 20--The official Committee record contains additional material here.]


    Mr. Regula. Thank you, Mr. Secretary.
    We'll follow the same pattern we have in the past years; 
that is, the first round we will try to hold to five minutes 
for each of the members, and we'll recognize you in the order 
in which you arrived, with a few exceptions. [Laughter.]
    Mr. Skeen. Few or one? [Laughter.]
    Mr. Regula. Well, I was going to say, Mr. Skeen, if you 
have another committee. I know some of our subcommittee members 
chair other subcommittees, and if you get in a bind, let us 
know and we'll try to accommodate you.
    Mr. Skeen. Thank you, Mr. Chairman. We're all right.

                            balanced budget

    Mr. Regula. Mr. Secretary, we've heard the President talk 
about balancing the budget, and that's sort of a commonly 
accepted goal, but I know that your portion of our budget 
represents a $400 million increase. And I don't see how we go 
from A to B in that framework. Now in the 104th we reduced 
spending. We had one of the best records of the subcommittees, 
about 10 percent over two years and to accomplish these goals 
we're going to have to continue on that path, so I would be 
interested in how you would square the increase with what the 
President is saying is his goal?
    Secretary Babbitt. Mr. Chairman----
    Mr. Regula. Given the fact that discretionary spending has 
been the target. We certainly haven't seen any plans to get it 
out of the entitlements.
    Secretary Babbitt. Mr. Chairman, the President's budget 
accepts and defines a pathway to the statutorily required goal 
of balancing in 2002. Now, that doesn't mean that each and 
every budget of each and every agency must reflect an identical 
reduction or increase or freeze. The President believes that we 
can reach this goal consistent with meeting the administration 
priorities for education, health care, and environmental 
resources. Our budget was prepared in that context. It was also 
prepared in the context of the fact that, notwithstanding the 
importance of these issues, we took the biggest percentage cut 
of any domestic agency. Our base was set back further than any 
other domestic agency in 1995.
    We have, as I earlier explained, of all the domestic 
agencies, we have cut more employees as a percentage of our 
workforce than any agency in this town. We are asking for some 
modest increases to reflect those realities.

                      supplemental appropriations

    Mr. Regula. I just have one other, two others. Do you 
anticipate a supplemental? If so, when?
    Secretary Babbitt. Yes. The California flooding and related 
disasters are being worked up into a supplemental request. The 
major item for us in that supplemental will be Yosemite 
National Park.
    Mr. Regula. When do you anticipate this will come to us?
    Secretary Babbitt. My faithful knowledge source here says 
March 3 is her estimate.
    Mr. Regula. There will be a supplemental submitted?
    Secretary Babbitt. Yes.
    Mr. Regula. Interesting.
    Mr. Yates. How much?
    Secretary Babbitt. I don't think we really know. I can tell 
you that the damage assessments in Yosemite, the place really 
got whacked, are about $300 million. I believe our total part 
of the supplemental, Mary Ann, about $400 million?
    Ms. Lawler. We're still negotiating with OMB on the overall 
numbers.
    Mr. Regula. Do you anticipate, given the date you have 
submitted, that you can repair the damage in a place like 
Yosemite in time for summer visitation?
    Secretary Babbitt. We have a summer visitation plan that's 
going to be fairly complex, but we're probably going to have to 
put up a bus fleet out of at least one of the gateway cities. 
We won't have anywhere near the level of overnight 
accommodations. That's just down. A big problem is with park 
employee housing, because we have a large workforce in the 
park; their housing was just absolutely blitzed. We have most 
of them down in El Porta. So the answer is yes. The park will 
be open, but there will be traffic delays and there will be 
limited overnight accommodations. The Ahwanhee Hotel is still 
open.
    Mr. Regula. My last question is----
    Secretary Babbitt. I am told, but once again, I think maybe 
I should let Mary Ann testify, to dispense the veneer of 
knowledge here.
    The Yosemite number is about $178 million. I said $300 
million. It's about $178 million.

                      balanced budget projections

    Mr. Regula. I noticed in the budget proposal that you 
backload pretty heavily the way to get to the balanced budget. 
You have I think what are unreal projections. One, for example, 
a penny per pound sugar tax. The voters in Florida just 
rejected that. The Administration has proposed to sell a 
billion dollars' worth of oil out of the strategic pretroleum 
reserve in the year 2002. This was put there as a protection 
against an OPEC blackmail, et cetera. Are those real? Are those 
real possibilities or is this just a way to make the thing look 
good?
    Secretary Babbitt. Mr. Chairman, over the past four years, 
the Administration's projections on both sides of the budget 
have turned out to be conservative. If you look at the record 
over the last four years of where we have come in terms of 
budget reduction, and take that as a baseline, I think the 
bottom line is our figures have been conservative. They have 
been entirely vindicated by events. I anticipate that that will 
happen.
    In terms of my small bureaucratic corner of this mega-world 
of the budget, I'll only say that I have rather extensively 
been involved in the preparation for OMB of our five-year 
track. We have a bump up in 1999 and 2000 and 2001 as a result 
of two of the items that I have talked about, the Everglades 
and the Bay-Delta. Those projects have from day one been 
planned and presented to be phased down. The Everglades was a 
four year budget authority request to fund the construction and 
land acquisition. The Bay-Delta, which we put on the energy 
side, is a three year match against the State of California 
bond.
    There are one or two other items of budget authority from 
the Hard Rock Mining Reclamation Fund. Those all fall out in 
the year 2001 and bring us back to a level of spending which is 
virtually identical with the President's request in this year's 
budget. Can we do that? I believe we can. There is going to be 
some more pushing and shoving, but we are getting there.
    The number of total personnel in the Department is 
substantially below our authorized FTE level in last year's 
budget. By how much, Mary Ann?
    Ms. Lawler. We are about 4,000 below our target.
    Mr. Regula. I think, Mr. Secretary, that some of this has 
been achieved. I think you had some pretty good help from this 
subcommittee in getting there because we have provided less 
than has been requested in the past two years.
    Secretary Babbitt. I acknowledge the help of this 
committee. Most importantly in helping us to shape priorities. 
Now, were Mr. Livingston to join this cooperative team here 
with a respectable 602(b) allocation, there in fact would be 
emerging goodwill in this area.
    Mr. Livingston. We'll see.
    Mr. Regula. On that note, Mr. Livingston, I will recognize 
you.
    Mr. Livingston. Thank you very much, Mr. Chairman. Again, 
we'll see.
    Let me be a little bit more specific. Apart from the 
funding generalities, because we'll certainly have ample time 
to deal with that, Mr. Secretary, I want to welcome you first 
and extend my apologies for not being here as you began your 
statement. Mr. Nethercutt and I were over there talking to your 
colleague from the Defense Department. I got here as quickly as 
I could.

                      everglades land acquisition

    But you mentioned the Everglades. I come from the State of 
Louisiana. I happened to turn on the television the other day 
and hear some guy in Florida crowing that every shrimp in the 
Gulf of Mexico is grown and bred in the Everglades. I take a 
little issue with that since we happen to think we spawn a 
great percentage of those shrimp right there in the wetlands of 
Louisiana, a good bit of which is comprised in the Chapely 
Swamp or Chapely Basin. Swamp is a bad word these days.
    At any rate, we were concerned that maybe because the 
Everglades has become the cause celebre, with all apologies to 
my friends from Florida and great envy as well, that maybe 
we're just throwing money at the problem. Since 1993, the 
committees have provided nearly $170 million from Interior 
agencies for the Everglades issues. Hundreds of million of 
dollars in additional funds have been appropriated from other 
departments. A $200 million mandatory program was included in 
the farm bill for the Everglades land acquisition.
    First of all, can you tell me how much of the $200 million 
has been obligated and expended for the lands?
    Secretary Babbitt. Yes.
    Mr. Livingston. What specific properties have been 
purchased?
    Secretary Babbitt. Yes. What we have done in response to 
the $200 million appropriation is we sat down with the Water 
Management District and the Governor's Committee for South 
Florida. We have ranked all of the acquisition priorities. We 
have got a consensus list. We have dispensed to the South 
Florida Water Management District about $25 million. We are 
ready to disperse to the Water Management District another $70 
or $80 million. We are in discussions jointly with the Corps of 
Engineers regarding a disposition of the other half which 
through this plan is focused at acquisitions in the Everglades 
agricultural area in the north. I anticipate that we will have 
those acquisitions pretty much in hand hopefully by summertime.

                          wetlands restoration

    Mr. Livingston. We look forward to getting some elaboration 
on this, as well as a breakdown. I might add that I mentioned 
our own wetlands problems in Louisiana, but I didn't point out 
that for the last 30 years, we have been losing an average of 
between 30 and 50 square miles a year of wetlands in Louisiana. 
So whatever problems the Everglades face are not to be 
considered in isolation. We have some of the problems.

[Page 25 --The official Committee record contains additional material here.]


    Secretary Babbitt. Mr. Chairman, if I might I would like to 
suggest two things because I share your analysis and your 
concern. I think there are some really interesting parallels.
    The first issue is that the Wallop-Breaux bill, which funds 
restoration from, I think it's gasoline sales for outdoor 
motors, but which expires this year. I think it is crucial that 
we get the reauthorization of that trust fund which is set up 
through legislation outsidethe budget process. It has been 
fairly effective in doing some of the wetland restoration projects.
    Second, if I might, I think it would be most appropriate to 
get a larger scale restudy through the Corps of Engineers. They 
are doing some of that, but I think they could be doing more.
    Mr. Livingston. I look forward to working with you on both 
of those. But I think the important thing is to see that any 
money we spend is spent wisely. I can tell you I agree with 
your evaluation of the Breaux-Johnson bill. However, a lot of 
those monies that were spent under that bill and under the old 
coastal zone planning bill in past years were squandered on 
projects that just never had a prayer and everybody knew it up 
front.
    So I think we are getting better. In fact, I am told that 
90 percent of the Breaux fund actually went to build boat 
ramps.
    Mr. Skeen. Is that correct?
    Mr. Livingston. If that's true, then that is outrageous. By 
the way, I get my knowledge the same way you do.
    Mr. Regula pointed out that the Florida voters had rejected 
that penny for pound tax on sugar. Yet it's still in the 
Administration's budget. So I think a correction should be made 
there.
    On January 30, 1997, an article was published in the Sun 
Centennial, which indicates that the Florida water managers may 
be $100 million short of the money that they will need to keep 
the Everglades cleanup work on schedule. The article says the 
delays may lead to new taxes and loans, which would add 
interest payments to a cleanup tab already climbing above 
initial estimates.
    If this article is accurate, and all the backers aren't 
ready either because of a shortfall in funds or other 
difficulties, why is it necessary for the Administration to 
continue to accelerate the chase of the project by requesting 
funds as if they already spent $100 million per year for the 
next four years, as opposed to assessing the situation on an 
annual basis?
    Secretary Babbitt. Mr. Chairman, the Water Management 
District is under a court order and a consent decree that has 
instruction targets in it that they are obligated to meet. Now 
the Water Management District is projecting a cash flow 
problem. There are a variety of financing sources that were 
built into the legislation at the Federal and the State level. 
I think most of the parties agree that there is adequate money, 
but the district says they have a cash flow problem without 
$100 million.
    I believe that they are going to sort it out. They have 
borrowing authority. They have a firm revenue source in the 
consent decree. I don't think they are going to try to amend 
the consent decree. I think they are going to proceed.
    Mr. Livingston. We'll follow that. Mr. Chairman, my time 
has expired. I have other questions on the Lake Tahoe Basin and 
the Grand Canyon, but let me just finish by--I'll submit those 
questions. I'll finish by saying that I have asked the 
Administration to respond to questions regarding the Headwaters 
and New World Mine land, mineral rights, and property exchange 
by the end of the week. When the committee receives a response, 
I would like to submit them as part of today's testimony with 
the Secretary since the majority of these Federal properties 
are under his jurisdiction. With that, I'll submit my 
questions, Mr. Chairman.

[Pages 28 - 74--The official Committee record contains additional material here.]


    Mr. Regula. Thank you. I might advise all the committee 
members that we will anticipate that you will submit questions 
for the record. I would hope you could get them in in the next 
three days or so because it's going to take some time for the 
agencies to respond. This is important information that is 
needed before we try to put something together here.
    Mr. Yates. We're going to have to compete with Congressman 
Burton.
    Mr. Regula. He has a somewhat different mission than we do. 
[Laughter.]
    Mr. Yates. I think he has the attention of the White House.
    Mr. Regula. He should. [Laughter.]
    Thank you, Mr. Chairman. Mr. Yates?

                            native americans

    Mr. Yates. Mr. Secretary, I was particularly interested in 
the comments you had to make about the Native Americans. We 
have been concerned with the problems of the Native Americans 
as long as I have been a member of this committee.
    You were kind enough to send me a memorandum from Frank 
Ducheneaux relating to the current state of Federal Indian 
policy determination by legislation, appropriation, 
reorganization and devolution. That's a pretty all inclusive 
category.
    He says this in the second paragraph of his memorandum. I 
propose to make the memorandum a part of the record, with the 
consent of the Chairman. ``It is our view that Indian Tribes 
are facing the gravest threat to their right of self 
government, their rights to natural resources, and indeed, 
their right to future existence since the termination era of 
the late 1950s and the early 1960s. It's our view we have 
witnessed in the last four years the beginnings of a new eraof 
termination, termination by appropriation legislation, reorganization, 
and devolution. Our review of the current state of Indian affairs is 
directed to two major subjects. One, the efforts in Congress to limit 
or extinguish the authorities of Indian Tribes to engage in activities 
to protect and enhance their natural resources, to enter into economic 
activities for the betterment of their citizenry and to perform basic 
governmental services. Two, the efforts both in Congress and in the 
Executive Branch to reorganize agencies which support or provide 
services to the Indian tribes.''
    [The information follows:]

[Pages 76 - 01--The official Committee record contains additional material here.]


    Mr. Yates. Frank Ducheneaux is a pretty reasonable guy in 
my book. What is your comment on this statement?
    Secretary Babbitt. Mr. Chairman, Mr. Yates, there's a very 
substantial issue here. It rises in its core out of the 
devolution of functions, by the movement to turn programs into 
block grants. Thereby, possibly shrinking the Bureau of Indian 
Affairs out of existence. Now were that to happen, I think the 
Tribes would be in a much worse position. I think that is their 
position.
    Mr. Yates. There is a threat, I believe, to the trusteeship 
which has existed as long as the BIA has existed and probably 
before that, relying upon or based upon the treaties and other 
agreements that were made by the United States Government and 
the Indian tribes. Now you have a statute enacted by the 
Congress under the terms of which it is proposed that the 
trusteeship responsibility be removed from the BIA and 
established in a new trustee's responsibility.
    In your view, what will happen to the concept of 
trusteeship if that occurs, and I understand that's occurring 
now. Is it not?
    Secretary Babbitt. Mr. Yates, the committee will have in 
hand a report I believe by the first of April, statutorily 
required, from the Special Trustee. That report deserves very 
careful attention because the Special Trustee is proposing a 
plan which goes considerably beyond my understanding of his 
mandate and amounts to a proposal to establish an entirely new 
governmental agency outside the Interior Department to take 
with it most of the functions of the Bureau of Indian Affairs.
    Mr. Yates. Will that require additional legislation?
    Secretary Babbitt. Oh, yes, of course.
    Mr. Yates. Thank you, Mr. Secretary.
    Mr. Regula. And thank you, Mr. Yates.
    I am pleased to welcome Mr. Moran as a new member of our 
subcommittee.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Secretary, housekeeping, can you return at 
1:30 if we anticipate recessing at 12:00, and reconvening at 
1:30?
    Secretary Babbitt. Mr. Chairman, I am at your call always. 
[Laughter.]
    Mr. Yates. Not only your call, your beck.
    Mr. Regula. That's a good attitude.
    So for the members of the committee, what I would 
anticipate is a recess at 12:00 and reconvene at 1:30 because I 
have an awful lot of material here to cover.
    Mr. Miller, you are next.
    Mr. Miller. Thank you. I am delighted to be a new member of 
this committee. So many of us complain about the Federal 
Government, but there are so many things to be proud about. 
There is a lot within this committee's jurisdiction. So I am 
excited about being able to work on so many of these things.

                        everglades coordination

    What I want to start off talking about is the Everglades. 
My area of Florida is over 100 miles away from the Everglades. 
I am on the Gulf Coast. But it is a true national treasure that 
we all are proud of. I also recognize that the Federal 
Government is really the major cause of our problems, going 
back to the 1930s in the agricultural area being created and 
the Kissimmee River and all. So we have a Federal 
responsibility, a very legitimate one to address the problem. 
So we share a lot in common.
    Let me start. $200 million came to the Everglades through 
the farm bill last year. The Corps of Engineers has obviously 
the major responsibility and it involves State and regional 
governments, the South Florida Water Management District, and 
local governments. Who is in charge and how is it coordinated? 
How does all the money flow? Explain to me some basics to start 
with, if you would please.
    Secretary Babbitt. It's a fair question. I think the answer 
is very important in terms of illustrating how these things can 
work.
    When I came here in 1993, I sat down with the Corps of 
Engineers, EPA, and the Interior agencies and said, ``let's get 
our act together and see if we can figure out a plan and 
coordinate all of the Federal activities.'' Remarkably enough, 
we put together a group which has worked very well. It's now 
embodied in a statute, the Water Resources Development Act of 
last year, which created what is known as the South Florida 
Ecosystem Reconstruction Task force. It is chaired by the 
Secretary of the Interior, but includes all the Federal 
agencies. It also spells out State participation because the 
second part of this was bringing in the State agencies. It 
evolved kind of as a pick-up game. It is now embodied in the 
statute.
    I think the important thing is to understand the role of 
the three big players. The Corps of Engineers is really the 800 
pound gorilla. The reason for that is that we are talking about 
restoring the water flow and delivery system through South 
Florida for the benefit of the Everglades, agriculture, and for 
the urban water supply for Miami and the coastal communities. 
The Corps of Engineers is in charge of the design of this 
system. It won't be done for two years, but the outlines are 
emerging very clearly.
    There are a good number of State players, but theanchor 
participant is the South Florida Water Management District because they 
hold title to the water works and much of the weight. So you can think 
of the Corps of Engineers as the lead Federal agency, and the Water 
Management District as the other half of the water works team. The 
Interior Department is in it because we are a big land owner by the 
time you stack up the Everglades, Big Cypress and the other parks and 
refuges.

                           everglades funding

    Mr. Miller. For example, the $200 million that came not 
into your agency but as part of the farm bill, how does that 
flow? The money, does it flow through you? Does it go right to 
the Corps?
    Secretary Babbitt. It flows through the Interior 
Department. The land acquisition priority schedule that was set 
up by consensus by the working group in a very rough way, sends 
the $200 million in two directions. Approximately half of it 
will go to the Water Management District, which will acquire 
land along the eastern margin, so-called water preserves in 
Dade, Broward, and West Palm Counties on the eastern margin. 
The other half will go to the Corps of Engineers for 
acquisition of some of the lands in the Everglades agricultural 
area for these water treatment and storage areas. Whether or 
not that money will be dispersed directly or through the Corps, 
we haven't decided. But it's basically Corps of Engineers on 
that side of it.
    Mr. Miller. Let me know when my five minutes is up. Do I 
have time for another question?
    I plan to spend a day down in the Everglades later on in 
March. One area in which I was disappointed with the 
Administration the last time, is the drive I led on the sugar 
program. I led the drive because I thought it was just. You 
know, we made major changes in the farm programs in the United 
States but sugar was not untouched. The drive was a very strong 
bipartisan effort. Congressman Schumer was the lead cosponsor 
on it. Through the sugar program we keep the price of sugar at 
twice the world price. What this price is doing is over 
inflating the value of the land that we're buying from the 
sugar people. We are paying very high prices for the land 
because of a sugar program the Federal Government has created. 
Unfortunately, the Administration didn't really get into that 
particular issue. You went after the tax issue.
    Do you have any idea of what it costs extra because of that 
sugar over-evaluation? We are farming lands that are marginal 
lands only because the price of sugar in this country is twice 
the world price. A lot of people question whether sugar is 
really paying their fair share because they say they are paying 
too much of their share. Would you comment about the impact of 
the sugar program on the over-evaluation of land and the 
overuse of land down there-because of the artificially inflated 
prices of sugar?
    Secretary Babbitt. Congressman, I am not the Special Trade 
Representative, nor the Secretary of Treasury, nor the Chairman 
of the Council of Economic Advisors, nor the Secretary of 
Agriculture. Nonetheless, I have an opinion I'll be glad to 
share with you.
    The maintenance of quotas for the protection of any 
agricultural industry is a dubious practice for all of the 
reasons that you have just laid out. They are all manifested in 
the sugar area south of Lake Okeechobee.
    Mr. Miller. Would you get more involved in trying to do 
something about that program? I mean I think Mr. Yates was a 
supporter and there's a lot of strong support on the democratic 
side of the aisle, so it was one of the unique bipartisan 
issues.
    Secretary Babbitt. I would only say that the agreed 
authorization of the Agriculture bill was an opportunity to 
change that. We didn't get it.
    Mr. Yates. I will, Mr. Miller. The task of restoring the 
Everglades has been a prime concern of this committee for 
years.
    Mr. Regula. Let me piggy back just quickly. Is the science 
keeping up with the actual construction, development plan, 
whatever, so we don't make the same mistakes we made initially?
    Secretary Babbitt. Mr. Chairman, it's an important 
question. You will see in our budget detail, the Interior 
Department has kind of been the lead horse on the science. 
That's because of the role of the Geological Survey in doing 
the hydrologic baseline and the biological studies.
    I believe you have been good to us on the science side. 
That's again in our budget. Now I have got to tell you, I think 
this project is a tribute to everybody involved. It is working. 
It is the biggest restoration project that has ever been 
undertaken anywhere in history.
    The key closure on this comes in 1999 when the Corps of 
Engineers will produce the final restoration plan with all the 
hydrologic and modeling studies. That process is underway right 
now and the outlines are emerging. The legislation that was 
passed last year requires a final document from the Corps of 
Engineers in the summer of 1999. The Corps is essentially in 
charge of modeling the hydrology. The Geological Survey has 
been leading the life science and hydrological studies of the 
static system, if you will, along the model.
    Mr. Regula. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman. Mr. Secretary, 
welcome again this year. I listened with interest to your 
comments about fire policy and that there is not a fire 
problem, there's a fuels problem. I agree with that. I have 
been saying that for some time. In fact, you may know that 
under another budget, through the Agriculture Appropriations 
Subcommittee that I'm on under Chairman Skeen, we funded a 
program in the Pacific Northwest in my district on the Colville 
National Forest, for the extraction of small diameter logs as a 
forest health remedy. It's being implemented not quite yet, but 
we are getting there.
    So it is consistent with your comments that we need to 
focus on forest health as a priority and to extract some of 
these commercially viable timber supplies out.
    I have some question about your Department's willingness to 
harvest timber. I think I heard you correctly that there would 
be no controlled burns in the Pacific Northwest. Am I correct 
in that? Did I hear you say that this morning?
    Secretary Babbitt. This analysis and science does not apply 
on the west slope of the Cascades. It certainly applies to the 
east side forest. That includes an awful lot of eastern Oregon 
and some of eastern Washington as well.
    The dividing line in terms of the science and the role of 
periodic fire make it really an east side issue. On the west 
side, the fire ecology is vastly different as was studied in 
the President's Forest Plan. The scientists, I think correctly, 
say it doesn't work the same way. The wet forests on the west 
side of the Cascades can only very infrequently stand replacing 
fires that occur on a scale of hundreds of years between fires, 
rather than up inyour neighborhood in the Ponderosa dominated 
forest, where the normal fire cycle is seven, eight, nine, or ten 
years. Every 10 years you get a fire.
    Mr. Nethercutt. So I am hearing you say you expect there to 
be some controlled burns on the east side.
    Secretary Babbitt. Oh, yes.
    Mr. Nethercutt. Of the State of Washington.
    Secretary Babbitt. Absolutely.
    Mr. Nethercutt. Now are you aware that we have a tremendous 
problem with EPA on particulate matter, that have gone from PM 
10 to PM 2.5.
    Secretary Babbitt. Sure.
    Mr. Nethercutt. Have you talked to Mrs. Browner about it? 
What are we going to do about that? That's a great problem for 
us on the east side of the State.
    Secretary Babbitt. You are right. It is a problem. It is, 
in my judgment, a manageable problem. We have been working with 
EPA. We have some really bad events, a notable one in Phoenix, 
where Phoenix sort of got wiped out by smoke. There's some in 
Central Valley, California. We have learned a lot from those. 
By and large, the EPA regulations will accommodate a modest 
amount of this kind of burning if it's done at the right season 
with the right atmosphere.
    Mr. Regula. You mean existing or new?
    Secretary Babbitt. Existing, and there may be some 
adjustments.
    Mr. Nethercutt. Let me advise you, sir, our Department of 
Ecology in the State of Washington has eliminated all burning 
in the State, including grass burning. That means not just near 
populated areas. That means everywhere. We are in the second 
year of a three-year program. So now we have the Federal 
Government, with all respect, saying we're not going to do 
this. We are going to burn. So therefore, we have got--and I 
don't agree with the policy frankly, of my own State Department 
of Ecology, because it's so wide spread and it ignores science 
in my judgement. But I think that was a directive frankly from 
the EPA. You know, subtly, but through implication. So I am 
trying to figure how we are going to square your plan with my 
State's policy.
    Secretary Babbitt. It's a complex transition. Just three 
observations. Some States have adopted plans like the one you 
described in Washington. In my judgement, for the most part, 
they are not mandated by Federal law. I would readily 
acknowledge that until very recently most of the air quality 
regulators at all levels have taken the position that we are 
going to keep everything. You know, fires are always to be 
discouraged and prevented. If there's an evolutionary kind of 
thing coming here, I think we can work this out. I acknowledge 
the problem, but it's at both the Federal and the State level. 
It's not always a unilateral Federal mandate.
    Mr. Nethercutt. Am I out of time?
    Mr. Regula. You have another minute.
    Mr. Nethercutt. I have a bit more to say. Let me just ask 
quickly. You and I are familiar with each other with regard to 
our policies in the Interior Columbia Basin Ecosystem Project. 
That project has cost about $40 million in seven western 
States. It's a four-year long project. I believe it was either 
you or others who have represented to this subcommittee and the 
Department of Agriculture as well that there would be a 
cooperative effort as we implement ecosystem management in 
these States.
    The organization of counties in these States initially said 
we'll work with the Federal agencies who deal with the 
implementation of this project. Now they have withdrawn their 
support on the basis primarily that there hasn't been enough 
cooperation in consulting with these local sovereign county 
organizations or municipalities.
    Is the EIS program going to move ahead as anticipated, not 
withstanding the absence of support from the counties that are 
affected by this Federal project?
    Secretary Babbitt. Congressman, the answer is yes. But 
there is a much more complex story. Let me see if I can recount 
it very briefly.
    There has been an extraordinary level of consultation over 
the last four years, I think reflecting great credit on the 
organization of counties, certainly Elaine Zilinsky, who is the 
BLM leader on our side and the Forest Service. Really some fine 
relationships have developed.
    Things got a little bump at the end when the regulatory 
agencies built up a really good track record with the two land 
management agencies. The regulatory agencies, as they tend to 
do, showed up at the last minute. This is an old regulatory 
habit. It manifests itself and I think the counties felt like, 
``Hey, wait a minute, they are coming in bumping this process 
in the ninth inning.''
    There is still a lot of discussion going on out there in my 
judgement. I hope that we can put something together. The 
process will go forward. There is still room for change until 
we see, sometime in April or May, a draft environmental impact 
statement. It's not a final decision document. It's going out 
for comment. This is not a pre-cooked deal. There is still a 
lot of space.
    Mr. Nethercutt. With all respect, there is some convincing 
to do I think among the populations that I represent. There is 
great concern about the heavy handed Federal Government. I have 
talked to you about this before.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Mr. Secretary, very typically there will be some 
areas that you and I will find very fertile soil toward working 
together on, specifically energy efficiency, energy 
conservation, reducing our country's dependency on Middle 
Eastern oil, dispelling of the notion that we have to continue 
urban sprawl by stretching our cities out and building roads 
and the creation of new generation vehicles. I am 100 percent 
for the motives that I think we share in these areas.
    I have two specific questions. I am going to throw them 
both out now so you can measure your response to fit within my 
five minutes of allotted time, please.
    In the Tennessee Valley watershed, and I'm the chairman of 
the Tennessee Valley Authority Caucus, we still have water 
quality problems as a result of abandoned coal mines. We have a 
fund that is not being used for the reclamation of those coal 
mines because it's a budget problem. How is the Department of 
the Interior going to help us return fish to some of our 
streams that no longer swim those streams because the PH is so 
low because of the coal mines that are closed. Is there an 
attempt to try to help the local conservation districts or our 
State government deal with this problem of mines?
    Second issue is the Trail of Tears. In 1995, you came to my 
home city of Chattanooga, spoke candidly and eloquently about 
your desire which we also share, to add the MoccasinBend area 
to the National Park system. I will say that that day I think you were 
excessively partisan. It made people from the left and the right very 
uncomfortable. I have heard from everyone there. Nonetheless, the Trail 
of Tears authorization has been in place for some time. I hope that the 
Park Service will support within that authorization some funding for 
some of our trail expansions, particularly the Trail of Tears. I have a 
tremendous Cherokee Indian heritage myself. Right there the Trail of 
Tears started. There would be an excellent place. I look forward to 
working with you and your staff on the advancement of this notion.
    So I have two questions, coal mines and your whole national 
trail plans, and how the Trail of Tears would fit into that.

                           energy efficiency

    Secretary Babbitt. Mr. Congressman, in my best non-partisan 
stance, let me see if I can briefly answer. Just a word about 
energy efficiency. These issues are not central either in my 
job or in this particular budget committee. But the fact is 
that this issue, carbon dioxide in the atmosphere and the 
greenhouse effect, is a known fact it is occurring. The 
consequences are to disrupt the land use and the patterns of 
this entire climate. I think our grandchildren will look back 
on all of us and say they deliberately faced indisputable facts 
and neglected to take action on the most catastrophic and 
disruptive thing that has happened in the modern geologic 
history of this planet. We're all guilty as can be for our 
stupidity and blindness and evasiveness on this issue. That was 
not meant to be partisan. I am a geologist; I am a physical 
scientist, and I am appalled at our collective negligence on 
this issue.
    Now with respect to the stream pollution issue, it's a 
serious problem.
    Mr. Yates. Mr. Secretary, would you please use the mike. 
Don't address him entirely because we want to hear you, too.
    Secretary Babbitt. Okay, okay.

                       appalachian clean streams

    The Surface Mining Control and Reclamation Act passed in 
the seventies, which created the Office of Surface Mining. It 
has been an enormous success with land reclamation, I want to 
tell you. I go out and talk to these West Virginians and 
Tennesseans and see that the quality of land reclamation is 
really magnificent, a great environmental triumph. The water 
problem is still bedeviling us because we didn't see it as 
quite so connective. The rainfall and the precipitation leaches 
into the groundwater table, out of sight and out of mind, and 
you get this stuff that you complain about.
    Now, that leads directly to a line item in this budget 
called Appalachian Clean Streams. We have a modest increase for 
it this year. This program is really working. It's very 
successful. It's got a lot of support because we are targeting 
the problem of sulfuric acid drainage into the streams. So I 
would commend that to your attention.

                             trail of tears

    Congressman, I have thought a lot about the Moccasin Bend 
issues. It seems to me that what we should do is talk about the 
extent to which, and this is the pitch I made when I was down 
there, this could be one of the Heritage Conservation models. 
The National Park Service does not recommend this as a National 
Park site, but I do think it is a perfectly appropriate place 
as a National Conservation area, a Boston Harbor kind of model. 
I'd be happy to work on it.
    Mr. Regula. You're suggesting a local matching local 
contribution as part of that?
    Secretary Babbitt. Yes. I think this is a partnership 
proposal. There's a small amount in this direction in the 
budget proposal for the Trail of Tears.
    Mr. Yates. Mr. Chairman, I had the impression that the 
Trail of Tears began in North Carolina rather than Tennessee.
    Mr. Wamp. The roundup took place in north Georgia and 
southeast Tennessee, and the actual Trail of Tears began right 
there at Ross's Landing at Chattanooga after about 15,000 
Indians camped there for over a year before they began. They 
did pull Indians from North and South Carolina. They gathered 
them. It's really the northwestern portions of South Carolina 
and the southwestern portions of North Carolina. They gathered 
them there in Chattanooga and then began the long trek 
ultimately to Oklahoma.
    Mr. Yates. Do you have some kind of a tract or written 
material on this?
    Mr. Wamp. Oh, I've got full color diagrams and pictures, 
and I'll be happy to provide them. [Laughter.]
    Thank you, Mr. Yates.
    Mr. Yates. I'm very serious about it because I'm very 
interested in that. The Trail of Tears was a national disgrace.
    Mr. Wamp. Yes, sir.
    Mr. Regula. I think Mr. Taylor has some interest in it, 
too, if I'm remembering right.
    Mr. Skeen.
    Mr. Skeen. Thank you, Mr. Chairman.
    Mr. Secretary, it's always good to be with you and watch 
how well you handle yourself, both in partisan and nonpartisan 
affairs. [Laughter.]

                          blm law enforcement

    What I'd like to ask you about is the BLM proposal on law 
enforcement regulations, and get your response, because we've 
had a lot of universal concern in the West with this particular 
proposal. And I appreciate the fact that you've extended the 
public hearing time. Also, that after reviewing the comments on 
the regulations, I think maybe BLM may have to go back to the 
drawing board because there's been an awful lot of adverse 
public comment on the proposal.
    The second part of it is, Why is it necessary for BLM 
employees to attend public meetings with side arms? There's no 
Trail of Tears. We were at the end of that trail, by the way, 
Zach, and we appreciate the fact that you returned our Indians 
to us because they've got all kinds of good casinos going on 
now. [Laughter.]
    Secretary Babbitt. Mr. Skeen, I had a lengthy review of 
this issue out in Boise last week with the Governor of Idaho 
and his people. I acknowledge that there is a serious problem 
of perception, irrespective of whether or not these regulations 
add or subtract or maintain the status quo. What I said to the 
Governor, and what I say to you, is that I'm open-minded about 
this. I'm entirely open-minded. We extended the comment period, 
and at the end of that period I'm going to sit down and go 
through this. I will be back to you to discuss it before we do 
anything more.
    Mr. Skeen. I'd certainly appreciate that. You know, we 
initiated a law enforcement effort in this regard some years 
ago because ofthe drug interdiction and the necessity of so 
much public land involved on the border with the border States. Then 
the effort was closed down or temporarily suspended for a while, but 
this proposal is a whole new approach on law enforcement. I'd 
appreciate going over it with you.

                        payment in lieu of taxes

    One other topic that I'd like to talk to you about is your 
budget proposal to reduce by $12 million the payment in lieu of 
taxes, or PILT program. With a large amount of public land we 
have in our western States, and New Mexico in particular, that 
kind of a hit impacts the local governments, the county 
commissions, et cetera, I don't know how you are forced to 
prepare your budget. But this is hard to take; these PILT 
payments were increased two or three Congresses ago, and with 
the current situation in the western States, the reduction of 
those PILT payments is going to be a disaster as far as local 
government units are concerned and also with financing, because 
that's their ad valorem base, or a substitute for their ad 
valorem base.
    Secretary Babbitt. Yes, I don't deny any of that. I guess 
what we're doing at this time----
    Mr. Skeen. Trying to fit the budget; I understand, but it 
has a tremendous impact on the public lands States, as you well 
know. I'm not telling you anything new. I'd appreciate having 
any discourse with you during the evolvement of this period as 
well.
    Other than that, I think you're doing a pretty fair job for 
a fellow that's as smooth as you are. [Laughter.]
    Mr. Regula. You've got to figure that one out. [Laughter.]
    Mr. Skeen. If you like to play tennis, I don't mind hitting 
you with the forehand, but the backhand comes around once in a 
while, too. [Laughter.]
    I have a great admiration for you. I appreciate the 
openness with which you and I have operated in the past, and 
appreciate it very much, and appreciate your testimony.
    Secretary Babbitt. I appreciate that, and my feelings are 
exactly the same thing.
    Mr. Skeen. Thank you, sir.
    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. I'm really glad to be 
on this subcommittee. I'm much more pleased than I realized. So 
I have a lot of questions that have built up over the years. 
[Laughter.]
    Mr. Regula. Let me say that you have the opportunity to 
submit them for the record. [Laughter.]
    Mr. Moran. Yes, thank you, Mr. Chairman.
    I want to get into at some point the road-building efforts 
in Utah that are designed to frustrate the wilderness 
designation. I share Mr. Yates' concern about what's happening 
with BIA. I would hope that we're entering into some 
negotiations with the Lakota tribal leadership with regard to 
the Black Hills, and I'd like to get into that sometime. Ward 
Valley, turning over that dumpsite, we've already talked about 
before. The Everglades, I want to get into--and an update on 
what are the consequences of eliminating the National 
Biological Survey. But let me ask some local questions first. 
You won't be too surprised that those issues that affect my 
constituents directly might be the first things I ask you 
about.

                           park fee increases

    One of the results of the increase in fees in some of the 
national parks, the National Park Service--in my area, for 
example, Prince William Forest Park, a small park, a nice one, 
we found that when we increased the fees, you could hardly find 
anybody there. Now I'm just wondering if an analysis has been 
done of what the results of the imposition of fees at some of 
these parks is and whether they are counterproductive to use of 
the parks. It's a large area, and I know there are a whole lot 
of national forests that should receive a lot more attention 
than this one, but our experience has been very disturbing. I 
was hoping we might be able to get some of the kids in D.C., 
for example, to go down there and enjoy that park. It's the 
kind of thing I'd like to be able to discuss with you.
    I'm going to use Mr. Wamp's approach, though, to throw out 
a lot of things, and you can sort of decide which ones you want 
to give priority to. [Laughter.]

                             parkway safety

    You probably have noticed in the paper--in fact, the last 
fatality occurred when you were out of the country last week, 
but we've had seven deaths on the George Washington Memorial 
Parkway. It's a National Park Service roadway. It's an anomaly. 
I know that these parkways that are run by the National Park 
Service are no longer scenic roadways as much as they are major 
commuter routes. In fact, just within the Washington 
metropolitan area 75 percent of all the traffic that uses all 
National Park Service roads in the whole country occurs right 
here in the metropolitan Washington area. While we can't close 
down the roads, maybe we can change the management 
responsibility, but, on the other hand, these are wonderful 
scenic areas. I would hate to see the highway engineer types 
take over the George Washington Memorial Parkway, for example. 
It's been a great advantage to have the National Park Service 
responsible, because of their concern for the aesthetics and 
historic preservation, and the like. But there has to be a 
compromise.
    The Park Service said it would take about $60 million to 
put up barriers between the north and southbound lanes. We've 
talked with the highway people and the Park Service, and if we 
are willing to make some compromises to put physical safety 
first, we can get that down to a couple of million dollars. Do 
you think we can find some way within the budget to pay for a 
project like that? It would really only be used where we have a 
very small area between the median strips between the north-and 
southbound lanes and where you've got flat land, so that it is 
dangerous. I'd like for you to look into that and see if we 
might find a way. Somehow we're going to find it, but the 
Interior Department would be the most likely place, since you 
are responsible for the maintenance, upkeep, and really the 
safety of that roadway.

                  mason neck national wildlife refuge

    There is one other question I'm going to throw out, because 
I think it has some national implications, and that's with 
regard to Mason Neck Federal Wildlife Refuge. There's a project 
to develop there, and it would clearly mean the end of the bald 
eagle resting area. Now the policy seems to be somewhat 
unclear. We have been told that there is no authority to 
prevent construction, no matter what it would doto a bald eagle 
resting place that the Fish and Wildlife Service has, but you can 
mitigate.
    Now I'm not sure what your authority is really. It's hard 
to figure out. Maybe the best thing to do is to simply get 
involved and to try to negotiate, but there's got to be other 
situations like this occurring, and I'm sure there's going to 
be all the more of them as we continue to find places to 
develop and we restore bald eagle refuges and some of our 
endangered species are able to find habitat closer to where 
humans live. But I'd like for you to address that, and if you 
may not be able to address it specifically right now, to give 
us some kind of answer, so I can go back to them with what 
authority Fish and Wildlife Service has.
    Do you want to bat any of those balls out of the ball park 
or----
    Secretary Babbitt. Well, I guess I can start.
    Mr. Regula. We're going to run out of time. Mr. Moran, I 
think you've been waiting to get on this committee. [Laughter.]
    We're happy to have you.
    Go ahead.

                       george washington parkway

    Secretary Babbitt. Mr. Congressman, I guess I can start by 
offering the George Washington Parkway to the State of 
Virginia, Department of Transportation; we'd be happy to convey 
it. In fact, I've made that proposal. So far, no takers.
    Mr. Moran. Are you serious? You really want to do that?
    Secretary Babbitt. Yes. The Interior Department--someone 
said to me, ``if you find a well-maintained road in the metro 
area . . . .''
    Mr. Moran. I'm not sure that's true, though. That's why I'm 
not so sure they want it. [Laughter.]
    Secretary Babbitt. But the plain fact is that we ought not 
to be in the road business. This involves the Suitland Parkway, 
the Baltimore-Washington Parkway, and the George Washington 
Parkway. The fact is that there aren't any takers. In the 
meantime, we've got to deal with the safety issues. I believe 
we can. There is money available from the Department of 
Transportation for this sort of effort. I think what we ought 
to do is some arm wrestling with the State Historic 
Preservation people about a compromise between what they would 
want, which is original stone masonry put in piece by piece, 
and Jersey barriers at the other extreme. We ought to be able 
to find a reasonable compromise to get it done, and I'm 
prepared to help get it done.
    Mr. Moran. Terrific, a perfect answer.

                        mason neck right of way

    Secretary Babbitt. Well, with Mason Neck, I believe the 
issue there--I'm not 100 percent certain--is a right-of-way 
across the refuge. We cannot stop adjacent development unless 
we're prepared to acquire the property. I believe the conflict 
point here is a right-of-way across the refuge, and I'll just 
have to get back to you on what our current position is.
    Mr. Moran. Yes, well, if you'll work on it--I don't want to 
give you a bad impression initially, Mr. Chairman. So I won't 
seek an answer to all those questions. Just be forewarned that 
they're all of interest, and I'm very pleased to be a member of 
the committee.
    [The information follows:]

[Page 114 --The official Committee record contains additional material here.]


    Mr. Moran. Thank you.
    Mr. Regula. Yes, we're happy to have you. I was a little 
nervous that you wanted to have them build two additional parks 
this morning, and we're a little short of money. [Laughter.]
    But, anyway, I want to finish up this morning with Mr. 
Kolbe because he has another committee that he has to meet in, 
and at 1:30 we will reconvene and we'll have all the time that 
members who have come back would like to use, because these are 
extremely important issues. I know myself I have a number of 
questions.
    Mr. Kolbe?
    Mr. Kolbe. Thank you very much, Mr. Chairman.
    Secretary Babbitt, I appreciate the chance to get my 
questions in now. I'm discovering what Mr. Regula discovered a 
long time ago; as chairman of a subcommittee, it's hard to 
fulfill your responsibilities on other subcommittees when 
you're tied up all the time in your own subcommittee.
    And I'll leave all the compliments to Mr. Skeen. I've known 
Attorney General, Governor, Secretary Babbitt far too long for 
us to----
    Secretary Babbitt. Disillusionment has set in. [Laughter.]

                  recreation fee demonstration project

    Mr. Kolbe. Respect and disillusionment both, I'm sure.
    I just have two lines of questioning I'd like to follow up 
here. One, on the recreational fee demonstration program, you 
spoke fairly enthusiastically about that in your testimony, 
that you like it, and certainly the administration, I think, 
has shown support for the legislation that we initiated in 1996 
and then expanded in the 1997 budget. And, yet, it seems to me 
what I'm seeing is--I mean, what we contemplated was a fee 
demonstration program in which we'd be testing a lot of 
different concepts, a lot of variety of different kinds of fees 
and of collecting it, and so forth. So far, all we've seen at 
the parks is just a doubling of the fees. Is this really the 
kind of test you think we need to have to see what really works 
and what can work?
    Secretary Babbitt. Mr. Kolbe, I thought you were a friend 
of mine. [Laughter.]
    Mr. Kolbe. Well, I was asking--I thought I was asking in a 
friendly way.
    Secretary Babbitt. Well, what do you want us to do, 
quadruple the fees?
    Mr. Kolbe. No.
    Secretary Babbitt. We actually did that at Yosemite.
    Mr. Kolbe. Beg pardon?
    Secretary Babbitt. We quadrupled the fees at Yosemite.
    Mr. Kolbe. No, I didn't say--I wasn't talking about the 
amount. We're talking about--I think we contemplated different 
kinds of fees, that there would be innovative ways of raising 
revenue, different ways of collecting it. I don't see any 
variety in anything that's been done here, and we gave you the 
authority to try different things. I'm not talking about just 
doubling the amount.
    Secretary Babbitt. Mary Ann Lawler says we are doing 
different things. It's not quite as terrible as you----
    Mr. Kolbe. I didn't say it was terrible. I'm just saying 
I'd like----
    Secretary Babbitt. We have varied fees among different 
sorts of structures, that is, for groups, for annual passes, 
for year-long park passes. We just haven't publicized it. There 
are fees within fees, which I think will work out pretty well; 
that is, in Yellowstone, for example, you pay a separate fee 
for backcountry use. If you want to go fishing, there's a fee 
now. Yellowstone didn't used to charge for fishing licenses. It 
seems logical; if someone wants to go fishing, you ought to buy 
a fishing tag. There are a number of those; we haven't 
published all the particulars, but if you have any ideas, I'd 
be happy to discuss them. Oh, look at this. You'll like this. I 
didn't know about it. I'm afraid we may get back on this, 
they're proposing, at Acadia National Park, they're proposing 
interpretative fees for a guided walk. I think this one just 
cratered. [Laughter.]
    Mr. Kolbe. Well, if I take a tour guide some place, through 
a museum or something, I'd pay for that. I don't see anything 
wrong with suggesting that somebody pay a dollar to get an 
interpretative guide. It's your staff; it's your time. These 
are the kinds of things that I think we would like.
    Are you also doing some things with--things like, I want to 
say, Ticketron things, where you can sell tickets? I can get my 
tickets, my passes, and things, without having to come to the 
park or----
    Secretary Babbitt. Yes.
    Mr. Kolbe [continuing]. Write it by mail. I can do it 
through an outside agency?
    Secretary Babbitt. Absolutely. We are particularly doing 
those at places where we have summer capacity problems. 
Yosemite is a good example. There's a big reservation system 
there. It includes deals on park fees.
    Mr. Kolbe. How about parking fees?
    Secretary Babbitt. Yes.
    Mr. Kolbe. You are doing some of that?
    Secretary Babbitt. Oh, yes, there are lots of parking fees.
    Mr. Kolbe. I haven't been to one where I've had a parking 
fee.
    Secretary Babbitt. Pardon me?
    [Secretary Babbitt confers with staff.]
    Secretary Babbitt. Mary Ann says, ``Give him the list.'' 
[Laughter.]
    Mr. Kolbe. Okay.
    Secretary Babbitt. Here's the list. I have struck the 
interpretative fees. Everything else----
    Mr. Kolbe. Everything else is off of that, though. So, 
okay, I was going to ask a couple of--about rafting fees. One 
other question in this area--well, two other areas, two other 
questions here:

                          maintenance backlog

    One, can you give us some idea of what kinds of maintenance 
backlog needs you're meeting with this new revenue? In other 
words, how are you establishing the priorities of the things 
that you're going to do with this fee money?
    Secretary Babbitt. Okay. The priorities are set out in the 
management plans of each of the individual parks, which get to 
keep 80 percent. The remaining 20 percent flows back to the 
National Treasury.
    Mr. Kolbe. No, okay. I'm talking about the 80 percent.
    Secretary Babbitt. Okay, the 80 percent is----
    Mr. Kolbe. Are we getting to keep the 80 percent?
    Secretary Babbitt. Absolutely.
    Mr. Kolbe. And are they managing how it gets spent?
    Secretary Babbitt. Absolutely. In the Grand Canyon, for 
example----
    Mr. Kolbe. What oversight from the Department on that?
    Secretary Babbitt. Absolutely.
    Mr. Kolbe. I say, What oversight?
    Secretary Babbitt. Oh, it's the management plans. We review 
and sign off on the management plans. Grand Canyon, the biggest 
piece of that went into their transportation system. They are 
allocating some of it to building maintenance, trails, other 
things, but the biggest piece is transportation. We signed off 
on that. That's true also at Yosemite, but there are other 
parks where a lot more----
    Mr. Kolbe. How much will they get--just take Grand Canyon--
can you give me an idea how much will they get in that 80 
percent? How much will they get in this Fiscal Year?
    Secretary Babbitt. We're generating systemwide about $50 
million.
    Mr. Kolbe. Fifty?
    Secretary Babbitt. Yes. About 30 percent of that in the 
Grand Canyon, so they're probably collecting somewhere, I guess 
you might say, $15 million, ball park figure.
    Mr. Kolbe. Are some of the management plans dealing with 
the backlog of maintenance? I mean, you've got----
    Secretary Babbitt. Oh, absolutely.
    Mr. Kolbe [continuing]. Tremendous backlogs.
    Secretary Babbitt. Yes. The one thing we're not spending it 
on is operating expenses.
    Mr. Kolbe. Right.
    Secretary Babbitt. That would defeat the purpose of the 
whole thing. We've had that discussion. The answer, for the 
most part, is transportation, infrastructure, capital, and 
restoration and upgrades to the backlog of building 
maintenance. That kind of stuff.

                           bureau cooperation

    Mr. Kolbe. You know, this legislation we passed was not 
only for, as you'll recall, the Park Service, but the other 
Federal agencies, many of which come under your jurisdiction. 
Could you encourage these agencies to cooperate with, 
collaborate with these others, to share some of this 
information, because the Park Service has said they don't 
intend to collaborate with the other agencies on sharing this 
information?
    Secretary Babbitt. Sure. They just changed their mind. 
[Laughter.]
    Mr. Kolbe. Thank you.
    Mr. Regula. If you'd yield, Jim----
    Mr. Kolbe. Yes.
    Mr. Regula. I believe--you're talking beyond what he has 
jurisdiction over, like the Forest Service.
    Mr. Kolbe. Yes, right. But even within, as I understand, 
they said they were not going to, but, yes, beyond, outside. I 
mean, there's no reason--it's not impossible, is it, for the 
Park Service to talk to the Forest Service and share some of 
the things they're doing in collecting fees and how you use 
them?
    Secretary Babbitt. I'll try that.
    Mr. Kolbe. Okay, thank you.

                         glen canyon dam flood

    One other question: it was a big--a great deal of publicity 
last year when you turned the big spigot there at Glen Canyon 
Dam and released all the water. I must say I did a raft trip 
last July, and it was quite impressive. You could see the clear 
results of the spike flow. Now, according to the news and some 
of the other things that we've read, we're going to do another 
one of these things, and it appears that it may just end up 
eroding what we've already accomplished there. Do you have any 
concerns about that?
    Secretary Babbitt. No.
    Mr. Kolbe. No?
    Secretary Babbitt. But let me explain. We are on the verge 
of another one, thanks to a very wet winter, and the release is 
going to have to be ramped-up in order to meet the operational 
targets at Glen Canyon. These things happen. Basically, what 
we're getting is a flood on a flood, which may erase a 
significant amount of the positive effects of the restorative 
flood. That was always anticipated. What will happen is that 
the beaches will go down quicker than they normally would have. 
But in due course there will be a sediment buildup in the river 
channel, and after a period of years we'll run a short flood 
and put it all back up again. So it's not perfect, but that's 
the way it goes. I don't think it invalidates the premise for 
the restorative flood.
    Mr. Kolbe. In your own--okay. So I'm not sure if I 
understand that. You think they'll go down, but then they'll 
come back up, and you think that overall in the long term that 
it'll work?
    Secretary Babbitt. Sure, because there is a renewable 
supply of sediment being transported down the river channel. 
You can do one of these floods. Without these intervening 
events, what they're saying is you can probably run a short 
flood to restore the beaches probably every six or eight years, 
nine years, something like that. There will be enough sediment 
in the channel again that you can flush it and pull it back up.
    Mr. Kolbe. How do you get--with the dam there, how do you 
get that sediment down the dam----
    Secretary Babbitt. Well, that's interesting. It's coming in 
through Paria Creek on one side and the Little Colorado on the 
other. They've measured precisely the sediment transports, and 
they judge that, on about a seven-year cycle, there's enough 
extra sediments in the river to put it back up.
    Mr. Kolbe. I just might ask one other, one last question. 
Thank you very much for those answers. Oh, will you have a 
result of this new water release that you'll make available?
    Secretary Babbitt. Yes.
    Mr. Kolbe. Give it to the committee, or whatever?
    Secretary Babbitt. Yes. It will take some time, because the 
current plan is to ramp it up, I think, to about 20,000 cfs and 
they'll let it run for quite a long time. Yes, but we can get 
it.
    [The information follows:]

              Results of 1997 Releases at Glen Canyon Dam

    This spring's Glen Canyon Dam releases are intended to 
ensure the safety of the dam in response to very high snowpack 
conditions throughout the Colorado River basin. Releases at 
Glen Canyon Dam are expected to be at 27,000 cubic feet per 
second in early March, an average of 24,000 cfs from then 
through April, and 21,000 cfs from May through July. We are 
currently monitoring the effects of these high releases and 
will continue to do so. It will be this fall before an 
assessment of the impacts of these releases can be completed.

    Mr. Kolbe. That is, I guess, the concern: the longer it 
runs, the more of the erosion that takes place.
    Secretary Babbitt. Yes.

                   capital improvement revenue bonds

    Mr. Kolbe. As you know, I've introduced a bill to provide 
revenue bonds for capital improvements for parks, and the bonds 
will be repaid through a surcharge. I know that's on top of 
other charges that are already there, but it seems to me for 
some of our larger parks especially, like Yosemite or 
Yellowstone or Grand Canyon, it's a great opportunity for us to 
meet some of the very specific capital needs there. We don't 
pay as you go for most of the other capital needs in our 
society; only the Federal Government does that. But does this 
kind of approach make sense to you? And if so, I'd sure like to 
have your endorsement of this idea.
    Secretary Babbitt. Yes.
    Mr. Regula. If you'll yield, Jim--he mentioned about this 
bus service in the Grand Canyon and Yosemite.
    Mr. Kolbe. Yes, but that's being done with the--that's the 
exact kind of thing that we would do.
    Mr. Regula. That's what I was going to suggest.
    Mr. Kolbe. Yes, that's the exact kind of things that we 
would do with these kinds of revenue bonds, but that's not--
what you're talking about now, it isn't being done with that, 
because we don't have the legislation to do that.
    Secretary Babbitt. Yes, I support legislation. I think it 
would be important to draft legislation fairly carefully and 
encourage us to go in with a handful of predetermined projects. 
There's a fair amount of resistance to this, and it's kind of 
the sense that it would be a mistake to get into a vast program 
of front-ending stuff, thereby permitting revenues for use in 
one big pot. If you could focus that legislation to deal with 
specific projects, the transportation issue at Grand Canyon is 
a perfect one because if you get the system up, you have a 
transportation fee, and you amortize it, and everybody agrees 
it ought to be done.
    Mr. Kolbe. Exactly.
    Secretary Babbitt. My own preference would be to isolate 
two or three or four projects like that and authorize them in a 
bill, just those. I would support that.
    Mr. Kolbe. I'd hate to see it just limited to a couple of 
those projects, but if we could get something that gets your 
support and gets it moving, at least to try it and start it, 
I'd certainly like to work with you. We worked very closely 
with Roger Kennedy, Senator McCain and I, on the introduction 
to our legislation last year, and we're going to make an effort 
again this year. So we'd hope we've got your support----
    Secretary Babbitt. The big problem is that Treasury has 
some big problems with this idea. I'm not clear. Part of it is 
over the tax-exempt issue, but I think it's a good idea, yes.
    Mr. Kolbe. We concluded after the discussions with Treasury 
we would not make them tax-exempt; they're taxable bonds.
    Secretary Babbitt. That's helpful.
    Mr. Kolbe. Yes.
    Secretary Babbitt. That's helpful.
    Mr. Kolbe. Thank you very much, Mr. Chairman. Thank you 
very much.
    Mr. Regula. Thank you.
    Just as a followup on yours, and I might advise the 
committee members we have a vote on the journal followed by 
three suspensions.
    Mr. Kolbe. Oh, okay.

                        glen canyon release rate

    Mr. Regula. Would you consider changing the full pool 
target in January to allow for greater capacity in terms of the 
flooding to give you better management control?
    Secretary Babbitt. Mr. Chairman, I think that's really up 
to the Bureau of Reclamation in how they operate against the 
annual operating claim. I don't think there's a lot of 
discretion in the way they operate these things during flood 
season and I'm reluctant to try to second-guess them.
    This issue of how fast they ramp it up and down is 
important because that's where the real beach problem is. But 
in terms of their judgments about how much water's got to get 
out in a given period, I'm not keen to take the responsibility 
for explaining why southern California got washed away because 
of the way I changed the release rates. [Laughter.]
    Mr. Regula. The committee will be in recess until 1:30.

                           Afternoon Session

    Mr. Regula [presiding]. We'll reconvene the hearing of the 
subcommittee.

                                  guam

    Thank you for coming back, Mr. Secretary. I might as well 
lead off with a tough one. Both the Washington Post and the 
Wall Street Journal had recent articles on the change in policy 
toward Guam, and, frankly, the articles, as you probably 
noticed, tied it to campaign contributions. That's not our 
mission; it's Dan Burton's, but I am concerned that there's 
some consideration of changing the policy out there, because 
it's historically been rejected through several 
administrations. I'm curious as to what suddenly has caused a 
change of heart?
    Secretary Babbitt. Mr. Chairman, I think it's probably best 
for me to sort of recount my involvement with this issue, 
starting in 1993. When I came to Washington and became 
Secretary of the Interior, what I knew about Guam was that it 
was an island somewhere west of here, and that's about it. 
Senator Bennett Johnston, as Chairman of the Senate Energy and 
Natural Resources Committee, and George Miller, as Chairman of 
the House Committee on Resources, both were very interested in 
the status of Guam, which they perceived to be in need of a 
reassessment. So they both discussed it with me, and we had 
some discussions in the committee hearings here. I went back to 
the Interior Department and began to discuss this issue in the 
Department and in the Administration, and what I rapidly 
learned was that Guam was an important issue, not just because 
of the budget issues involving Interior, but also at the 
Justice Department, because of the immigration issues, and very 
much in the defense establishment because of Guam's position as 
a forward-staging place after the withdrawal from Subic Bay 
and----
    Mr. Regula. Yes, right.
    Secretary Babbitt [continuing]. All the other positions in 
the Far East.
    I had some discussions with Tony Lake and with other people 
at the National Security Council. It became very clear to me 
that our policy toward Guam was going to be Administration 
policy and I really wasn't in any position, as the Secretary of 
the Interior, for the Interior Department to be the lead on re-
examining and looking at all the status issues in Guam.
    I went back to the White House and recommended to them that 
they appoint a Special Representative to represent the White 
House, not any one Department, to formulate Guam policy on 
behalf of the White House in consultation with all the affected 
agencies. I recommended that Mike Heymann be designated as the 
Special Representative to Guam. I had just hired him as my 
Counselor in the Department, and he had a rather extensive 
background on some of these issues. The White House did just 
that. They named Mike Heymann as Special Representative to 
Guam. He went off and managed that issue in conjunction with 
the State Department, the National Security Council, Justice, 
and all the other major players.
    When Mike was nominated to be the Secretary of the 
Smithsonian, he resigned that task. Everyone agreed that it was 
the correct model, and the White House went about selecting a 
successor to Mike Heymann. They settled upon a staff member of 
the National Security Council, who then became the Special 
Representative, who resigned after, I would guess, 
approximately a year. I don't remember, I think he retired or 
left the government or something.
    At that point, approximately that point in time, John 
Garamendi came on as the Deputy Secretary. I suggested to John 
that he would be a good replacement and he should approach the 
White House, with my backing, to be named as the Special 
Representative----
    Mr. Regula. When was this, datewise?
    Secretary Babbitt. Well, it's all on the record. It would 
have been January of 1966----
    Mr. Regula. Okay.
    Secretary Babbitt [continuing]. Plus or minus thirty years, 
1996. [Laughter.]
    We're in the ball park.
    So I suggested that he seek the job with my support. That's 
precisely what he did. He was named Special Representative by 
the White House to coordinate Guam policy. That's about the 
extent of my involvement.
    Mr. Regula. Can these policies be changed by Executive 
Order or do the proposed changes that the President is making 
require legislative action?

                              guam status

    Secretary Babbitt. Well, this has always been a legislative 
issue. The status of Guam I have, during the course of my 
involvement, always viewed as a legislative issue. We have 
dealt with the Trust Territories again and again and again, 
Micronesia, Palau, the Commonwealth of the Northern Marianas, 
and Guam was kind of the next boat in the channel for having 
its status defined by legislation. I mean, this had gone on in 
previous Administrations. Guam was just kind of sitting there. 
It's a territory of the United States, and the expectation was 
high in Guam that eventually the Congress would pass a status 
bill defining Guam. I think they had a referendum out there, 
and that was the reason the authorizing committees have always 
been interested in this.
    Mr. Regula. Well, do you support commonwealth status for 
Guam?
    Secretary Babbitt. I, you know, could argue it round or 
flat. My feeling, when I persuaded Mike Heymann to take the 
job, my feeling was that it was important that we engage with 
Guam and try to get a proposal from the administration and 
Congress. Now it turned out to be a very complex deal because a 
proposal from the administration must have the signoff, at a 
minimum, of the Defense establishment, Justice, the State 
Department, and presumably the Interior Department as well. 
Although in the context of the status legislation, the big 
interest were the other three agencies, in my judgment.
    Mr. Regula. I have to say that I'm shocked that the 
administration that has indicated its support for strong labor 
laws would be here now proposing to give Guam control of the 
immigration policy, which could very well result in the 
importation of thousands of low-wage-earners from Asia and 
subject them to poor treatment, including a possible ban on 
unions. That has been the experience in the Northern Marianas, 
and what they're proposing is to do the same thing in Guam. I 
can't fathom that this administration is going to--but 
obviously they are--going to support a policy of that type. 
Maybe that's not your ball game, but----
    Secretary Babbitt. This may be above my pay grade, but I'd 
be happy to respond. The issues relating to the Northern 
Marianas have been hot issues in the authorizing committees in 
both the House and the Senate with a long track record of 
debate and engagement occurring in the authorizing committees. 
It's something Mr. Miller had a lot of interest in, and the 
Representative from the Commonwealth of the Marianas, the 
Congressional Representative, was deeply involved in it.
    Now with respect to the Guam issue, I've not been involved 
in the making of Guam policy. That's the bottom line. I sized 
this thing up and said we need a Special Representative at the 
White House. They're now on their third Special Representative. 
I haven't been involved. It's not dereliction of duty. I 
recognize that somebody else has gotten the responsibility, and 
I've got plenty of other things to do.
    Now if you want my opinion about it, as somebody who is not 
a supervisor or a director of it, Garamendi circulated a paper 
with proposals. I'm not aware that they were signed off by 
other agencies in the administration. I just don't know. I 
don't want to opine on it.
    Mr. Regula. So you're saying that Garamendi's pretty much 
on his own on this one?
    Secretary Babbitt. No, no, he responds to the White House. 
I mean, he's the President's Special Representative on Guam.
    Mr. Regula. Oh, okay, but not necessarily----
    Secretary Babbitt. I do not supervise----
    Mr. Regula. Right.
    Secretary Babbitt [continuing]. Garamendi's representation 
of Guam; that's correct.
    Mr. Regula. Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.

                              fire policy

    Mr. Secretary, again, I want to follow up on our discussion 
a little bit this morning on prescribed burning and wildfires. 
I have a practice of trying to keep track of what you say 
around the country relative to what you say here. And I know 
that you gave a speech in Boise----
    Mr. Yates. That's unfair. [Laughter.]
    Mr. Dicks. I tried it for a while. I gave up. [Laughter.]
    Mr. Nethercutt. I know you spoke in Boise about wildfires 
and your fire plan and made some comments. My staff has done a 
good job, I think, in quoting you stating that our skies may in 
fact be too clean. And I was concerned about that relative to 
my discussion with you this morning about Ms. Browner's agency 
and the dynamics between EPA and the Department of the Interior 
as it relates to conditions in my own State.
    So I also noticed this morning you said that you want 
additional money for the wildfire and prescribed burning 
account. Are you aware that our committee provided large 
increases above the President's request last year for hazardous 
fuel reduction work? And I assume you are aware of that, in 
Fiscal Year 1997 the administration requested the same fuels 
treatment funding as was appropriated in 1996, $24.5 million 
for the Forest Service, and I realize that is a little 
different jurisdiction, but this committee and the Senate 
agreed to provide $29.5 million for fuels work. Assuming that 
that information is correct, why are you asking for more if we 
have previously given you more than you asked for as I've 
indicated?
    Secretary Babbitt. Because we need more. Now the reason for 
that is very simple. My analysis runs something like this: what 
we should be focusing on in this program are the Ponderosa-
dominated forests of the inland West. I think that in order to 
make an assessment of what we can do, we should set aside 
wilderness areas and National Parks, not because they don't 
need attention, but because you don't start with the 
controversy.
    Mr. Nethercutt. In terms of burning now?
    Secretary Babbitt. Yes, yes. You know, the real question in 
wilderness areas and parks, for the most part, is: are we going 
to manage natural fire rather than extinguishing it? So the 
place to start is on the forests and to some degree BLM lands 
that are available for multiple use and timber cuts.
    Now that is, by any calculation, a couple of hundred 
million acres. We are talking about the levels that will work 
in this of several million acres out of a couple hundred 
million acres. We've got to scale this up. I believe the costs 
will come down as we get better at letting our contracts for 
thinning and as we get the economies of scale. The bottom line 
is we've just touched the problem.
    Mr. Nethercutt. I understand. I guess my attitude is, why 
do you rely on the burning component in a greater degree than 
you rely on the harvesting component or on the sustaining of 
the timber industry in hard-pressed areas across the Pacific 
Northwest?
    Secretary Babbitt. Well, I don't agree with that.
    Mr. Nethercutt. You don't agree with what?
    Secretary Babbitt. With what you just said.

                             timber harvest

    Mr. Nethercutt. Well, why don't you--you're not requesting 
enough money in your budget to include this component of 
harvesting. You do include the component of fire--you know, 
prescribed burning, but I don't see the numbers going up with 
regard to continuing a harvesting practice--
    Secretary Babbitt. Oh, yes----
    Mr. Nethercutt [continuing]. That allows the economy of 
these small timber areas to have a life.
    Secretary Babbitt. Mr. Congressman, the two go together. I 
don't mean in the budget presentation to suggest that. Let me 
just illustrate a couple of reasons why it's not apparent.
    In the Mt. Trumbull experiment we are contracting out via 
timber sales the thinning component. It doesn't appear in our 
budget because they do the analysis of what's necessary 
preparatory to doing a burn or a timber contract, and the mill 
in Fredonia, Arizona, comes down and thins it out according to 
the fire prescription.
    Mr. Nethercutt. Well, maybe bring those on--I mean, we're 
sort of waiting in the Pacific Northwest to get a level of 
harvest that's sustainable in terms of not only the economy, 
but forest health.
    Secretary Babbitt. I understand, and we can scale this up 
reasonably. I think it's important not to raise expectations 
that this is some sort of panacea West-wide in terms of 
employment. It's a very promising area. We should scale it up 
as much as we reasonably can, and understand even that in some 
cases we may be subsidizing this thinning operation. I'm not 
sure that it's economical everywhere. If it isn't, we'll need 
to actually subsidize it.
    Mr. Nethercutt. Well, I commend to you this program through 
the Forest Service in my own district that has been designed in 
a fashion that is environmentally acceptable. It may not be 
acceptable to everybody, but to a reasonable person it would 
be, and I know perceptions differ, but it really allows the 
thinning process to occur in very dense areas.
    I invite you again out to my district. I would love to have 
you come. I'll give you safe passage, and I would love to have 
you come. [Laughter.]
    Secretary Babbitt. God forbid, we might actually agree on 
something.
    Mr. Nethercutt. Oh, sure.
    Secretary Babbitt. It might compromise your reputation----
    [Laughter.]
    Mr. Nethercutt. No, no, no.
    Secretary Babbitt [continuing]. To say nothing of mine. 
[Laughter.]
    Mr. Nethercutt. It would enhance it, I'm sure, and I would 
love to have you come out West. We have some very serious 
issues that face us economically and environmentally, and you 
don't have to have exclusively one or the other, in my 
judgment.

                            heritage rivers

    Let me go to another question that comes really out of the 
President's State-of-the-Union Message, in which he declared 
grandly that he would designate ten heritage rivers in our 
Nation, one of whichmay be the Columbia River. I'm wondering to 
what extent your agency, your Department, was involved in that piece of 
the President's State-of-the-Union Message, No. 1. And, No. 2, to what 
extent American Rivers was a part of the genesis of that idea, and, No. 
3, can you help allay some of the concern in the western United States 
with a Columbia River that is used in a variety of fashions. There's an 
interesting book out--I won't necessarily give credit to the author 
other than to say it's an interesting book by Blaine Harden called A 
River Lost: the Life and Death of the Columbia. He has his biases, and 
I understand that, but, on the other hand, it's a very interesting 
analysis of the Columbia River system and the Snake River, both of 
which are in my own district.
    I'm worried that somehow we're now in a position of having 
the Federal Government, perhaps your agency, exercise greater 
control and greater restriction over the Columbia River and the 
other rivers that are part of this proposed Heritage River 
Program that the President announced. That's a multiple 
question or a compound question; I'm sorry.
    Secretary Babbitt. No. 1, I plead guilty to instigating the 
idea.
    Mr. Nethercutt. Thank you.
    Secretary Babbitt. It's an excellent idea, and I was 
pleased to see it developed into the President's State-of-the-
Union speech. It does not necessarily include the Columbia 
River. No designations have been made.
    Mr. Nethercutt. Would you object or would you propose that 
the Columbia River be involved? It's come to my attention that 
it is one, that it has been determined----
    Secretary Babbitt. No, no.
    Mr. Nethercutt [continuing]. Along with the Hudson and 
Mississippi----
    Secretary Babbitt. No, simply not true, and I could argue 
that all kinds of different ways, and largely those judgments 
will be made by criteria which have not yet been established 
and according to local demand.
    I'll tell you one river that I think--do you want my 
opinion where there's going to be one?
    Mr. Nethercutt. Sure.
    Secretary Babbitt. Because a local community wants it, 
because it is a popular idea, where people understand the 
implications and will be looking for help and support and 
partnerships.
    Mr. Yates. I would expect it would be the Cuyahoga Valley 
River. [Laughter.]
    Would you yield for a question?
    Mr. Nethercutt. Sure.

                        heritage rivers funding

    Mr. Yates. Where is the money coming from for the Heritage 
River Program? For example, do you propose to use money for 
that program by taking it from urban programs in your----
    Mr. Regula. If you'll yield----
    Mr. Yates. I'll be happy to yield.
    Mr. Regula. Did you yield to him?
    Mr. Nethercutt. Oh, I certainly did, yes.
    Mr. Regula. The administration says there isn't any money 
associated with it, no cost.
    Mr. Yates. No money for this?
    Secretary Babbitt. No money; that's what I'm told.
    Mr. Yates. Oh, come on.
    Secretary Babbitt. No legislation. [Laughter.]
    No mandates.
    Mr. Yates. Well, there's nothing to worry about, then, 
George.
    Mr. Dicks. It sounds like the Biological Service. 
[Laughter.]
    Secretary Babbitt. That's cruel. [Laughter.]
    Mr. Yates. Okay, thank you. Thanks, George.
    Secretary Babbitt. The point is this: you may remember that 
in 1995, after some rather sharp disagreements around this 
town, I basically left town. I said there's nothing I can 
achieve around here. I spent six or eight months just traveling 
around the country trying to figure out what people were 
worrying about in their communities. What I found was that 
there's a really interesting grassroots movement going on in 
this country of people and stakeholders of all kinds, farmers 
and communities, coming together, looking at watersheds and 
kind of starting negotiations about how they restore their 
watersheds.

                             cuyahoga river

    Where the light bulb really came on for me was one April 
day when I went to Cleveland and met a guy named Wayne Bratten 
who took me up the Cuyahoga River to a place where the river 
burned in 1969. I'll tell you it was awesome because that river 
has been restored; the city is being rebuilt along the banks; 
there are all these businesses coming up and herons cruising 
the river. There were fishing boats on it. I got interested in 
Cuyahoga and I went down to the Chairman's part of the country 
and saw these people restoring buildings, putting up bed and 
breakfasts, worrying about development patterns, all sorts of 
things. They're doing it all by themselves.
    I said, ``What do you want? What do you want from me?'' The 
answer was, ``not much.'' They said, ``We'd like to see a 
little more of the Fish and Wildlife Service, to help work out 
some of these problems. When we're restoring rivers, we'd like 
more technical help from the Fish and Wildlife Service. We 
could use a little more engagement from EPA because we've got 
these waste water issues that, by and large, have really worked 
very well. We've got some problems. We'd like to just see them 
here working with us.'' That's really what this is about. It's 
just that simple.
    Now what it really amounts to is the President saying--on 
the basis of local communities saying, ``We'd like our river to 
be on this list of 10,''--``I, the President, am going to 
select 10 where I'm going to tell all the Federal agencies: you 
guys really pay attention. I'm going to put the weight of the 
Presidency behind this process.'' That's it.
    Mr. Nethercutt. Well, I don't----
    Secretary Babbitt. If you tell me that you do not want the 
Columbia River on this list, my guess is it won't be on the 
list----
    Mr. Nethercutt. I'm not here to tell you that. I'm here to 
just get some sense from you, as the head of a very important 
agency that deals with public lands, that you're not going to 
impose the Federal Government's weight on the entire river 
system and seek to control it to the exclusion of people who 
are directly affected by it; that's all.
    Secretary Babbitt. Yes, at the risk of undermining the 
reputation of this program, what I might say to you is this is 
really a Republican idea. [Laughter.]
    Mr. Nethercutt. Welcome to our party. [Laughter.]
    Secretary Babbitt. No, in seriousness, there really isn't 
any kind of money legislation sort of overlay that's intended; 
quite the opposite.
    Mr. Nethercutt. I'll reserve some time. Thanks.
    Mr. Regula. Mr. Secretary, we're going to do a 87 mile walk 
along the Ohio and Erie Canal Corridor this summer, and you 
will be invited.
    Secretary Babbitt. I accept.
    Mr. Regula. We may not go the full 87 miles. [Laughter.]
    Mr. Skaggs.

                            park overflights

    Mr. Skaggs. Thank you, Mr. Chairman. I appreciate getting 
back in line from when I was here this morning, and I've got 
another subcommittee meeting in a few minutes.
    Mr. Secretary, I'm sorry I missed some of the back and 
forth later this morning. I at least wanted to say thanks for 
your support and leadership in dealing with the overflights 
prescription issue and the progress, in particular, at Rocky 
Mountain National Park, which I know would not have gotten 
through the hoops of the Department of Transportation if you 
hadn't been using your own mystical powers to move things 
along. So I appreciate that very much.

                  green river basin advisory committee

    On a different topic, we are aware that the Green River 
Basin Advisory Committee, which I think is one of those 
collaborations among diverse stakeholders that follows the kind 
of approach to problem-solving that you have endorsed in many 
places, has come up with a proposal for dealing with things in 
that particular resource area that has met with approval all 
around the table, but evidently has run up against some problem 
in the Solicitor's Office having to do with whether you have 
the authority to make some adjustments in use of royalty 
payments. And I don't expect you to have an answer right now. I 
just wanted to flag it for you, and I hope there's a way to 
make what is a good-faith collaborative process work to 
everybody's benefit in that particular area, mainly Wyoming, 
but a piece of Colorado. If you have any thoughts on it----
    Secretary Babbitt. No, I think you characterized it exactly 
correct. We put that up in an attempt to get stakeholders 
together to see if we could expedite the consensus-building as 
a prelude to some of the oil and gas leasing and a variety of 
other things. It's actually quite successful, and there is a 
series of recommendations that they have sent back. The royalty 
offset is the one issue that the Solicitor wanted to look at, 
and the package is sitting there, but I think it will be up 
very quickly. Pending the Solicitor's okay, I'd like to 
implement all of our recommendations.
    Mr. Skaggs. Well, if this has served to surface the need 
for some statutory flexibility in situations like this, I'd 
sure as heck like you to have some discretion to make this 
process work rather than just having it dead-end because of a 
legal problem that we ought to be able to workout.

                     federal highway funds in parks

    Another relatively arcane point: I noticed in the catalog 
of deferred maintenance and other capital needs that the Park 
Service put out a while back several items having to do with 
road construction and repair in parts of the Park Service 
jurisdiction that really are just metropolitan road systems, 
like the George Washington Parkway and the Independence Avenue 
part of the Washington road system. I'm uninformed about the 
history of this, but it would seem to me that that unfairly 
burdens the Park Service budget with something that is really 
basically a Department of Transportation/Federal Highway matter 
much more than it is a Park Service matter.
    Secretary Babbitt. I think it's an area that needs more 
attention from all of us. There is a Federal Highway Land 
Program, which is funded through the Department of 
Transportation as part of the national program. All public 
lands share in that.
    My feeling has always been that we should get a more 
generous allocation out of both the basic road legislation and 
out of some of the ISTEA categories. That is a very timely 
subject because ISTEA legislation is up for reauthorization 
this year.
    Mr. Skaggs. One reason for broaching it, given the squeeze 
on our 602(b), anything we can do creatively to pick somebody 
else's pocket for these purposes I think would be----
    Mr. Regula. If you'll yield--Jim Hansen I think has a 
letter to Bud Shuster requesting a larger allocation in ISTEA, 
and you may want to sign on with that. He's circulating it. 
It's right down the alley of what you're talking about.
    Mr. Skaggs. Good. You can send him my way.

                         western confrontations

    I wanted to ask for an update on any incidents of 
confrontation out West over the last year since you were here, 
whether we've cooled off tempers and temperatures as far as 
your agencies are concerned and some of the county property 
movements, and so forth.
    Secretary Babbitt. Yes, I think we're doing better. There's 
been a kind of relaxation of tensions, for a lot of different 
reasons, I suppose. I think our policies have helped some. The 
Resource Advisory Councils that we have implemented as part of 
the grazing reform are now in most States up and really 
working. I think people are getting an increased level of 
confidence that we're really serious about listening, about 
finding consensus, and implementing it where we find it.
    Colorado was the first State to finish the regulatory 
process through the Resource Advisory Councils. There are a 
whole bunch of them coming up right behind, and that has been 
helpful. I think there's been a variety of things like that, 
and I would say that, by and large, I think it's headed in the 
right direction. I really do.

                 revenue bonds for capital improvements

    Mr. Skaggs. I'm curious whether anybody in the Department 
has given some thought, now that we are starting to experiment 
with dedicated park entrance fees and their application, to 
some of the capital requirements of the park system. Do you 
think it would make sense to go one step farther, if we could 
figure out the legislation, and lock in a system whereby that 
increment of entrance of fee could be used to fund essentially 
a revenue bond approach that could accelerate taking care of 
these needs, get it done faster and cheaper, and then pay it 
off with the revenue stream coming out of entrance fees over an 
eight-or ten-or twelve-year period?
    Secretary Babbitt. We had a very interesting discussion 
about this this morning. It was raised by Mr. Kolbe.
    Mr. Skaggs. I'm sorry.
    Secretary Babbitt. No, let's collaborate on this. I think 
we were actually working our way on a course with some new 
ideas.
    The bonding concept has been pushed by Senator McCain and 
Congressman Kolbe because of Grand Canyon. Now the initial 
response in the Administration has been mixed. The Treasury 
Department has a number of technical problems that are being 
worked upon. I was, frankly, a bit of a skeptic, and I'll tell 
you that my skepticism comes out of Mission 66, which was a big 
building program in the National Park Service back in the 
1960s. When you put up a giant pot of money, I'm not confident 
that it really gets, in retrospect, spent that effectively. I 
have this vision of revenue bonds and my ideas of what the 
priorities are, being way down across the system, mortgaging 
revenues for successive Congresses. I'm, frankly, a little 
skeptical.
    Now what emerged this morning, I thought, in our discussion 
was something that I think we might actually be able to do. 
That is to draft legislation and authorize a handful of 
projects. Don't do it systemwide, but authorize three 
demonstration projects, four demonstration projects, and see 
what happens. I'm certain, for example, that the transportation 
system in the Grand Canyon is the number one slam-dunk for this 
approach. We've got the revenue source directly tied to the 
system. Everybody agrees; it's a new idea that's been underway 
for a long time. There may be a few others. On that basis, I 
think that we could probably find some consensus and maybe get 
moving on it.
    Mr. Skaggs. Well, I'd like to encourage you to pursue that 
in whatever manageable scale makes sense from the 
administration's point of view. I think there are several 
parks--certainly Rocky Mountain could be a candidate in our 
area and, no doubt, more than a few others.
    Thanks, Mr. Chairman.
    Mr. Regula. Mr. Dicks.

                       habitat conservation plans

    Mr. Dicks. Mr. Secretary, I want to welcome you here today, 
and I want to commend you for your hard work in the Pacific 
Northwest on habitat conservation plans. I think we've made an 
enormous amount of progress in that part of the world with a 
whole series of major companies doing very significant habitat 
conservation plans. The State of Washington has done one. I 
know you were out for that ceremony. I think this is a major 
step forward in that, coupled with the President's timber 
program, you're getting major landowners to also do very good 
conservation planning, and my hope is that over a period of 
time we're going to be able to show the people of the Northwest 
and the rest of the country that we have really stepped up to 
the plate and made significant steps that will give the 
industry certainty about its ability to go out and harvest some 
timber. We ought to be able to protect the fish and other 
species. These are all multiple-species HCPs.
    I want to say you and I have had some conversations about 
your regional people, particularly Curt Smith, and I know 
you've made your decision, but I think these people deserve 
some considerable appreciation not only from the Congress, but 
from your Department, for the great job they've done out there. 
I mean, they're right there in the midst of putting these 
agreements together. There's always going to be some criticism, 
as you know, but I think overall we have made an enormous step 
forward and that this is a great accomplishment for the 
administration. I think it's going to have a good benefit, as I 
mentioned, in giving some certainty to the companies and to the 
State of Washington, but also setting up very strong 
conservation plans that go along with the President's plan. And 
I hope that out of all that we'll be able to, hopefully, deal 
with the smaller landowners, and I think we're working on that 
out there, to see if we can't finish these efforts on an 
ecosystem basis on the west side. I think it's--I'm very 
pleased with the direction, and I want to compliment you for 
your leadership in this.
    Secretary Babbitt. Well, I accept the compliment, and I 
agree with everything that preceded it. [Laughter.]

                             fire fighting

    Mr. Dicks. Now I'm with you, also, on the fire thing. There 
was a professor at Berkeley, of all places, who--I think it was 
30 or 40 years ago--suggested that we were making a major 
mistake on the west side--I mean on the east side--and 
suggested that the use of fire actually has a positive effect 
on the trees. Some limited fire does have a positive effect in 
hardening the trees, so that certain bugs would then not infest 
the trees.
    Everything has to be done with obvious reason, but what it 
said to me was that maybe adaptive management, the use of 
thinning and the use of some controlled fires, can have a 
positive effect on these forests and avoid the catastrophic 
events that occur if you don't do that.
    And this man from Berkeley, this professor from Berkeley, 
was roundly criticized by all of the, I would call them, 
preservationists who said, ``No, no, no, no, no, you can't do 
anything. You can't.'' And I think that was a mistake, and I 
think he has been--there was a very good article written in the 
Seattle Post's Intelligencer about three years ago that went 
into this in great detail, about this whole history. And then 
you had some people who were invited by the Forest Service, 
like Chad Oliver from the University of Washington, who went 
over and led a team, and they looked at forest practices on the 
east side. They came back and said basically what you've said, 
that this is the right--that some controlled use of fire can be 
a positive thing and can help avoid catastrophic events.
    So, you know, I know that all of us have to represent our 
districts, and there's always concerns and issues, but I think 
you probably have the science on your side on this one. It's 
been a little slow to come, but I think it's worth considering.

                       timber harvest objectives

    Now the only other thing I would say, the one thing I still 
think we owe the people of the Northwest--this is not your 
problem, but we still, the administration still, has to deliver 
on its commitment to get 1 billion board feet off the BLM and 
Forest Service lands, and we're getting there, but it's very, 
very slow and there is some dispute about how we're helping 
things, whether these are green sales--that was the impression 
I had when we were doing this--or whether the Forest Service 
likes to, and the BLM likes to, lump together some things that 
were not part of the package when the package was originally 
created. So I still think as best we can we've got to keep 
moving in that direction to keep our word, and that's one thing 
we'll be working on this year, as we have in the past.
    And I hope we can be honest about these numbers, too. I 
just worry that sometimes, in efforts to try and undermine 
timber sales, we use a lot of numbers that, frankly, I don't 
think are very objective. I think people come to this withone 
perspective on below-cost timber sales, but I think the program--you 
know, as I've told you many times, in my own district on the Olympic 
National Forest we had at least a 95 percent reduction in timber 
harvest, and that was very hard for people to accept up there. But part 
of the promise was that, hey, we were going to stay with it, and at 
least we can get our 10 or 20 million board feet down from 250. So I 
really do believe we've got to keep that part of the promise, and I'd 
just like to hear any comments you have on that.

                     pacific northwest forest plan

    Secretary Babbitt. I share your assessment. I think that 
the Forest Plan has, by and large, really worked out rather 
well. What we have to do is now drive it to conclusion in terms 
of perfecting the consultation mechanisms with the Fish and 
Wildlife Service, making certain that we are meeting the timber 
harvest objectives which are laid out in the plan. I'm well 
aware that we have done some stumbling around on it. The 
consultation process has not been entirely protected. There's 
been opposition to timber sales in sporadic places, even though 
they were included in the plan.
    But we need your help, Congressman, in this Quinault Tribe 
timber issue on the Olympic Peninsula. I'm not sure where 
that's at. It would be very helpful if we could get----
    Mr. Dicks. Well, I talked to Curt Smith about that, and to 
the Forest Service, and I urged the Forest Service to be more 
forthcoming. The only other thing I would say, too, is that the 
other parts of the program, the community assistance has been 
very, very much appreciated.

                          wolf reintroduction

    That has helped a lot of our communities out there deal 
with these problems, and also I need your help on reintroducing 
the gray wolf into the Olympic National Park. We're going to 
attempt to do that, and I think the success in Yellowstone with 
the red wolf should help us here.
    And I would just ask one final question. When are you going 
to sign the EIS on the Mexican wolf for Arizona?
    Secretary Babbitt. The record and decision will be up very 
shortly.
    Mr. Dicks. We're working. We have wolf haven in Toneida, 
Washington. They're developing----
    Secretary Babbitt. And there's some up there?
    Mr. Dicks. Yes. They're doing the wolves for this program, 
and they're very--the red wolves, by the way, were in Takoma in 
my district, but in Toneida they're doing the Mexican wolves, 
the captive breeding program. So they're very interested to 
know when this is going to finally be signed off on.
    Mr. Yates. No objection by the ranchers?
    Mr. Dicks. Well, you have the same Defenders of Wildlife-
type program where they have a little truss line in case--you 
know, they don't usually go after sheep or cattle; it's deer, 
elk in our part of the world.
    Secretary Babbitt. Let me just respond real briefly on it. 
This opens up another thing that this committee should know 
about. The key to many of these issues is in fact management. 
The acceptability of the wolf in Yellowstone I think has been 
enhanced by the use of the experimental designation and our 
stated willingness, which we're now acting upon, to take out 
the wolves from the park that become problems. We're having a 
similar problem up there now with the bison, and it involves 
many, interestingly enough, of the same issues. The bison, 
under the pressure of the winter snows, are drifting down off 
the north side of the park, and we can't pen them up in the 
park. What we need to do is manage the numbers, and that could 
appropriately include off-park hunting programs. We can work 
out a little more understanding among all the parties that the 
bison can be out on those winter ranges, and in exchange for 
having them out there, we would mutually work out programs that 
would allow some sport hunting to keep the numbers under 
control. It's just another issue in management.
    Mr. Dicks. Well, you're absolutely right on the wolf thing. 
You've got to manage it. If you get domesticated wolves, they 
have to be eliminated or else you're going to have problems in 
these campgrounds, and then it's--it doesn't happen very often, 
but, as I understand it, in Minnesota and up in Canada this is 
exactly how they do it. They manage it. If there is a problem 
wolf, they eliminate it, so that they can keep the good will of 
the local community. That certainly, I think, is the right way 
to proceed. Having this trust fund there from Defenders I think 
has helped us with the cattlemen and sheep ranchers.

                     biological resources division

    Mr. Regula. Mr. Yates, we'll go to you, but I just have one 
question. How's the former National Biological Service working 
out as part of USGS?
    Secretary Babbitt. Mr. Regula, it's in my written 
testimony. I do want to say that it is working very well. The 
transition went off without a hitch at the end of the last 
fiscal year. After a national search, Dennis Fenn was appointed 
as the Chief Biologist. I think the very lack of discussion and 
intention, and, indeed, the lack of interest, is sort of the 
best proof of how well it's going. I appreciate the help from 
the committee and from your office in making that transition. 
It could have been pretty tricky. In fact, we all sat down and 
got it worked out, and I'm very pleased with the results.
    Mr. Regula. Thank you.
    Mr. Dicks. Well, our chairman I think deserves a lot of 
credit for that.
    Secretary Babbitt. I concur because it was in the 
chairman's office that the final decisions were made about some 
of the organizational points. I didn't agree with them all, but 
we accepted them; we got them done, and they've in fact worked 
out very acceptably.
    Mr. Regula. Thank you.
    Mr. Yates?

                       endangered species funding

    Mr. Yates. Mr. Secretary, I read last year that you helped 
six California condors into the wild of northern Arizona. By 
all accounts, it's been a pretty good success, and I wonder, 
can you continue to do things like this if the Fish and 
Wildlife Service isn't granted the increase you request?
    Secretary Babbitt. Well, the answer is, by and large, no. 
If you'd like me to amplify a little bit----
    Mr. Yates. Well, I would, because I think that it's a good 
program, Mr. Chairman. We've been doing with falcons and with 
other birds for years, and with condors in California. Do you 
intend to expand this program into other areas? Perhaps you 
should tell us about that.
    Secretary Babbitt. I hadn't thought of condors cruising 
down----
    Mr. Yates. The Hudson River. [Laughter.]
    Secretary Babbitt. No, down Michigan Avenue in Chicago.
    Mr. Yates. Well, it's an interesting thing to consider. 
[Laughter.]
    Mr. Dicks. Is that their native habitat? [Laughter.]
    Secretary Babbitt. The condors are very popular in Arizona.
    Mr. Yates. I'm not thinking only of the condors; I'm 
thinking of other animals and other birds. Do you have other 
programs in mind?
    Secretary Babbitt. There are a number of rather successful 
restoration efforts going on around the country. Interestingly 
enough, I was talking about bison; the bison is coming back in 
amazing ways. The initial restoration effort now has happened 
everywhere you go in the West. I was down in Kentucky at a TVA 
project where they had reintroduced bison onto the landscape.
    Mr. Yates. What do you mean by ``reintroduced?''
    Secretary Babbitt. Well, there were bison in the Shenandoah 
Valley when the Europeans arrived here.
    Mr. Yates. Really? Is that right?
    Secretary Babbitt. The bison ranged----
    Mr. Yates. I thought they were a western animal.
    Secretary Babbitt. Well, I would like to claim credit for 
them, but in fact they ranged across the entire United States. 
They were everywhere. The Virginia Fish and Game Department 
reintroduced some in Virginia. So there's a lot of interesting 
possibilities.
    Mr. Yates. Well, that's bison; are there other animals you 
have in mind and other birds?
    Secretary Babbitt. Well, you know, the most exciting one I 
have a picture of my office. It's a picture of a jaguar--a wild 
jaguar--inside the boundaries of the United States. They are an 
awesome creature, and they are now repopulating the far corner 
of Arizona and New Mexico in the Pelconcillo Mountains. I don't 
know whether you want jaguars in Chicago, but they are a 
remarkable animal.
    Mr. Yates. Well, you want jaguars in Arizona.
    Secretary Babbitt. Yes, absolutely. Absolutely.
    There are a lot of things underway that are working rather 
nicely.
    Mr. Yates. What's the status of the Florida panther?
    Secretary Babbitt. The Florida panther has gotten a little 
help from some more sexually virile Texas panthers which have 
been reintroduced to sort of kind of----
    Mr. Yates. Help them out.
    Secretary Babbitt [continuing]. Help them out a little bit, 
and they're doing fine.
    Mr. Yates. Are they?
    Secretary Babbitt. Yes. ``Fine'' is too strong a word. But 
compared to where they were, with the introduction of the Texas 
animals, the results are pretty good.
    Mr. Yates. Well, the reason I ask that, I saw an article in 
one of the papers saying that they are at the point of 
extinction.
    Secretary Babbitt. Well, that's why the Texas ones were 
brought in, yes.
    Mr. Yates. But that's not true anymore?
    Secretary Babbitt. Well, relative to where we were, we're 
up a tiny bit.
    Mr. Yates. They've got a long way to go. Staff informs me 
there are 20 of them in the wild. That isn't very many.

                       natural resource subsidies

    The President's Council of Economic Advisors has recently 
recommended reducing subsidies for such activities as logging, 
mining, and grazing. I don't know whether that can be done. We 
tried over the years to do that. Mr. Regula led the drive to 
reduce grazing and mining, and all of us on this committee 
have, I think with some success, brought logging within some 
bounds. I say that knowing that I'm being surrounded by people 
from the whole country----
    Mr. Dicks. You certainly have succeeded. [Laughter.]
    Mr. Yates. No, I don't take credit for all that. But can we 
reduce those subsidies?

                          minerals royalty fee

    Secretary Babbitt. Mr. Yates, if I may, there is in this 
budget, and I overlooked that in my testimony, a proposal for a 
five percent net smelter royalty fee for minerals. I believe 
that there is a real chance that this Congress might choose to 
act on that. I would call it to your attention and to the 
committee's attention, because the impetus for this has come 
traditionally from the House side. I testified before the 
Senate authorizing committee yesterday, and there was, I 
thought, an unusual amount of interest in these issues, 
possibly signifying a desire to reach closure. The net smelter 
royalty is a clear, unequivocal concept that can travel apart 
from any kind of authorizing legislation, so far as I 
understand.
    Mr. Dicks. Would you yield?
    Mr. Yates. Sure.
    Mr. Dicks. I appreciate hearing that from you, Mr. 
Secretary. I was in the middle of this issue, and, frankly, I 
was disappointed that there didn't seem to the same willingness 
to come to grips with this as we saw in the Northwest with the 
HCPs, that kind of approach: let's get in there; let's work 
with the industry to try to solve this problem. And this sounds 
like a real proposal, because, as I remember the numbers, the 
numbers are that the profitability of the mineral industry in 
the United States is around four percent. I mean, it is very 
low. So you have to have a royalty that is within--that's going 
to leave them in a viable position. And I'm glad to hear that 
the administration is willing to try to come to grips and 
settle this. I think if we can solve these problems, we're far 
better off than leaving them fester on and on and on. I think 
it's bad for the industry; it's bad for the environment. I 
think you've proven that you can settle these issues. So I 
commend you for at least trying to do it.
    Mr. Yates. Are you aware of the speech of Senator Bumpers 
in pointing out what the profits are in selling the land if 
they paid $2.50 an acre for it?
    Secretary Babbitt. I am not aware of Senator Bumpers' most 
recent speech on this subject. [Laughter.]
    Mr. Yates. Well, to my knowledge, his most recent one was 
when he tried to cut that in the last debate.
    Mr. Dicks. I'm sure that Secretary Babbitt will be a good 
steward and do his statutory job and protect the taxpayer, and 
we're hoping he solves this problem because, if you don't, 
you're going to do bad things to the environment and you're 
going to drive these people out of the country, and I don't 
think that's good for the States. It's not a big issue in my 
part of the world, but it's a big issue in the Rocky Mountain 
West.
    Mr. Yates. Are you intending that they shouldn't pay a 
higher royalty to the country?
    Mr. Dicks. I say pay one that's reasonable, and let them 
negotiate out and find out what that is.
    Mr. Yates. Oh, that's fine. That's fine.
    Mr. Dicks. I think Secretary Babbitt can cut a good deal 
for the country.

                         interior appointments

    Mr. Yates. You're having trouble filling some of your 
important official positions. Is that problem going to be 
enhanced by the departure of Ms. Cohen? [Laughter.]
    Secretary Babbitt. The departure of?
    Mr. Yates. Bonnie Cohen. [Laughter.]
    Secretary Babbitt. Has Mr. Yates offered you a job? 
[Laughter.]
    Mr. Yates. I had heard that the new Secretary of State was 
offering her a job, and I wondered whether that was 
sufficiently attractive to woo her from you. [Laughter.]
    Secretary Babbitt. Mr. Yates, perhaps I might say only this 
by way of being polite----
    Mr. Yates. Well, you're having difficulty filling some of 
the jobs. Are conditions so bad over there that Ms. Cohen may 
want to go to State?
    Secretary Babbitt. Mr. Yates, the most flattering thing 
that can happen to the administrator of an agency is to have 
other agencies prospecting and trying to lure your employees 
away.
    Mr. Yates. Well, that's correct.
    Secretary Babbitt. It is a magnificent statement about the 
quality of the people that I associate with. [Laughter.]
    Mr. Yates. That's why I asked you the question, because I 
agree with that statement, and I wondered whether or not there 
was any truth in it.
    Secretary Babbitt. Only time will tell. [Laughter.]
    Mr. Yates. Okay, I guess that's as good an answer as you 
can give. You don't want Ms. Cohen to testify?
    Secretary Babbitt. That's correct. [Laughter.]
    Mr. Yates. Okay. All right, I'm through, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. Well, thank you, Mr. Chairman. I don't want to 
take a lot of time. I just wanted to----
    Mr. Yates. I thought she should be in the record somewhere.
    Mr. Obey. I just wanted to come by and hear what the 
Secretary was saying, was pushing, this afternoon.
    Mr. Secretary----
    Secretary Babbitt. A large variety of goods, Mr. Obey. 
[Laughter.]

                         national park threats

    Mr. Obey. I would just ask, I guess, one thing. Congress 
has a reputation for caring about the national parks, and I 
think individual members like to pride themselves on the 
nurturing and the protection, and yet I think we have this 
image of beautiful mountains, wonderful streams, and all the 
rest, but I think we often forget or lose track of the fact 
that these parks have a lot of problems.
    I wonder if you'd just take some of the major parks--
Yosemite, the Grand Tetons, Zion, the Grand Canyon, Glacier, 
Yellowstone, et cetera, some of the northeastern parks, the 
Everglades----
    Mr. Dicks. Don't forget Rainier and Olympic. [Laughter.]
    Mr. Obey. Well, I thought you'd take care of that. 
[Laughter.]
    Mr. Dicks. I just wanted to get them on your list.
    Mr. Obey. If you'd pick out five or six of those parks, 
could you describe to us what you see as the major threats to 
them that Congress ought to be concerned about, whether it is 
mining or whether it is public usage or development pressure 
outside the park or air pollution or water pollution outside 
the park? What should we be aware of? What are we missing and 
what needs tending?
    Secretary Babbitt. It's an interesting question. There are 
really two kinds of problems. One we've been discussing this 
morning, and that is visitor management, facilities, 
transportation, internal problems. The other big and 
increasingly difficult problem is how the park relates to the 
ecosystem or the landscape that it's located within.
    The reason this is a problem is the empty spaces are 
filling up--and that's the bottom line--with subdivisions, with 
industrial activity, with roads. Yellowstone is right now much 
on our minds because the animals used to migrate fairly freely 
off the boundaries of that park. Yellowstone is, in the 
parlance of the ranching trade, its summer range, and its high 
country, and animals like cattle in the West tend to move 
toward winter range low down, and there ain't no winter range 
in Yellowstone. That's the problem we have with the bison 
there. They're crowding down into the Yellowstone Valley, and 
they are being slaughtered by the hundreds. It's really just an 
unacceptable situation.
    Mr. Regula. Slaughtered outside the boundaries?
    Secretary Babbitt. Yes, right at the boundaries. You put 
your hoof across the boundary and you're dead. It's sort of a 
prison being run by park rangers at borders. I don't mean to 
get hyperbolic, but it's a problem that shouldn't exist because 
we ought to have enough public land and some selective private 
purchases in the Yellowstone Valley, so that those animals can 
drift off into the low country in the winter and find enough 
forage tosustain a reasonable size herd. That is a classic 
example of the problem that we're having all over the place.
    Now at the Grand Canyon it's airplanes. It's a park-wide 
problem. We've wrestled it to the ground just temporarily; in 
incremental fashion, Grand Canyon is popping up everywhere 
else.
    Yosemite has got development problems coming at them 
through the foothills of the Sierras. That's a problem with the 
Grand Canyon as well. Those are, just to take a couple, the 
kinds of issues facing the parks. They're tough problems. 
They're problems that cannot be addressed for the most part by 
expanding the boundaries of the park; you can't simply have an 
expandable boundary. We've tended to have a view which says 
that our interests kind of stop at the park boundaries, rather 
than trying to ask how it is we regulate and find consensus and 
use State and local governments to help us work across those 
boundaries.
    Mr. Obey. How about some of the other parks?
    Secretary Babbitt. Give me a park and I'll give you an 
answer. Everglades is a classic example, of course, because the 
Everglades are what's prompted all this stuff that we're doing 
in this committee. The Everglades are daunting; the park 
rangers take terrific care of it inside the boundaries; the 
problem with the Everglades originates 200 miles away up in 
Lake Okeechobee, and that has given rise to the effort that we 
are all collectively making right here.
    Go to Haleakala in Hawaii; the problem is exotic invasives. 
When the island was settled, they turned loose a lot of goats 
and feral pigs that are just absolutely ravaging the park. 
We've got to have some sort of control off the boundaries of 
that park. Our initial response has been to fence the park. You 
go on to some sides of Haleakala, if you want to see a fence. I 
don't know how many thousands of dollars a foot it cost, but 
there's a pig-proof fence across the mountains; it's not a good 
solution. What you've got to do is get after the management of 
the system, do something about the feral goats and the pigs. 
It's very controversial in Hawaii.
    Blueridge, the Blueridge has got a big forest problem. It's 
got a forest health problem that can't be solved by fire 
particularly. It's woolly adelgids; it's Gypsy Moths--a whole 
variety of things. It's being exacerbated, I think, by air 
pollution.
    We're going back and the studies are showing that the air 
contamination problems in the forests are a lot more subtle and 
much more persistent than we've ever really appreciated. We're 
seeing that in forest health problems. You see it in the Great 
Smokey Mountains.
    Mr. Obey. How about Bryce, Zion, or Glacier?
    Secretary Babbitt. Glacier has not experienced the 
peripheral pressures of the other parks so far. Bryce and Zion 
have a very difficult set of problems. We're actually making 
some progress. The problem at Zion has been that the park is at 
the bottom of the drainage system, and they were putting water 
development projects which were effectively going to dry up the 
Virgin River running through Zion. There's been a lot of effort 
put in on that. It's illustrative of these kinds of off-park 
problems. What they're doing is developing water on the wrong 
end of the stream, above Zion. What we're trying to do is work 
it out to swap all of the water in elevated streams and put 
them below the park, in exchange for pledges by the State of 
Utah that they will regulate the water development; there won't 
be any water development structures on the upper branches of 
the Virgin River. The problems go on and on and on.
    The problem at Bryce is that, well, there's a number of 
them. One is that the wildlife are really at the mercy of man 
throughout the park. We need to work with State and local 
officials.
    Mr. Obey. I'll have some other questions for the record. 
Thank you very much.
    Mr. Regula. Mr. Nethercutt.

                           park housing costs

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Mr. Secretary, I want to follow up on Mr. Obey's line of 
questioning regarding the parks in our country, and especially 
as it relates to National Park Service housing costs. The 
Inspector General of Interior did a study this last December 
that really in part verified that housing costs in the Park 
Service are about two-and-a-half times what it costs in the 
private sector. In the past, you've testified that you want to 
get a handle on these costs, and I think the GAO has 
established that there was going to be a park-by-park analysis 
of why the costs are what they are, and how can we control 
them. I know efficiency in management is important to you; you 
testified about that today.
    So given all of this, when can we expect some action, if 
there hasn't been action, on the part of your Department to 
control these costs? I think, isn't it $400 million in backlog 
in construction costs in the Park Service? How much?
    Mr. Regula. Four billion.
    Mr. Nethercutt. Four billion; I'm sorry.
    Secretary Babbitt. That's all infrastructure, yes.
    Mr. Nethercutt. My sense is we're getting--we're digging 
sand. We're further and further behind. To what extent have you 
done something about this? To what extent will you do something 
about it?
    Secretary Babbitt. We're looking at the--I don't know 
whether it was the Inspector General or the GAO; I think it was 
our own Inspector General----
    Mr. Nethercutt. IG, right.
    Secretary Babbitt. We're looking at those reports and 
expecting a more detailed response from the Park Service. I'm 
going to withhold either endorsement or a critique of those 
figures until I see more, because I think they are high. 
Whether they are as high as the report alleges or what the 
causes of them are, I do think that some of it is design 
standards. I don't think there's any question the Park Service 
has tended to have higher design standards for housing than a 
lot of other areas. I think that needs re-examination.
    Now I think the most single productive thing we can do is 
to continue this movement to try to provide housing outside the 
parks in a quasi-commercial market. We're trying this, and I 
don't know exactly where we are, at Estes Park outside Rocky 
Mountain. We've done a lot of work. At this point we're not 
supervising the construction of houses; we're simply trying to 
find housing and work it.
    The master plan at Grand Canyon calls for all additional 
expansion now to take place outside the park at Tusayan. We are 
not going to expand any more in Yosemite. I think we're 
actually going to scale it back alittle bit. I think that's the 
most productive kind of generic policy.
    In terms of housing and the relationship between design 
standards, I'd be happy to get back to you when we've had a 
chance to look at it.
    [The information follows:]


[Page 141--The official Committee record contains additional material here.]


    Mr. Nethercutt. That's great because my understanding is 
that the National Park Service has committed to do sort of a 
park-by-park review, and I don't know if that's been done. I 
don't want to put you on the spot, but maybe if you could check 
and let the subcommittee know, that would be helpful, because 
it's a concern to those of us who care about the parks, and the 
public who cares about these parks, who wants to be sure 
there's adequate housing, and that we manage costs in tight 
budget times.
    I have just a couple of more and then I've got to go to 
another subcommittee hearing. If you don't mind, Mr. Chairman, 
I'll take just a second longer.

                          flood damage repair

    Mr. Secretary, can you please explain to the committee how 
your agency plans to assist in facilitating the rapid repair of 
damaged flood control systems in the West, not just my State, 
but more primarily I think the southern California part of the 
country, California in particular? And I'm wondering whether 
the Fish and Wildlife Service plans to suspend section 7 of the 
Endangered Species Act until flood protection systems are 
restored or whether it will just go until spring runoff in 
these areas that have been declared disaster areas.
    Secretary Babbitt. The current policy of the Fish and 
Wildlife Service, and they have stated it quite clearly, is 
that no consultations are necessary for the reconstruction of 
levees as a result of this flood damage. That policy is 
effective through this year. I thought that was adequate, and 
they made it very clear that there is no need for any kind of 
consultation for levee repair.
    Now the broader issue, of course, is the reconstruction of 
levee systems and flood control systems, and that will be the 
subject of a supplemental request. I believe it's also an 
excellent opportunity to do a better job of replacing levees, 
in light of the knowledge that we've all accumulated. We saw 
some of that in the reconstruction after the flood on the 
Mississippi River in 1993. We've got a learning experience out 
of there. In some cases, on a small scale, you actually 
relocate people and buildings out of the flood plain. On a much 
wider scale, it's possible to redesign the levees by setting 
them farther back, so that you can get more flood protection at 
less cost and still have some compatible uses in the flood 
plain inside the levees. You just can't build structures, but 
you can carry on agriculture and a whole variety of other 
things.
    There's an interagency group working on this issue right 
now. It's got the usual suspects: the Bureau of Reclamation, 
the Corps of Engineers, Fish and Wildlife Service, and the 
State agencies.
    Mr. Nethercutt. Out in my district a year ago we had some 
bad floods, the most major floods in 30, 40, 50 years. What we 
found in the very small communities of three and four and five 
hundred people, was that we had a dilemma of trying to deal 
with State agencies that want to preserve their jurisdiction 
over the river bed, and yet not being able to get in and move 
the cottonwood trees that are causing problems by diverting the 
water to areas you don't want it to go to.
    And in Colfax, Washington--I don't know if you've been 
there, but it's right in the middle of wheat country. It's some 
of the richest wheat country in the Nation, maybe the world, 
too. But in 1962, they constructed a rather unattractive, 
concrete spillway essentially that goes right down along--right 
in the middle of Colfax. I was there and the flood waters 
literally rose--there was so much water and it came this close 
to spilling over and really flooding the entire town of Colfax. 
Thank goodness, they had it; they couldn't build it today. So 
the dilemma I think we face out there is trying to figure out, 
given the environmental laws that we have, given the competing 
jurisdictions of State agencies versus Federal agencies, how do 
you get in and do mitigation work to prevent disaster from 
striking again the next time it floods?
    So I just want to get some sense whether there will be some 
freedom allowed--whether it's California or Washington State or 
Oregon--to at least try to do some mitigation work to prevent 
disaster in the future. I just want to hear----
    Secretary Babbitt. Well, for the emergency mitigation and 
reconstruction of levees, the policy is clear.
    Mr. Nethercutt. Sure.
    Secretary Babbitt. Get it done. There are a couple of 
factors at work here. One is that it's very clear that we have 
made some unsupportable assumptions about what 150- and 100-
year floods are and that the weather cycles are a lot more 
varied than the assumptions that were made in setting those 
design standards, and I think we're continually going to be 
going back and trying to assess what can be done to mitigate 
for a higher standard, whether it's bypasses, levees, or 
relocation. The Corps of Engineers I think has done a pretty 
impressive job moving with the times.

                      interior columbia basin plan

    Mr. Nethercutt. One final question, if I may, very quickly: 
I'm informed that the administration will spend about $400 
million on the Pacific Northwest Forest Plan in 1997. You know 
my concern about wanting the Interior Columbia Basin Plan to 
work and to meet the needs of the Pacific Northwest. I believe 
around $40 million has been spent thus far. What do you 
estimate the cost to be on an annual basis of the 
implementation of that plan? And it may be hard to estimate----
    Secretary Babbitt. Yes.
    Mr. Nethercutt [continuing]. But I'm----
    Secretary Babbitt. Just a couple of thoughts on it.
    Mr. Nethercutt. Sure.
    Secretary Babbitt. I can't give you a number, but I can 
give you a few thoughts. It's not comparable to the Pacific 
Northwest Plan because what we did there was start from scratch 
and redesign in enormous detail the entire set of assumptions 
about forest planning, timber harvest, and stream management, 
and we did it in 18 months under the gun of a court order.
    The costs in the east side and Columbia Basin management to 
the Department, well, the issues there are much more diffuse. 
We've already got land management agencies with budgets out 
across the entire landscape. What the Pacific Rivers case told 
us was that we're going to meet court injunctions every time we 
make a decision until we have an overall plan, and to some 
degree it will turn on the option that is finally selected in 
the Environmental Impact Statement, particularly in terms of 
management inputs. I mean, for example, how much forest 
restoration do we want to do, that shows up as a budget item. I 
guess that's as close as I can come. I don't think it's to the 
same order of magnitude in terms of direct additional costs.
    Mr. Nethercutt. I think there's a lot ahead of us, and I'm 
hopeful and resigned to the fact that I want this thing to 
work, given the history here, but I foresee rough waters ahead 
because of sort of the disparate nature of the various plans 
that are likely to be implemented and the different nature of 
the States and the counties and the communities, and so it 
seems like it's going to be a long and expensive project when 
you total it all up, but time will tell, and I hope to talk to 
you about it at some future time. And I mean it; I wish you 
could come out at some point to sort of take a look at eastern 
Washington and what we're facing.
    Thank you.
    Mr. Regula. Mr. Dicks, I understand, has one question.
    Mr. Dicks. Mr. Secretary----
    Secretary Babbitt. Mr. Chairman, every time one leaves, I 
think I'm ready to----
    [Laughter.]
    Mr. Regula. You haven't gotten to me yet, either. 
[Laughter.]

                              wild horses

    Mr. Dicks. Mr. Secretary, you have spoken here very 
compassionately about the plight of the bison, but I read here 
today about another species called the wild horse. Just to give 
you a few paragraphs:
    ``Interior Department officials have obstructed 
investigation into abuses of the wild horse protection program, 
two whistleblowers claim. Dale Clenel and Steven Cederwold, who 
were former Bureau of Land Management agents, are calling on 
the Justice Department to investigate Interior's alleged 
coverup of problems with the wild horse and burro program. The 
program was set up in Congress in 1971 to control the growing 
population of wild horses by offering them to the public for 
adoption. The two former agents are the latest to criticize the 
Adopt-a-Horse Program. BLM has been investigating claims in an 
Associated Press report that a large number of adopted horses 
end up at the slaughterhouses. The news report also said BLM 
employees who had adopted horses couldn't account for them or 
admitted they sent horses to slaughterhouses. Clenel and 
Cederwold said they resigned from the agency because managers 
consistently thwarted their investigations of the program. 
Clenel left in December after 10 years at BLM; Cederwold left 
in December 1995 after 5 years at BLM.''
    Can you tell us about this?
    Secretary Babbitt. Sure. Those stories are wild, 
inaccurate, sensational trash. Now you don't need to take my 
word for it. We have said to the Inspector General and others, 
``Come and have a look.'' We can always learn something about 
program management.
    The Inspector General's report I believe is the preliminary 
report.
    I can tell you that what's coming back is pretty plain 
vanilla. The stuff that's being alleged in those articles, the 
number of horses which have been mishandled by BLM employees, 
there may be two or three cases--two or three.
    Mr. Dicks. So it's very minimal?
    Secretary Babbitt. It's absolutely de minimis. Now we're 
asking, of course, ``How can we do a better job?'' There's a 
big problem behind all of this, and that is that there are too 
many wild horses and burros for the carrying capacity of the 
land. Again, it goes back to what we were talking about with 
wolves, bison, and all these other things. We've got a 
management problem and we are not ahead of the problem.
    What the public has told us and this Congress, you know 
better than I; that is, that we're not going to control this 
problem by going out and doing it in the traditional western 
way. It doesn't work for goats on the Olympic Peninsula; it 
doesn't work for----
    Mr. Dicks. Right on. [Laughter.]
    Secretary Babbitt [continuing]. Horses and burros. It's not 
going to happen. The public are our masters, and they've told 
us that. So we have----
    Mr. Dicks. Contraception?
    Secretary Babbitt [continuing]. Two choices: contraception 
and adoption. There it is. We have a modest response to that in 
this year's budget, and I believe the feeling is that we can 
make some progress on this contraception issue with some 
additional funds. This is awesome. Just let me read this for 
you. I don't know who wrote this, but it's great.
    ``Wild horses and burros have no natural predators and 
reproduce at a rate of about 18 percent a year.'' So just to 
underline, emphasis will be placed on increasing inspection of 
untitled animals that have already been adopted. The 
contraception proposal is in here somewhere. We just have to 
keep working on this. There is no simple way. These critters 
have special status, and we must work within those boundaries; 
I accept that. With your help, we keep trying to get it under 
control.
    Mr. Regula. Mr. Miller.

                              sugar prices

    Mr. Miller. I'm sorry to keep you here so late, but let 
me--I want to follow up with a couple of things on the 
Everglades.
    Secretary Babbitt. Well, believe it or not, I'm learning 
something from this; it's amazing. [Laughter.]
    I think politicians, when they've been around sufficiently 
long, think by talking, and I'm one of those; I can no longer 
think exceptwhen I'm talking. It's sort of a degenerative kind 
of trait. [Laughter.]
    Mr. Miller. For those of us who are new, like Zach and 
myself, on this committee, it's just overwhelming; there's so 
much to learn and all of that. So I appreciate the opportunity, 
and it's always so unfortunate we have so many conflicts. NIH 
is testifying in the other committee, and Dr. Varmas and the 
cancer people are there today.
    But, at any rate, I'm glad to hear that philosophically 
you're in agreement with the idea that the sugar program is 
costing--not on the consumer, but it's costing more to take 
care of the Everglades issue because of the overproduction of 
sugar and all that. And I don't know if you have access to any 
studies that have been done that evaluate the cost of the--
because of the sugar program, the overvaluation of land, 
analysis of that that's been done--if you could ask somebody on 
the staff to follow up and check to see whether anything's been 
done on that area.
    One part of the bill that was passed----
    Mr. Regula. If there is such a thing, we'll put it in the 
record.
    [The information follows:]

                  Studies Concerning the Sugar Program

    The Department has asked the South Florida Ecosystem 
Restoration Task Force's Science Sub-Group to review studies 
completed to date concerning the sugar program and will provide 
that information to the Committee as soon as it is available

    Mr. Miller. Yes. You're not aware of one, or are you?
    Secretary Babbitt. Well, it's complicated for this reason, 
there are other agricultural uses in the agricultural paradigm, 
it's not absolutely a clean-cut ``sugar or nothing'' kind of 
issue.
    Mr. Miller. Right.
    Secretary Babbitt. So it's fairly complex.
    Mr. Miller. As part of the farm bill that was passed last 
year, and there was a $200 million appropriation, plus there 
was a $100 million land trade potential there--and talking 
about specifically on that area, but also the more general 
issue of land exchanges. I remember visiting Phoenix back in, I 
will say, the mid-late-eighties, and you might have been 
governor.
    When were you governor?
    Secretary Babbitt. I was governor when that deal got 
started.
    Mr. Miller. Well, I was there, and I remember coming from 
Florida, and it was on Indian school property in downtown 
Phoenix that the Indians and the school had been moved out, 
and, all of a sudden, they were going to trade that for some 
Everglades land, and from Florida I thought it was a great 
idea. Well, people were very upset, obviously, in Arizona--
taking that money and trading it for swamp land, and they 
didn't think that was right.
    But you would agree, I would assume, as you said, that we 
have too many trees; there's probably too much Federal land in 
a lot of areas, like that Indian school property--I mean, it 
would be better use for land, and the Indian school property 
was a good illustration.
    So, in general, the issue of excess Federal lands, and 
then, specifically, what's being done on that other potential 
$100 million Everglades money which could be obtained by 
trading other excess Federal lands--is anything being done with 
the $100 million, and what is your philosophy about getting rid 
of excess Federal lands?
    Secretary Babbitt. The Big Cypress/Indian School trade was 
one of the most creative, most productive land exchange deals 
in the history of the United States of America. Talk about a 
winner; it's awesome. We've got Big Cypress now in protection; 
we've got the Indian school property in Phoenix--there's a 
planned development headed skyward out there that everybody 
thinks is sort of the neatest thing that's ever happened to 
downtown Phoenix. So it was a real winner, and that's of course 
the model.
    Mr. Miller. Initially, there was a lot of opposition from 
people in Arizona.
    Secretary Babbitt. There were two people who supported it 
in Arizona: the Governor and Morris Udall; that was it. 
[Laughter.]
    That was all there was. But it's a good program.
    Mr. Miller. Thank you. Our swamps appreciate it.
    Secretary Babbitt. Now the Florida bill, it authorizes the 
sale of up to $100 million in Federal surplus property that 
would be put into an account to finance land acquisition. My 
cohort here tells me we have sent a letter to every Cabinet 
Secretary asking for their excess property in Florida. Now, I 
know what the response to that will be: there is none. But 
we'll pursue this through the GSA, and we will try to find some 
targets.
    Lastly, my only thought about this, and where we part 
company in a lot of these debates up here, is about the public 
lands of the West--the forests and the BLM grazing lands. We 
get pretty excited about that because we don't view that as 
surplus property. We view that as part of our national 
patrimony. So you'll find us willing to talk and bargain where 
specific lands are needed for urban development or where you've 
got an unused Federal building, or lands on the fringes of Las 
Vegas which is developing. But this business of giving away the 
``back 40'', we're not very excited about. In fact, we are 
positively passionate about it.
    Mr. Miller. Do you have any lands under your jurisdiction 
that are not needed? Could you say categorically that 
everything is absolutely essential within your----
    Secretary Babbitt. No, no. We've identified lists of 
surplus properties. We've generally thought that mineral 
interests are assets under the appropriate circumstances that 
can be traded, and we have done that from time to time, and we 
are willing to consider that. We routinely do exchanges to try 
to block up the public domain, to eliminate tiny, little in-
holdings where there are willing sellers or willing exchange 
applicants. This committee and the Congress have helped us with 
some large authorizations to do that. This committee, the 
Congress, also authorized a lot of big things. We picked up a 
refuge in Arkansas in exchange for some lands in Montana last 
year, for example.
    Mr. Miller. I appreciate on the Everglades that $100 
million, if somebody could help kick-start that one maybe, 
pursue it. Thank you.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp, do you have anything?

                         land between the lakes

    Mr. Wamp. Quickly, one other question, Mr. Secretary, and 
thank you for your patience today. I'm very impressed that 
you're willing to come back and stick with this.
    As the chairman the TVA caucus, this coming Saturday 
there's a hearing at Land Between the Lakes, where Kentucky and 
Tennessee meet. I know you know the history of Land Between the 
Lakes. The Kennedy administration having actuallyforcibly 
taking that land, and the TVA has been the steward of that land since 
the early sixties. The President's budget proposal recommends TVA 
phasing out of nonpower funding $106 million that they receive in 
appropriated annual funding, taking that down to zero over the next 18 
months. The chairman at TVA has floated the proposal. They're going 
before the Appropriations Committee next week. Six million dollars of 
that $106 million is for the annual management of Land Between the 
Lakes, and the future of LBL. Who is going to protect it under the 
President's budget is unclear.
    Do you, or any of your Departments, have any interest or 
any input in who you think should actually manage and be the 
steward of the land we know as Land Between the Lakes?
    Secretary Babbitt. Congressman, I've spent a fair amount of 
time down there actually, and I personally feel that it's a 
mistake for TVA to step aside from the administration of that 
land. I have looked at it. I've heard proposals. I'm deeply 
familiar with the history. I've talked with a lot of the people 
in the local communities. I've looked at the various things 
that the TVA has done. I've got to tell you, I think it would 
be a big mistake for TVA to be divested of that land when 
finally, after 40 years of contention, the local communities 
are settling into a relationship that everybody is saying, 
``well, we can live with this.'' It's not perfect, and there's 
a lot of historical antagonisms, a lot of defeated 
expectations, but people are coming into equilibrium. If that 
land is now transferred to somebody else, I'll guarantee you 
it's going to raise up a lot of that history and stir up all 
kinds of difficulties for everybody in a situation which right 
now I think is moving toward where people feel they can use the 
land. There's hunting out there; there's a bunch of different 
kinds of projects. There are scout camps, nonprofit activities, 
a lot of stuff going on. If you want my opinion, that's it.
    Mr. Wamp. Thank you.

                new world mine and headwaters exchanges

    Mr. Regula. Speaking of land exchanges, the Headwaters is 
16,000 acres. The administration is proposing to exchange oil 
and gas revenues, a couple of office buildings. What do you 
think? Are you familiar with the Headwaters exchange? This is 
oldgrowth Redwood forests. We're proposing to give 3,000 acres 
of redwoods which have very little access for the public in 
return for 16,000 acres of forest land, oil and gas revenues, 
office buildings, Lord knows what else. What do you think, Mr. 
Secretary?
    Secretary Babbitt. Well, maybe I could state my conclusion 
first. [Laughter.]
    This project ain't going nowhere until it shows up in front 
of this committee for discussion and debate. I don't think 
there's any scenario----
    Mr. Regula. Would the New World Mine get the same response? 
``Conclusion'' I guess is the word.
    Secretary Babbitt. Not necessarily. I think Headwaters, on 
any scenario----
    Mr. Regula. That's a gold mine outside of Yellowstone.
    Secretary Babbitt. Yes. All Headwaters scenarios converge 
on this committee. I think the New World Mine is a much more 
focused, much more Federal, park-related Forest Service in-
holding issue. We do have authority under FLPMA and under the 
other statutes to do an asset exchange within Montana without 
seeking legislative or budget authority.
    Mr. Regula. Is the New World Mine inside the park boundary?
    Secretary Babbitt. No, it's just a stone's throw out.
    Mr. Regula. Okay.
    Secretary Babbitt. But my point, just by way of laying the 
premise, is the New World Mine has an irresistibly Federal 
nexus. I mean, the Headwaters issue is quite diffuse. It is a 
new site and a whole set of new issues involving lots of 
players. New World Mine is really part of the territory that I 
control.
    My feeling is that it will probably wind up in front of 
this committee anyway. My view is that these are significant 
issues, and we'll be back before this committee. I think 
there's a good chance we will be asking for legislation or 
money. Even if we aren't, even if we can structure an asset 
exchange, I think we're going to need your advice and a sense 
of feeling that we're doing okay. And I have no objection to 
doing that, and, indeed, I would prefer to do it that way.

                          oregon inlet jetties

    Mr. Regula. This is somewhat parochial from the standpoint 
of North Carolina, but last year you indicated that the Army 
Corps of Engineers expected to complete its feature design 
memorandum and fish management studies on the Oregon inlet 
jetties. Has this been completed, and are there any 
conclusions?
    Secretary Babbitt. Mr. Chairman, I prefer to respond in 
writing because----
    Mr. Regula. Okay.
    Secretary Babbitt. I don't know the answer to whether there 
is or not.
    [The information follows:]

[Page 150 --The official Committee record contains additional material here.]


                            fee coordination

    Mr. Regula. On the fees, do you coordinate with the Forest 
Service or BLM? And the reason I'm asking that, here's a 
visitor that might go to both facilities that are in the 
proximity, and there ought to be some measure of consistency as 
to what they pay for, I guess, for comparable services. And my 
question is, are they being coordinated?
    Secretary Babbitt. The answer is, yes, we are talking about 
it. I take that as an invitation to pay a little more attention 
to the issue.
    We have worked out some joint fees. For example, we've got 
a joint fee between Grand Teton and Yellowstone, but 
admittedly, those are both park facilities.
    Mr. Regula. Right.
    Secretary Babbitt. I think the issue will arise most 
directly in terms of campgrounds and Forest Service facilities 
adjacent to the parklands.
    Mr. Regula. It occurs to me just at the moment, would it be 
practical to have some type of a Golden Eagle-type pass that 
would be good in either, say, the Forest Service and/or the 
Park Service, so the person who wants to go out West and visit 
a number of these facilities, particularly retirees, would be 
able to do it in one lump sum payment? I recognize you'd have a 
problem with dividing revenues.
    Secretary Babbitt. It's possible. I guess I think there's 
some skepticism about a big expansion of the Golden Eagle 
Program. The reason is it is vastly underpriced relative to--I 
mean, we can't possibly raise it to a value approximately what 
a reasonable discount would be for that kind of multiple use. 
So I don't think we're pushing too hard in that direction.

                        eagle mountain landfill

    Mr. Regula. After fighting the 2,000-acre Eagle Mountain 
Dump for five years, citing the potential for significant 
environmental damage, the Park Service signed a 10-page 
compromise agreement with the landfill developers. As I 
understand it, the Solicitor's Office is investigating the 
legality of this agreement. Do you have any comment on that?
    Secretary Babbitt. Yes, I've talked with Denny Galvin about 
that, and I think what they chose to do was a pretty reasonable 
response because the Park Service does not own the Eagle 
Mountain landfill. It's not part of the Park Service 
jurisdiction. What they basically said was we're opposed to it, 
but if it's going forward, we'd like to have some controls, and 
as a part of that, we'd like to negotiate with you. We 
acknowledge that we have no right, no legal right--they don't 
own the land on that side of the mountain, but we'd like to 
establish a working group.
    Now what Denny explains to me, this is no quid pro quo. The 
Park Service still opposes the landfill. They don't have the 
power to stop it, and if it is granted, if it does go through, 
they've at least got ten something out of the deal. I think it 
is confusing to people because it looks like they're sort of 
walking on both sides of the street, which they are. But I 
think the reason they're doing it is correct.
    Mr. Regula. We'll have questions by both myself and the 
other members of the subcommittee for the record. I would 
suggest that you have Mr. Garamendi answer the one on the Guam 
situation. I have a couple of detailed questions on that, and 
since he's responsible for it.
    We thank you for your patience and look forward to working 
with you.
    Secretary Babbitt. Mr. Chairman, I appreciate it and I look 
forward to working with you through the year.
    Mr. Regula. The committee is adjourned.

[Pages 153-345 --The official Committee record contains additional material here.]





=======================================================================


                       Department of the Interior

                       Bureau of Land Management


=======================================================================


                                           Tuesday, March 11, 1997.

                       BUREAU OF LAND MANAGEMENT

                               WITNESSES

SYLVIA BACA, INTERIM DIRECTOR, BUREAU OF LAND MANAGEMENT
MAT MILLENBACH, DEPUTY DIRECTOR
TOM FRY, DEPUTY DIRECTOR FOR SPECIAL PROJECTS
LAWRENCE BENNA, BUDGET OFFICER
NANCY HAYES, CHIEF OF STAFF
MAITLAND SHARPE, ASSISTANT DIRECTOR, RENEWABLE RESOURCES AND PLANNING
W. HORD TIPTON, ASSISTANT DIRECTOR, MINERALS, REALTY, AND RESOURCE 
    PROTECTION
GAYLE GORDON, ASSISTANT DIRECTOR, INFORMATION RESOURCES MANAGEMENT
GWEN MASON, ASSISTANT DIRECTOR, COMMUNICATIONS
NINA HATFIELD, ASSISTANT DIRECTOR, BUSINESS AND FISCAL RESOURCES
MARY ANN LAWLER, DIRECTOR OF BUDGET

[Pages 350-359 --The official Committee record contains additional material here.]


    Mr. Regula [presiding]. Well, we're pleased to welcome all 
of you.
    Do you have everybody's name here that you need?
    The Reporter. Yes, sir.
    Mr. Regula. Well, we'll get the hearing started. Ms. Baca, 
is that correct?
    Ms. Baca. Yes.
    Mr. Regula. Okay; we'll put your statement in the record 
and anything you would like to tell the subcommittee.
    Ms. Baca. Yes.
    Mr. Regula. I'm sure you want to tell us you need less 
money.

                            Opening Remarks

    Ms. Baca. A little bit more, Mr. Chairman. Thank you, Mr. 
Chairman. I'm pleased to be here today to talk about the BLM's 
1998 budget request.
    The principal mission of the BLM, as reflected in our 
budget submission, is to sustain the health, the diversity, and 
the productivity of the public lands for use and enjoyment of 
our current and future generations.
    The BLM manages approximately 264 million acres of public 
lands, which is approximately 41 percent of the total lands of 
Federal ownership. Our customers and our stakeholders are as 
diverse as the land that we manage. There are recreational 
users who sightsee, who hike, camp, fish, and hunt. There are 
individuals and communities that benefit from BLM's rights-of-
way, and there are commercial users who produce oil and gas, 
raise cattle, and harvest timber.

                             rights-of-way

    Mr. Regula. What do you mean by rights-of-way? Is this to 
get in to land and ranches and so on?
    Ms. Baca. Rights-of-way include, for instance, a public 
utility company that may need to run a right-of-way through 
public land.
    Mr. Regula. Oh, okay.
    Ms. Baca. And I believe--do we have others?
    Mr. Fry. Oil and gas pipelines.
    Mr. Regula. Joe, any time you want to break in----
    Mr. Skeen. Well, she's described it very well. People in 
the East have no visualization of what exists on the public 
land area in States like New Mexico and many others. You have 
to grant rights-of-way on these lands for access for utilities, 
resource exploration, and things of that kind. And it sounds a 
little strange, but they have to give access. That's the only 
way they can manage the land; that's just part of the land 
management scheme.
    Mr. Regula. I suppose you have pipelines, too.
    Mr. Skeen. Pipelines and electrical transmission lines.
    Ms. Baca. Given the diversity of the use, it's only natural 
that, as an agency, we face many complex management challenges 
for which there are no easy solutions. More than ever we are 
working cooperatively to reach consensus-based solutions where 
resource conflicts exist. The BLM's success with the 23 
Resource Advisory Councils, or the RACs, in the western States 
are a very good example of consensus-based decisionmaking.

                       resource advisory councils

    Mr. Regula. This is fairly new, isn't it?
    Ms. Baca. Yes.
    Mr. Regula. And you're saying it's working well?
    Ms. Baca. It's working well, Mr. Chairman. We have 23 RACs 
in the west; they were implemented approximately two years ago, 
and they are currently working on drafting standards and 
guidelines for range land improvement; and once they have 
accomplished that task, they will move on to other sorts of 
initiatives that the BLM wants.
    Mr. Regula. Does this include ranchers?
    Ms. Baca. Yes. The councils are made up of all the 
stakeholders in the land. We have people who graze--we have 
cattle ranchers who are on our resource advisory councils; we 
have recreationalists; we have people who----
    Mr. Benna. Commodity users.
    Ms. Baca. Commodity users, right, and we have 
environmentalists, and it's anybody who has a stake in public 
lands who has a seat at the table on our resource advisory 
councils.
    Mr. Regula. Mr. Skeen, what's the reaction of your 
constituents to this?
    Mr. Skeen. Well, the reaction is very good because this is 
an inclusion process, and the BLM invites comments, protests, 
whatever; and I've just transmitted a letter to Ms. Baca about 
extending the hearing period for these folks because working 
time in the spring is a very busy time for a lot of ranchers, 
who are the people who are affected, because they graze all 
over the public lands in the west, and in New Mexico it's no 
different. And in asking for an extension, we work out these 
differences very well.
    These hearing periods are well-used and well-received by 
both entities, I think, by both the management entities and the 
user entities.

                      BLM's economic contributions

    Ms. Baca. Mr. Chairman, arguably, our activities benefit 
the Nation as a whole by contributing to the viability of State 
and local economies. The BLM is one of the country's top 
revenue-generating agencies when you include both the funds 
that the BLM collects directly as well as BLM's contributions 
to mineral leasing activities on Federal revenues. We are the 
fourth largest revenue generator for the U.S. Treasury, and 
that's after the IRS, Customs, and MMS, the Minerals Management 
Service.
    In 1998 the public lands will generate an estimated $1.3 
billion in receipts from various sources, such as the sale of 
lands and materials, mineral leasing fees, recreational use 
fees, timber sales and forest products, and grazing fees. Some 
of these receipts will be shared with State and local 
governments; some will go to miscellaneous receipts of the 
Treasury, while others will be retained by the BLM to support 
program operations.
    BLM public lands offer recreational opportunities that are 
unique in their diversity and in their quality. They hold a 
wealth of information that teaches us about our rich history in 
the American West, Alaska, and the many public lands in-
between.
    The BLM expects to sustain 76 million recreational visitor 
days on BLM public lands in 1998, an increase of 1.5 million 
visitor days from 1997. And that will contribute an indirect 
economic value of about $3.4 billion to the economy, and that's 
just tied to recreational use.

                             sharing costs

    We are keenly aware that budgets need to be tightly 
managed, and in meeting our budget goals we frequently leverage 
our appropriated dollars by entering into partnerships and 
cost-sharing agreements with State and local Governments, other 
Federal agencies, private groups, and individuals.
    Not only do these partnerships enhance BLM's financial and 
personnel capabilities, but they also help us to provide a 
better understanding of what the conditions, the trends, and 
the community needs are to implement appropriate on-the-ground 
practices.
    In 1997, the BLM contributed $9 million to challenge cost-
share projects, and we expect to contribute $10 million in 
1998. Our partners contribute approximately twice that amount.
    Mr. Regula. Is this cost-sharing on rehabilitating riparian 
areas, that type of thing, with the ranchers? Who do you cost-
share with?
    Mr. Benna. Mr. Chairman, we cost-share with various groups 
and individuals. It could be private individuals; we cost-share 
with various conservation groups.
    Mr. Regula. I mean, for what purposes though?
    Mr. Benna. It varies. It could be habitat improvements or 
to make riparian improvements. It's the whole host of 
recreational improvements. We have some challenge cost-shares, 
as an example, with the University of New Mexico in the 
southwest to do interpretation and presentation of Native 
American artifacts.
    Mr. Regula. Are you expanding this cost-sharing activity to 
help with your budget?
    Ms. Baca. Yes; we encourage the challenge cost-share. We 
are asking for an extra half a million, $500,000 to have more 
money to go out for various projects.

                             budget request

    Given the diversity of the lands we manage and the many 
customers we serve, we have many priorities. In 1998, the BLM 
request is $1.1 billion, which, when excluding $50 million for 
the Wildland Emergency Contingency Fund, represents an increase 
of $31.9 million from the 1997 enacted level. The BLM's total 
budget request of $1.2 billion includes current and permanent 
budget authority and is a decrease of approximately $175 
million from the 1997 level.
    Programmatic increases in the 1998 request include an 
additional $5 million for management and planning of the Grand 
Staircase-Escalante National Monument; $1.1 million for the 
President's Forest Plan, in order to meet the full harvest of 
213.5 million board feet; $5 million to expand visitor services 
and to improve maintenance at BLM recreation sites, and $8 
million for several activities that have as their common 
objective the protection of public land resources, including 
efforts to control the spread of noxious weeds; maintenance of 
field facilities, and the round-up of 10,000 wild horses and 
burros.
    Also, $3 million to mitigate abandoned mine land impacts on 
watersheds and other public lands; $2 million to combat illegal 
drug activities on public lands, and $25 million to raise the 
level of preparedness, increase suppression, and increase the 
use of prescribed burn for combined BLM, Park Service, Fish & 
Wildlife, and BIA Wildland Fire activities.
    Our budget also has decreases, most notably our automated 
land and minerals record system, known as ALMRS. This is $8.8 
million below the 1997 enacted level. The planned reduction is 
a result of our reaching some major milestones in the current 
year.
    Additional proposed reductions for 1998 include $2.3 
million for Alaska conveyances, $1.6 million for range 
improvements, $1.5 million for construction and land 
acquisition, $12 million for PILT, and other reductions 
reflecting one-time emergency funding in the Wildland Fire 
appropriation and technical adjustments to our permanent and 
trust accounts.
    As the Congress and the President work toward a balanced 
budget, we understand that budgets will continue to be 
constrained and that there will be increased pressure on BLM to 
develop innovative solutions to accomplish our mission. 
Difficult choices will have to be made, and, nonetheless, we 
are and we will continue to be committed to serving the public 
and the public lands well by providing a variety of land uses 
without compromising our management responsibilities.
    Mr. Chairman, and other members of the subcommittee, I'd 
like to introduce some of my staff who can deal with some of 
the technical questions that you might have for us later today.
    To my left is Tom Fry, who is deputy director of special 
projects; and this is Larry Benna, our budget officer; and to 
his left is Mat Millenbach, who is the deputy director, as 
well. And in the back row we have all of our assistant 
directors here; we have Gwen Mason, Gayle Gordon, Nina 
Hatfield, Hord Tipton, Mr. Sharpe----[Laughter.]
    Mr. Sharpe; I just know him as Maitland; Nancy Hayes is our 
chief of staff, and two of our budget folks, Amy and Jan Gamby. 
And Mary Ann Lawler is also here today. I think you know Mary 
Ann; she works with the Secretary in the Department.

                      law enforcement regulations

    One other thing I'd like to bring up before we go to 
questions, Mr. Chairman, is that I want to announce that 
Secretary Babbitt has asked the BLM to withdraw the law 
enforcement regulations, and everybody has heard a lot about 
the law enforcement regulations over the last couple of months. 
The comment periods for the regulations were extended twice. 
The comment period closed on March 7.
    Our decision to stop further action is based on the 
confusion and the misinformation about how these regulations 
would affect BLM's law enforcement responsibilities under our 
current authorities. So, we have withdrawn them as of today.
    [The information follows:]

[Pages 364-368 --The official Committee record contains additional material here.]


    Mr. Regula. Okay, thank you. All of the committee members 
will have some questions, and then we'll go around again.

                 recreation visits and visitor centers

    I was interested that you had 76 million visitor days. Is 
this a growing activity in the lands managed by BLM?
    Ms. Baca. Yes, Mr. Chairman, it sure is. We expect that 
we'll have 1.5 million more visitors next year, Fiscal Year 
1998. More and more people are visiting the BLM public lands. 
We have some statistics that show that about $3.3 billion is 
spent in the local economies related to recreational uses. I 
have some statistics about hunting in 1994 which had an 
economic value of about $1.7 billion in local economies.
    Mr. Regula. How many visitor centers do you operate?
    Mr. Benna. We have approximately 120 visitor centers, Mr. 
Chairman.
    Mr. Regula. Actual structures where people can go in and 
learn about the public lands that you manage?
    Mr. Benna. Right, and those structures vary in size; some 
of them are somewhat larger and more sophisticated; others are 
smaller.
    Mr. Regula. They're staffed by personnel, though, from the 
BLM who give the visitor a good experience?
    Mr. Benna. That's correct, Mr. Chairman. As a matter of 
fact, we also make a wide use of volunteers to help staff our 
visitor centers, as well.

                             Fee collection

    Mr. Regula. What have you done with the ability to levy 
fees? Have you taken any action and, if so, how is it working 
out?
    Ms. Baca. Specific to the recreation sites, or just in 
general?
    Mr. Regula. Well, generally.
    Ms. Baca. Generally? As I mentioned earlier, we do have the 
cost challenge share program, and a couple of examples of other 
things that we're doing are our initiative on abandoned mine 
lands. We were appropriated $1 million last year for that 
initiative, and we've been able to successfully leverage that 
on a one-to-seven ratio.
    We're working real closely with the Western Governors 
Association, and we have two pilot projects formed in Montana 
and one in Colorado. And the Federal Government and the State 
Governments have come forward and have put some money on the 
table, so we have been able to successfully turn $1 million 
into $7 million.
    One other project that comes to mind----
    Mr. Regula. Are these abandoned mining lands?
    Ms. Baca. These are abandoned mining lands, and what we're 
doing is identifying a way to clean them up on a watershed 
basis.
    Mr. Regula. Okay.
    Ms. Baca. One other specific project that comes to mind is 
our noxious weed program. We have successfully turned $1 
million into $15 million on that particular project. We have a 
really good relationship with the State of Colorado, and they 
have successfully gotten all sorts of partners out there to 
join us in that effort. And I believe we're asking for more 
money this year to put into weeds, and we will continue to 
pursue getting that money out there so that partners can 
leverage it.
    In terms of recreational fees, this year the BLM has 17 new 
sites where we're going to start our recreational fees, and for 
the most part they have been welcomed into areas. We have done 
extensive outreach with the local communities, and we're going 
to redirect 100 percent of the monies back to the site of 
origin.
    Mr. Regula. You like to keep your money, don't you? 
[Laughter.]
    Ms. Baca. Well, we have found that, you know, we do have a 
maintenance backlog at our facilities----
    Mr. Regula. I'm sure you do.
    Ms. Baca. And we don't want to get in a bad situation with 
that, so we're hoping that if the fees go back we won't have to 
come and ask for money for a backlog.

                           FORESTRY PRACTICES

    Mr. Regula. I'm interested in your forestry program. At 
least to my knowledge, you haven't had the problems or the 
acrimony that seem to plague the Forest Service. Do you do 
clear-cutting, or do you sell the contracts? What do you do 
about road-building? For forestry purposes, this has been 
alleged to be corporate welfare, to build roads into the 
forest; at least it has not come to my attention that BLM has 
these problems.
    Ms. Baca. Mr. Chairman, we have been very successful in 
meeting our timber sales targets. We had a goal of 213.5 
million board feet, and we have successfully met that. We do 
ask for money for the Jobs in the Woods program. This year 
we're asking for $8.8 million for that particular endeavor. The 
Jobs in the Woods program creates about 200 full-time job 
opportunities in the Pacific Northwest, and the jobs are for 
watershed restoration; they're also for building roads. And so 
we hope that our request for $8.8 million will be granted.
    Mr. Regula. As I understand it, most of your timber 
contracts include a requirement that the purchaser build the 
roads. In other words, the purchaser credit program. Is that 
accurate? Or do you build some and then bid out the timber?
    Ms. Baca. I would like to defer to Nancy Hayes, who knows 
the specifics on that. Nancy?
    Ms. Hayes. It's my understanding that in most cases that's 
the----
    Mr. Regula. Purchaser credit?
    Ms. Hayes. Purchasers, yes. They are required to 
rehabilitate the roads if necessary.
    Now one of the reasons we don't run into quite the same 
difficulties as the Forest Service is because they manage 
roadless areas and frequently the timber companies want to 
build roads to get access to harvest timber there. That's very 
controversial.
    I think another reason we probably have somewhat less 
controversy is because we have been very successful at working 
very early on in the planning process with agencies like the 
Fish and Wildlife Service so that if they start working with us 
from day one in the planning, we run into less problems later 
with getting a biological opinion that's a surprise. Normally, 
we would give them a request now, and the biological opinion 
comes back exactly as we expected. We move on and we reduce 
consultation time to a matter of weeks as opposed to months. So 
it tends to go smoothly and with less controversy.

                          TIMBER CLEAR CUTTING

    Mr. Regula. Do you do a lot of clear cutting or do you have 
a somewhat different approach?
    Ms. Hayes. Well, of course in the area of the Northwest 
Forest Plan, which is where most of ours is, it's not a clear 
cutting system. We have had to, for example, under the 1995 
Recisions Act, allow some clear cuts to go forward, but what 
we're planning now are not clear cuts. We're trying to leave 
certain amounts of trees standing, those required by the 
standards and guidelines in the President's Forest Plan which 
is now being implemented through our resource management plans 
in Oregon and Washington and California. So generally no, we're 
not selling clear cuts in the traditional sense.

                           TIMBER SALE DESIGN

    Mr. Regula. Do you use a landscape architect to design your 
cuts at all? For example, following contours?
    Ms. Hayes. I don't know the answer to that actually. I 
would have to supply that for the record.
    Mr. Regula. Okay. That would be fine. Good, I know some 
other countries use that practice and follow the contour of the 
land. It's less egregious to the eye.
    Ms. Hayes. I don't know whether we contract, but we have 
some knowledgeable people on our staff as well.

                          Timber Sale Planning

    Some timber sale areas are reviewed by landscape 
architects, some are reviewed by recreation planners who have 
received visual resource management training and some receive 
no landscape review. The level of review depends on whether the 
potential sale area falls within an area which requires visual 
resource assessment as a stipulation of the President's Forest 
Plan.

    Mr. Regula. Are you on sustained yield, I assume?
    Ms. Hayes. Yes.
    Mr. Regula. Do you share research information with the 
Forest Service, because they do extensive research on species 
and so on? Do you share that information between agencies?
    Ms. Baca. Yes, Mr. Chairman, they do.
    Mr. Regula. Mr. Skeen?
    Mr. Skeen. Thank you, Mr. Chairman.

                         RMP PROTEST EXTENSION

    I appreciate the fact that I have given you a letter 
relative to the extension of hearing times on the RMP program, 
the RMP in New Mexico and so forth.

                                  PILT

    Let's go the terms of the--let's talk about the PILT 
Program. I notice the reduction in budget request. Is the 
administration opposed to the philosophy of PILT or is this 
reduction driven solely by the budget?
    Ms. Baca. This reduction is driven solely by the budget, 
Mr. Skeen. In an effort to tighten the budget, we projected 
last year that the amount of our request would be $101 million. 
That's what we requested last year. We just carried that 
forward this year.
    Mr. Skeen. You left it at the same level this year?
    Ms. Baca. We left it at the same level. It's actually 
projected for the next five years to be at that same level.
    Mr. Skeen. We authorized an increase in PILT payments I 
think about two sessions ago or something in that order, but it 
never was implemented I believe. It was decided to just ignore 
it or reduce it, and not comply with it.
    The reason I ask the question, as you well know, PILT is so 
important to the operation of local governments with the large 
amount of land the Federal Government owns in the State of New 
Mexico and other western States. In one case, in Otero County, 
it's practically the entire Otero land base, so to speak. These 
reductions in funding then telegraph back and create a real 
problem in the counties like Otero, because I think 70 percent 
of Otero County belongs to BLM. You are a great landlord.

                             LAND EXCHANGES

    On the land exchanges as we were talking about with the 
forest system and the park system and the wildlife system, is 
there enough land identified in the BLM planning process to 
satisfy this increased demand for land exchanges with these 
other departments?
    Ms. Baca. Mr. Skeen, I would like to defer that question to 
Hord Tipton, who has a real familiarity with the land 
exchanges. Mr. Tipton?
    Mr. Tipton. I didn't get all of the question.
    Mr. Skeen. Well, we've had an increased number of requests 
for land exchanges between the U.S. forest system, the national 
parks, Fish and Wildlife Service, and so forth. I just wondered 
if these transactions relate back to an increased demand for 
these kind of recreational areas or production areas, and what 
does it do to the local situation as far as the local 
government units, BLM? Have you got enough land to do all this? 
I know you have got plenty of land, but are we slowly 
transitioning this into these other departments or what is 
actually happening?
    Mr. Tipton. It is my understanding our New Mexico office is 
currently doing a review of lands for potential disposition 
that could be used.
    Mr. Skeen. Is this an effort to block up the lands or make 
them more manageable or what's the criteria?
    Mr. Tipton. It depends upon the individual managers in 
those areas, what the land use plans are going to be. It 
touches all of those things in the context of the community.
    Mr. Skeen. So it's an ongoing process and it's been in 
operation for some time. We get a little nervous when you start 
shifting BLM lands over to the Forest Service or to the Park 
Service, because their criteria of operation and management 
operation is extremely different in some cases, or varies to a 
large degree. So we are constantly having to adjust to who is 
on first and who is on second.
    Mr. Tipton. There's lots of public input.
    Mr. Skeen. I appreciate the input. You folks do well with 
it.

                         EL CAMINO REAL PROJECT

    Let me ask you a question about the Camino Real project, if 
I might. That's getting a little parochial, but I understand 
it's to be located near Socorro off interstate 25. Give me some 
idea of what stage are we in and where is it going. We've 
talked about these Camino Real and some of the other tours, the 
old fort tours and some of the others. What's happening on this 
Camino Real? I understand it's about to come to some kind of 
fruition?
    Ms. Baca. Yes, Mr. Skeen. BLM has contributed funds for the 
exhibit, to sign for the A&E, and the construction costs. The 
public land for the facility will be sold to the State under 
the Recreation and Public Purposes Act. The BLM and the State's 
Office of Cultural Affairs----
    Mr. Skeen. So it's a cooperative----
    Ms. Baca. Yes. They plan to jointly staff the facility and 
to share the operational costs.
    Mr. Skeen. What stage are you in now?
    Ms. Baca. Well, right now we have a request in for a 
million dollars as part of the 1998 request. That is our 
contribution to the construction of the heritage center.

                         FISH LAKE MINE PROJECT

    Mr. Skeen. Thank you. I appreciate that. I don't need the 
information for the record right now, but you might respond to 
it later on in writing or something. It has to do with the 
Fence Lake Mine Project near Zuni Salt Lake. Laguna Indian 
Pueblos as well as the New Mexico Indian tribes have raised 
serious concerns over this project's impact on the historical 
use of that particular area. I don't need a response right now, 
but if you could respond to it in writing, I would appreciate 
that.
    Ms. Baca. I would be happy to provide that.
    Mr. Skeen. Because we keep getting questions about what's 
happening.
    Ms. Baca. I personally visited the site a couple of months 
ago.
    Mr. Skeen. Did you?
    Ms. Baca. Yes. We met with the----
    Mr. Skeen. Lagunas?
    Ms. Baca. Laguna tribe. We had a very good meeting with 
them. We were supposed to meet with Acoma Tribes and a couple 
of other tribes were going to come from the surrounding areas, 
but it turned out to be a really bad snow day in New Mexico 
that day. But we had a very good exchange with them.
    Mr. Skeen. Are the other two Pueblos involved?
    Ms. Baca. The other two Pueblos, yes.
    Mr. Skeen. In the same site?
    Ms. Baca. Yes. Right. The Acomas. They are very concerned 
about the degradation that might occur on the landscape in 
terms of their historical trails. What we have committed to is 
that we would go back and that we would revamp our consultation 
process and sit down and listen to their concerns.
    Mr. Skeen. So you at least opened up the negotiations?
    Ms. Baca. Yes.
    Mr. Skeen. And you got some exchange, other than having a 
snowstorm. We welcome the snow.
    Ms. Baca. There was a lot that day. They actually closed 
the highway.
    Mr. Skeen. Yes, sir. I tell you it happens once every 100 
years.
    Mr. Regula. Like the flood in Ohio.
    Mr. Skeen. No. We've got the highest mountain in Texas. 
[Laughter.]
    Sierra Blanc, they come and visit it every winter and every 
summer. We do get a little snow once and a while. We've gone 
for about 10 months with no snow or no rain and whatever. We 
also have great droughts, when we have them.
    Mr. Regula. You were complaining about a drought last 
summer.
    Mr. Skeen. I know. Well, we're not complaining about it any 
more. Now we're just complaining about something else, like 
what's happening on BLM lands. [Laughter.]
    Ms. Baca. Well, we hope to resolve all.

                          number of personnel

    Mr. Skeen. I have a few other questions that I will submit 
to you in writing. I surely do appreciate the responses. We 
appreciate the work that you are doing. Just don't let the 
administration cut your funding down to the point where you 
haven't got enough people to take care of the programs. That's 
one other concern I have, that you have initiated a lot of new 
programs, and I'm not sure how this relates with the drawdown 
in personnel or the lack of being able to expand your personnel 
base because of budget. Is this strictly a budget derivation 
that's keeping your personnel just about level or you have 
reduced some?
    Ms. Baca. Last year we had approximately 900 people who 
took the buy-out.
    Mr. Skeen. They took the buy-out?
    Ms. Baca. They took the buy-out.
    Mr. Skeen. What does that leave you now?
    Ms. Baca. That leaves us at about 9,000 employees.
    Mr. Skeen. About 9,000. That's a healthy number.
    Ms. Baca. There are some who would argue that's too many, 
and some who argue that it's not enough.
    Mr. Skeen. It depends on what position you are in. Thank 
you very much.
    Ms. Baca. Thank you.
    Mr. Skeen. Thank you, Mr. Chairman.
    Mr. Regula. Yes. Mr. Nethercutt.

                                  pilt

    Mr. Nethercutt. Thank you, Mr. Chairman. Ladies and 
gentlemen, welcome. I'm glad you are here.
    I want to follow up a little bit on Mr. Skeen's comments 
about PILT. I appreciated you talking with me a little bit 
about some of these issues the other day. PILT, as you may 
know, is important to my part of the world out in Washington 
State. We have a little different funding situation. In 1994, 
PILT provided about $1.3 million to our counties. In 1995, it 
amounted to almost $4.8 million. Then in 1996, it was back down 
to $2.2 million.
    Apparently the way this all works, as you may know, is that 
the Forest Service makes payments to our counties. They base 
their payments on a calendar year rather than a Fiscal Year, so 
there's an unequal number of payments that are made in one year 
versus another, such that it makes it difficult to plan.
    I am one of those who supports PILT at a higher level, 
certainly not at the decrease of $12 million that the request 
came in at.
    I have some recollection that we contacted your office last 
fall about this problem of unequal PILT payments, and I was 
informed that you were working with the Forest Service to 
correct that problem. Advise for the record whether that's been 
corrected yet, this unequal payments arrangement.
    Ms. Baca. Yes. Mr. Nethercutt, we will advise for the 
record. I don't know the answer to that question.
    [The information follows:]

[Pages 376-377 --The official Committee record contains additional material here.]


                 interior columbia river basin project

    Mr. Nethercutt. I want to ask you about the Interior 
Columbia Basin Ecosystems Project. I am wondering if you can 
for the record advise the subcommittee how much money has been 
spent by the BLM thus far in exact terms, the amount of money 
spent by Fiscal Year, the amount of money requested, and for 
the record, the personnel devoted to this project. I would 
appreciate that.
    Ms. Baca. We would be glad to get that information to you.
    Mr. Nethercutt. Great.
    Ms. Baca. I have some general numbers here. It looks like 
by the time the project is over with, the BLM will have 
expended about $8.8 million. I don't have the number of 
personnel that are associated with this, but we'll find that 
out and get back to you.
    Mr. Nethercutt. I appreciate that. I think beyond the study 
and the finance, I have some concern about implementing an 
alternative, whichever final alternative may be chosen. I feel 
that's going to be a problem, not only for your agency, but for 
the Forest Service to have some sense of how much it will cost 
to implement an alternative.
    Do you plan to do such an analysis about implementation of 
any of the alternatives that are presented? If not, why not? If 
so, what have you found at this point?
    Ms. Baca. Mr. Nethercutt, I have never seen any figures 
about what implementation will cost us on this project. That's 
something that we can look into, but I have not seen any 
implementation costs for this.
    Mr. Nethercutt. Has there been any analysis done about 
implementation cost in personnel and consequences and so on? 
Anything in that?
    Ms. Baca. Nothing that I know about. I would like to maybe 
ask Nancy Hayes if she knows anything further.
    Ms. Hayes. To my knowledge, there has been no analysis done 
at this point. We're just now getting ready to select an 
alternative. There has been to my knowledge, no specific 
analysis among the various alternatives because of the way this 
is set up, and it's such a broad approach that's not easy to 
get into the specifics of cost in implementation.
    But it will, as you know, amend more than 70 management 
plans. So those plans will be then implemented on the ground as 
part of our normal planning process. So we'll have to get you 
for the record whether there's any intention to--for an 
alternative, an analysis of cost in implementation.
    Mr. Nethercutt. I thank you for that. It seems to me you 
have to do that. You have to have some sense of what it will 
cost you to implement an alternative, and whether it's even 
feasible. I don't want to be judgmental, but I'm surprised 
there isn't some thought being given to that as you decide not 
only what alternative can be implemented, but whether it can be 
implemented, and the cost to the agency.
    My understanding, I think from testimony here in this 
subcommittee earlier, was that Northwest Forest Plan is costing 
about $400 million a year, I believe in this next year to 
implement. I'm subject to being corrected on that if there's 
other information, but that's my understanding. I am just 
thinking about how your agency will go to the next step, let 
alone this first step. So I would appreciate some attention 
being given to that.
    Can you advise the committee what the status on choosing a 
preferred alternative is at this point and when the draft EISs 
will be released? I believe it's June if I'm not mistaken, or 
is it May?
    Ms. Baca. It's May of this year. We hope to have a final 
and a record of decision signed by June of next year.
    Mr. Nethercutt. Why has there been the delay in the draft 
EIS?
    Ms. Baca. The delay was caused by a couple of factors. One 
of them deals with the legal requirements of the Clean Air, 
Clean Water, and Endangered Species Acts. We needed to make 
sure that the draft EIS was going to acknowledge and fulfill 
the concerns of those three acts.
    Mr. Nethercutt. Can I just interrupt you and ask you is not 
the EIS going to be submitted based on science alone, or are 
you telling me there's something more than scientific bases for 
submitting the draft?
    Ms. Baca. Well, there's been also lots of public comment 
that has been involved in this, extensive public comment. We 
have had somewhere on the order of about 80 public meetings on 
it. So I hope I'm not mistaken, but I would assume that the 
draft EIS has not only the scientific, but it also takes into 
consideration the concerns that have been forwarded by all of 
the project partners.
    Mr. Nethercutt. All right. Well, we'll all await that then.
    I'll stop now, Mr. Chairman. I have a couple more 
questions.
    Mr. Regula. Why don't you go ahead? We don't have that many 
Members.

                              flood damage

    Mr. Nethercutt. Let me ask you, what is the extent of flood 
damage on BLM lands? Will there be a form of supplemental 
request to the committee to seek additional funds for damage to 
your program or flood damage?
    Ms. Baca. Mr. Nethercutt, let me defer this to Mr. Benna, 
who knows that.
    Mr. Benna. Mr. Nethercutt, we did submit a supplemental 
request in 1996, and received about $40 million. Most of that 
was used in Oregon as well as some of the other States.
    As far as 1997, we have sustained substantial damage, 
mostly in California, Idaho, Nevada and Oregon. We estimate 
that we have at least $6 million in damages, I believe. Right 
now the Department is in the process of looking at a 
supplemental request. BLM is also looking at our ability to use 
some of 1996 funds to address some of the 1997 issues.
    Mr. Nethercutt. The 1996 funds would come from where?
    Mr. Benna. It was a supplemental request.
    Mr. Nethercutt. From the $40 million?
    Mr. Benna. Right.

                             budget savings

    Mr. Nethercutt. Let me ask just one final question. I would 
just be interested in your opinions. Looking at your budget 
request for the year, can you assure this committee that there 
have been attempts to reduce the expenditures and be more 
efficient and more economical in the way the agency does 
business, recognizing that perceptions differ about how many 
people are the optimum level for the agency. Nine thousand may 
be it, and may not. But how can you assure the committee that 
there has been some progress made in getting your agency 
towards this balanced budget concept that we all seem to be 
seeking in this in the following years rather than just seeking 
more increases each year?
    Ms. Baca. Yes, Mr. Nethercutt, we can talk about a couple 
of things that come to mind. I talked earlier about what we're 
doing in terms of leveraging our dollars out in the ground with 
various partners. We mentioned the AML, where we turned a 
million into $7 million and a million on noxious weeds into $15 
million. So that's certainly one area.
    Another area is in administrative savings. We have revamped 
our internal budget. That's going to require that there be 
fewer people and less time to track the budget. We're hoping 
that we're going to have a savings of about $4 million in the 
next Fiscal Year.
    We had the buy-outs of about 900 people. That is going to 
save us a lot of money as well.
    Mr. Nethercutt. Are you not spending those savings though 
or is there a true savings in the amount of money you are 
requesting? Is it not being transferred over to other programs 
or starting new programs? What is the net savings, if there are 
any?
    Mr. Benna. I think, Mr. Nethercutt, it's a combination of 
several things. There are some actual savings. In many cases, 
these are more or less cost avoidances. I think they would be 
recognized in the budget from the standpoint that we are using 
these savings for ongoing resource management programs. So it 
would be recognized as a ``savings'' by lesser requests in the 
budget, by redirecting some of these cost avoidances to on the 
ground activities.
    Mr. Nethercutt. The bottom line though is spending more 
money. Am I right on that? I'm not being judgmental, I'm just 
trying to make sure I understand it.
    Mr. Benna. I think it's a combination more or less, 
depending on how you look at the budget.
    Mr. Nethercutt. That's all I have. Thank you, Mr. Chairman.
    Mr. Regula. Okay. Jim, do you have any more?
    Mr. Skeen. I have some to be submitted.
    Mr. Regula. We'll keep the record open for a couple days 
for some questions you want to submit.

                              ward valley

    The BLM proposed to reallocate $1.7 million to conduct 
additional environmental work at Ward Valley. This was done 
without a reprogramming. Do you think it would be appropriate, 
given that size of this proposal, that it should be handled 
with a request for reprogramming?
    Ms. Baca. Mr. Chairman, the Ward Valley project at this 
point, the status of it is that we have a letter to the 
Governor asking him to provide funding for the tritium testing 
and also for the supplemental EIS. We haven't heard back from 
him. Until those negotiations have been worked out, we don't 
know what it's going to cost for this particular project. So 
until we know what that is, we haven't come forward with any 
sort of a reprogramming.
    Mr. Regula. So you would anticipate you would, if and when 
it is needed?
    Ms. Baca. We're discussing that in the Department.
    Mr. Regula. In a letter, January 30, 1997, to the 
Secretary, Governor Wilson volunteered to conduct further 
scientific studies of Ward Valley at non-Federal expense. Can 
we assume BLM will no longer be proposing an internal 
reallocation to do the work itself? Are you going to let 
California do this work?
    Ms. Baca. I would like to defer that to Mr. Fry.
    Mr. Fry. Mr. Chairman, right now there are negotiations 
going on with the State to determine what kind of test the 
State would want to run, and to make sure that those tests 
would be tests that would be acceptable to the Federal 
Government in terms of the tritium tests. If the State can run 
a test that's going to be acceptable, then it's fine for them 
to run it. We're certainly more than happy for them to pay for 
it. Our position has been all along that this is going to be a 
cost to the State.

              grand staircase escalante national monument

    Mr. Regula. I want to go to the Grand Staircase Escalante. 
You have been managing that, correct?
    Ms. Baca. Yes. We have.
    Mr. Regula. And you will continue to manage it?
    Ms. Baca. Yes. We will, sir.
    Mr. Regula. Well I notice that you've proposed to go from 
$1.4 million, which is what you have been expending in the 
past, to $5 million. What is the justification for this $3.6 
additional million dollars?
    Ms. Baca. Yes, Mr. Chairman. With the area in the past, we 
were spending $1.4 million. That was spent to manage the area 
prior to the proclamation. This proclamation was signed 
designating the area as a monument. We are asking for $5 
million. Most of it will be going towards our planning effort 
to come up with a management plan for the monument. That was in 
the President's Proclamation. He made a commitment that we 
would go through the planning process and include the State and 
the local government and the people of the local economies on 
how the Monument should be managed.
    There is an additional $2.5 million in that. There was $1.7 
that we're going to use for planning, and about $2.5 million 
for operations. With designation of the Monument, the number of 
public requests for information have more than doubled. So 
we're going to have a lot of people who are going to be out 
there.
    If you are familiar with the terrain, it's very rugged and 
it's very desolate. So we are anticipating that search and 
rescue is probably going to go up. So we need funds for that. 
We also want to be able to put up proper signs so that we can 
direct people to particular areas where they won't get lost. 
It's those types of management issues that we are facing that 
we are asking for these additional funds.
    Mr. Regula. Do you have new duties associated with the 
change of status?
    Ms. Baca. Well, yes. Again, things like when you have 
increased people coming through, you'll have the need for more 
safety. You will have the need for perhaps law enforcement. 
When you have a national monument, you have people who come in 
and litter the area. We have to go through and make sure that 
that's resolved. And we need to provide better services to 
interpret the various resources that are in the area.
    The Monument contains significant historical and biological 
values. We want to be able to provide information to the public 
about those values.
    Mr. Regula. Is it roaded enough that people can get in to 
see these values you are talking about?
    Ms. Baca. I am not sure how many roads are in the area. 
Does anybody know?
    Mr. Millenbach. Yes, there's one paved road that goes 
through the northern part of the Monument. The rest of it is 
dirt roads. It is very rugged terrain. We do have some 
arguments with the counties about what are roads and what are 
not. But a lot of it is inaccessible. It's the same issue we 
have down in New Mexico. A lot of it is inaccessible, 
containing only old mining exploration roads and that kind of 
thing where people can drive.
    Mr. Regula. Do you think that the interest in terms of 
tourism will continue or is this a flurry because of the 
publicity given to the action by the President? I guess to 
follow along with that, what would attract a visitor out there? 
You are telling me it's rugged, it's not well roaded.
    Mr. Millenbach. It's highly scenic. A lot of red rock 
canyons. Unusual biological areas. It's among the last areas of 
the United States, the lower 48 to be explored. It wasn't 
explored until the 1870s by the John Wesley Powell parties. So 
it's an area that's got a lot of interest of the public. I 
think once it gets this special designation, there will be a 
lot more people wanting to go out there to take a look at it.
    Mr. Regula. That would assume then that you would have to 
build facilities so you can have rest stop facilities, roads.
    Mr. Millenbach. That's correct. That's what we're doing 
this plan in order to try to figure out where the entrance 
points, what kind of public facilities need to be constructed 
for sanitation and visitor use and that kind of thing.
    Mr. Regula. Would you contemplate a visitors center?
    Mr. Millenbach. Potentially. Yes, sir.

                  minerals operations at the monument

    Mr. Regula. Conoco has proposed to drill a test well in the 
monument. It's in the Smokey Mountain on the Kaiparowits 
Plateau. There's an existing road and an old drilling pad. 
Conoco says they are doing this because the lease is due to 
expire, and the possibility that they could find oil at a 
deeper level. Will this in effect represent a test case on the 
question of valid existing rights?
    Ms. Baca. Mr. Chairman, the President did say that we will 
honor all valid existing rights.
    Mr. Regula. But you'll have to make judgements as to what 
constituted a valid existing right, will you not?
    Ms. Baca. Well, Conoco does have an application into the 
BLM. We're preparing to go out and do an on-site drill 
inspection in March. There will be an environmental assessment 
that will be conducted. By July 1, we will make our final 
decision on how we are going to move forward with this 
particular application to drill.
    Mr. Regula. Would the standards be different now than they 
were prior to monument designation? There was still a public 
plan then.
    Ms. Baca. Specific to Conoco or in general?
    Mr. Regula. In general.
    Ms. Baca. In general, yes. It will be different. When the 
Monument was designated, the lands were withdrawn from any sort 
of new entry for mineral leases or any type of drilling that's 
going on.
    Mr. Regula. So the coal reserves, which I understand are a 
major factor, would no longer be accessible by the public, is 
that correct, for the purpose of mining?
    Ms. Baca. On new initiatives, that's correct.
    Mr. Millenbach. Can I expand on this a bit? There are two 
existing groups of coal leases out there, one with Pacificorp 
Company and the other with Andalax. We are talking to both 
those companies about some sort of a lease exchange or 
something to that effect.
    With Pacificorp, we're doing an appraisal of their rights. 
We have already got that underway. Once we get that, then we'll 
sit down with them.
    Mr. Regula. So those are existing leases?
    Mr. Millenbach. Yes, sir.
    Mr. Regula. And you are at this point not quite sure how 
extensive those leases would be as far as acreage is to be 
mined?
    Mr. Millenbach. We know what the acreage of the leases are. 
There's some debate----
    Mr. Regula. Are there defined boundaries on the leases?
    Mr. Millenbach. Yes, sir. Yes. The leases have defined 
boundaries. There is some debate about the value of the coal 
resources within the leases themselves.
    Mr. Regula. Is this open pit mining?
    Mr. Millenbach. No, sir. It would be underground in both 
cases.

                             new world mine

    Mr. Regula. Now as I understand, there is some proposal to 
trade coal reserves with the New World Mine people to make some 
type of a close-out on the gold mine. Is BLM involved in this?
    Mr. Millenbach. There has been an inter-agency team that 
has been set up, the Council of Environmental Quality is 
heading it up. Our people are going to be making a proposal on 
the New World Mine. Crown Butte is the name of the company. 
Today they are down in Houston. We're going to be sending them 
a letter and presenting to them. It could be going on right now 
as far as I know. We'll send that to you.
    Mr. Regula. This is BLM people or are you talking about the 
Government generally?
    Mr. Millenbach. The Government in general.
    Mr. Regula. And some of what's in the proposed package 
would include mining rights or mining revenues?
    Mr. Millenbach. It could include either the diversion of 
royalties or the Montana Governor has been looking at a 
proposal whereby some key interest in coal resources could be 
transferred as part of the transaction.
    Now, we are not that far along with the company. We should 
have a better resolution later on today. There has been a fair 
amount of controversy that was caused by the Governor trying to 
get out and help us out on this.
    Mr. Regula. If a tentative agreement is reached, is it your 
understanding that this will require legislation?
    Mr. Millenbach. Yes, sir.
    Mr. Regula. So this would go to the Resources Committee for 
an authorization?
    Mr. Millenbach. Well, it could. It depends on what kind of 
a proposal on which we reach agreement. If it's a diversion of 
royalties, perhaps that could be handled by your committee, but 
we're not sure about that yet. We'll have to get back with you 
as soon as we think we've got something to work with with the 
company.

                         wild horses and burros

    Mr. Regula. Another subject is the problem of burros and 
horses. You had a little adverse publicity in recent months, 
weeks. Would you comment on this and whether you have resolved 
the problem?
    Ms. Baca. Yes, Mr. Chairman. Thank you for the opportunity. 
There has been a lot of allegations in the press about this 
program. When those allegations surfaced, we immediately put a 
team together to go out and look at the specific allegations.
    We sent our folks to all of the horse processing plants in 
the United States and also the one in Canada that we know that 
processes horses. We had them look into the titling of the 
horses and how many of them that may have gone through there 
were once Federal horses.
    The results were that out of 266,000 horses that went 
through those processing plants in the last two years, 
approximately 700 of them were Federal at any time. That is I 
believe one-quarter of one percent, and no where near the 90 
percent that the news reports are reporting. We feel fairly 
comfortable that it's no where as abused as the articles have 
said.
    A couple of other things that we have done in light of not 
only the news stories, but also last summer as you know, the 
drought was really bad in the West. We were very concerned that 
the horses were going to expire because of the heat and the 
drought. So we put together an emergency evaluation team to 
come up with some solutions on first, how we could insure that 
those horses didn't die in mass quantities, and second, what 
could we do to improve the program and look at long-range goals 
to improve the program.
    We have been provided a report that provides twenty 
recommendations on where the bureau needs to go forward to 
improve the program. That report was delivered to us in 
January. I have accepted those recommendations, and we have 
moved forward with a couple of the recommendations already.
    Specifically, we have number one, moved the program office 
from Reno, NV, back to Washington, D.C. The program office was 
operating out there along with the Nevada State office. We 
thought that this program is important enough and deserved 
enough attention that we needed to bring the policy back to 
Washington and provide the type of support that the program 
needs from high levels.
    We are going to keep the operations of the program in Reno. 
It's just the public policy portion that we have moved back 
into Washington.
    The emergency team has asked us to go back and look at our 
strategic plan and to update it. We will do that as soon as 
possible. They have also asked that we revitalize the wild 
horse and burro advisory group. That's a FACA group. So we're 
moving forward to have a group to advise us here shortly. There 
are a number of recommendations about how we should go forward 
with this program in terms of long-term solutions.
    Another thing that we did was----
    Mr. Regula. Is it one of these work control programs?
    Ms. Baca. That is--we need to look at that, yes, very 
seriously.
    Mr. Regula. I understand your objections.
    Ms. Baca. Right. Mr. Chairman, the horses are multiplying 
at about a rate of 20 percent a year.
    Mr. Regula. Doesn't this devastate the graze for other 
animals?
    Ms. Baca. Yes. It's a problem when you have too many 
animals, whether they are horses or they are cows or whatever. 
Too many animals on the range land, and especially during a 
drought seriously erodes public lands. So part of our request 
is for a couple of million dollars more to hold more adoptions 
this next year so we can remove more horses from the public 
lands.
    We have also put together a team to also look at the 
adoption side of the program. There were allegations that BLM 
employees were improperly adopting the horses. That is not true 
at all. This team looked at all of the policy issues of whether 
or not employees should be able to adopt the horses. I want to 
say for the record that our BLM employees are probably some of 
the best adopters out there. These people love these animals. 
They live the sort of lifestyle in the West that is conducive 
to having horses, and they are good adopters. We don't want to 
penalize them and take away the program from them.
    We will look certainly to what sorts of things need to be 
tightened up, but we really hope that we can continue to allow 
them to adopt the animals.
    The team is also looking at compliance. Do we need to go 
out and do more inspection on the animals? Currently, we 
investigate a little more than five percent of adopted animals 
as part of our compliance program. The team is going to send 
forth some recommendations on whether or not that compliance 
effort needs to go higher.
    Some of the problems associated with compliance are that a 
lot of the horses are brought to the east and adopted in the 
east. We don't have BLM offices all over the east. So the 
horses go all over. But what we are hoping to do is enter into 
more agreements with animal humane societies so that we don't 
have to ask for any more people and ask those groups to go out 
and make compliance checks for us.
    So they have come up with some very innovative ideas in 
terms of how we can step up our efforts on the compliance side. 
They are also looking at what we can do to improve our data 
tracking systems. The allegation was that we have lost track of 
a lot of horses. We are looking at how we can improve our data 
systems and not lose track of these horses per se in our 
computer system.
    Mr. Regula. It seems to me it would be hard to keep a 
handle on it. Do they roam or do they tend to stay in a given 
locality?
    Ms. Baca. They are in herds, yes. They are in a given 
locality.
    Mr. Regula. But the herds don't migrate great distances 
then?
    Ms. Baca. I believe that they stay in a particular area. 
Maitland, is that correct?
    Mr. Sharpe. That's essentially correct. They stay largely 
within areas, which are actually located, determined on the 
basis of where the horses congregate.
    Mr. Regula. Does BLM do the roundup to get them?
    Mr. Sharpe. We contract through two private contractors.
    Mr. Regula. Okay. It seems to me it would be a challenge to 
break one of those after they have been out there running free.
    Mr. Skeen. It would give you a lot of good exercise.
    Mr. Sharpe. Actually, they gentle very well for the most 
part, except for some of the older animals, particularly the 
older studs. We try to train the adopters in methods of 
handling the animals and taking care of them and so forth. We 
work with them to try to keep them from trying to break the 
animals but to gentle them instead. It's much more successful 
and it's much kinder to the animals.
    But by and large, particularly with younger animals up to 
age eight or 10, the adopters, success is extremely good.

                                Forestry

    Mr. Regula. A couple of questions on forestry. Do you have 
enough in the pipeline to meet your charter for about 200 
million plus?
    Ms. Baca. That's our goal, yes, is for the 213.5 million 
board feet. Are you asking in terms of appropriated dollars?
    Mr. Regula. Preparing it for sale. Do you think that you 
have enough perspective sales?
    Ms. Hayes. Yes. We will meet the target this year.

                             Timber Salvage

    Mr. Regula. Do you do anything with salvage in the program? 
Also the secretary was talking about a thinning program because 
these stands get too thick. Apparently the thinning product has 
some commercial value. Is this part of your forestry program 
too?
    Ms. Baca. Nancy?
    Ms. Hayes. Yes. It is. One of the things that would really 
assist us in our forest health would be we don't really have 
authority to use our funds that we need to prepare salvage 
sales, to do pre-commercial thinning, which can have the same 
commercial value and yet would have a substantial forest health 
value.
    Mr. Regula. So you need authority, additional authority or 
some additional funding to do pre-commercial thinning?
    Ms. Hayes. It's not so much the funding as the authority. 
We have the funds, but can only use it to prepare timber sales.
    Mr. Regula. So you are saying in terms of forest health, if 
you had this authority, you could do a better job of managing 
these resources?
    Ms. Hayes. Yes. That's one of the things I know the Forest 
Service is looking at, creating a fund, and that's something we 
are looking at as well. But we do have this fund already which 
we could simply, if we had a little bit more authority, do some 
more forest health activities. That is something we are looking 
at.
    Mr. Regula. Do you coordinate with the Forest Service on 
fire suppression?
    Ms. Hayes. Yes.
    Ms. Baca. Yes. We do.
    Mr. Regula. Do they train your people or do you have your 
own separate facility? Is it Missoula that has the jump school?
    Mr. Tipton. The Missoula school I believe is for smoke 
jumpers. Our facility in Boise, uses joint team efforts.
    Mr. Regula. So you work together.
    Mr. Tipton. It's very, very well coordinated.
    Mr. Regula. Mr. Skaggs, in the interest of civility, I will 
call on you next.
    Mr. Skaggs was co-chairman of the weekend in Hershey to 
cause us to be more civil. I thought it was a very successful 
weekend.
    Mr. Skaggs. Thanks, Ralph. Your attendance helped make it 
so. You have never had a civility deficit. You could probably 
make civility loans with your surplus. One wonders what the 
interest rate would be.
    Okay. Sorry I was not here for your opening statement and 
whatever earlier questions you have already entertained, but I 
was actually working on what Ralph was just talking about.

                   Green River Basin Advisory Council

    I asked the Secretary when he was in about the Green River 
Basin Advisory Council. That may not be the proper name, but I 
hope you know the activity to which I refer. I got briefed on 
this at home a few weeks ago. It seemed like a hopeful 
undertaking in which some of the resource development folks and 
the environmental community have been able to work out, some 
understandings but we were running into questions about whether 
all of this was permissible under statutory ground rules.
    Do you know where things stand with the solicitor's office 
on that now? Are you encouraged that we might be able to enable 
them to do what they want to do?
    Ms. Baca. Yes.
    Mr. Skaggs. This is all civility as well.
    Ms. Baca. Yes. Mr. Skaggs, the Green River Basin Advisory 
Committee did conclude its work about two or three months ago. 
They provided the Department with a list of recommendations. I 
believe the topic that you are talking about is the eco-
credits. There were, I believe, three or four recommendations 
out of the report. We were able to move forward with two of 
them immediately. But the eco-credit portion of the 
recommendation we were unsure as to whether or not we had the 
statutory ability to grant eco-credits.
    We have forwarded that to our solicitor's office. It is 
under review at the moment. I will ask my staff if they know if 
we have a date on that.
    Mr. Tipton. I don't know that there's been an anticipated 
date to respond to the group on it. Also we are working with 
them to see if there are other ways to incorporate some of the 
principles.
    Mr. Skaggs. Do you personally see this as a constructive 
approach to their particular area of issues?
    Ms. Baca. Absolutely, Mr. Skaggs. This has been a great 
opportunity for all of the people who have a stake in that 
particular region to come to the table and talk about how they 
resolved the resource issue, rather than litigating it. That 
was the problem in the past, nobody was talking to each other 
and we were constantly caught up in court trying to resolve 
these issues.
    Mr. Skaggs. I can't even if I wanted to push the 
solicitor's decision timeline on this, because the reflex might 
be to say no, which wouldn't be helpful. But I think if it 
looks as though there may be some statutory hurdle that 
prevents saying yes, the sooner we know about that, obviously 
the better. It's the sort of thing that I would like to believe 
people around here on the authorizing side might want to see 
changed so as to enable flexible approaches like this to go 
forward. So the sooner we might have an opinion, if it's going 
to be--I hope it's positive, but if it's going to be negative, 
it would be nice to have identified what change in law might be 
required in order to prevent it to happen.

                            Recreation Fees

    You all are, as with the Forest Service and the Park 
Service, authorized to work with some entrance fee adjustments 
I believe. Has this already been covered in your earlier 
testimony and Q&A?
    Ms. Baca. Yes. Are you talking about recreational user 
fees?
    Mr. Skaggs. Yes.
    Ms. Baca. Yes. We are proposing that we'll have 17 
demonstration sites in the ensuing year. Those are all new 
sites. We are hoping to collect approximately $4 million. We 
are going to redirect 100 percent of those funds back to the 
site of origin.
    Mr. Skaggs. I am familiar with the Park Service's effort 
anyway. The Forest Service may be doing the same thing, to 
check on customer reaction to this. The early reports anyway 
from the Park Service is that people are very positive about 
the idea that they are paying a little bit more as long as it's 
going to make the site that they are visiting get better.
    Do you have any kind of feedback mechanism in place or 
contemplated to monitor all this?
    Ms. Baca. I do know that our preliminary work has shown 
that if the money goes back to the site of origin, that they 
are very, very supportive of that.
    In terms of customer surveys, Nina, do you know?
    Ms. Hatfield. We have been working jointly with the Forest 
Service on a number of surveys, including recreation.

                        Trading Post Initiative

    Mr. Skaggs. I think that that would be helpful in 
confirming what we all were hoping would be the track record 
and the reception in the public on this approach, since we are 
looking at it on a trial basis, assuming that's not too 
expensive.
    You all and your colleagues in the Forest Service have been 
working together, in Colorado anyway, and I hope elsewhere as 
well, to develop a kind of one-stop shop, ``trading post,'' I 
think is the phrase that's been invoked on this, for joint 
management activities over a big swath of southern Colorado 
that you have responsibilities for. I understand, at least from 
folks at home, this has been well received. I hope your 
managers are also feeling positive about it, but I gather it is 
more complicated perhaps than it needs to be because of 
separate bookkeeping and other arrangements. I wonder if you 
are able to elaborate on that right now, or perhaps for the 
record.
    [The information follows:]

[Page 390 --The official Committee record contains additional material here.]


    Mr. Chairman, it may be that this would be an area where 
some grant of some flexible authority on a trial or project 
basis in our bill would be put to good use and good advantage.
    Mr. Benna. Yes, Mr. Skaggs, if I could comment on that. The 
BLM and the Forest Service have two initiatives ongoing we call 
trading posts initiatives. One is in southern Colorado and the 
other one is in Oregon. Both the BLM and Forest Service are 
working together on various innovative approaches, including 
co-locating offices, sharing personnel, basically using the 
best sense to get the job done.

                 Oil and Gas Inspection and Enforcement

    Mr. Skaggs. Well, if, again, you are well aware of what the 
timeline of our bill cycle is around here and you can do your 
best to see if we do need to make some provisions to enable 
this to happen. Hopefully, we would be receptive to that. 
Another similar interjurisdictional, interagency thing I know 
you're looking at may result in giving the State of Colorado 
delegated authority in the oil and gas leasing end of your 
business, which we think could result in some substantial 
savings and efficiencies. I'm informed that they've been 
basically told to put this effort on hold for the time being, 
and I just wondered if you could explicate the status of that 
and the reason if, indeed, it has been put on hold, and where 
you see that going once the hold is lifted, if it is going to 
be lifted.
    Ms. Baca. Yes. Mr. Skaggs, BLM has been working with the 
Interstate Oil and Gas Compact Commission, IOGCC, over the 
course of the last year to come up with innovative ways in 
which the BLM can share inspection and enforcement authorities 
with the various States. This was a proposal that was brought 
to us by IOGCC. We have had numerous meetings over the last 
year on how we get from the BLM doing the actual work to 
perhaps giving portions of that work to the various states. I'm 
going to defer to Mr. Tipton on the Colorado experience because 
I'm not quite sure. Mr. Tipton?
    Mr. Tipton. Yes. The Colorado----
    Mr. Skaggs. Can I just interrupt? I don't know whether our 
reporter can get everybody's voices from the front row.
    The Reporter. It would help if you stepped toward the front 
table.
    Mr. Tipton. The Colorado proposal goes quite beyond what 
has been initially discussed with the States and the OIGCC, in 
that it includes operating much beyond what is in the 
inspection and enforcement. We had agreed with the States back 
around the first week of February to talk about those things, 
and our staffs in Colorado were quite innovative and actually 
ahead of the rest of us in sitting down with a no-holds-barred 
approach, if you will, trying to figure out how they could work 
together and whether they could save some money.
    We discussed their report at length jointly with the IOGCC, 
sharing some of the thoughts with the industry when we 
concluded that meeting. And it was felt at that time that--it's 
not put on hold--but to continue to refine some of the working 
principles in it. The staffs themselves have not reached full 
agreement yet as to: are these legitimate savings and are we 
really eliminating duplication or are we cutting out some steps 
in our process? And I've talked with our State Director and 
other officials with which we reached agreement in Colorado 
about that.
    So our intent is to do some more outreach with industry and 
the public, and the other groups that want to talk about this 
over the next month. We will have another meeting jointly with 
the IOGCC and see what kind of feedback we got from those 
groups as to just what aspects of the program they would be 
interested in administering beyond the I & E, and then also, 
hopefully, at that time have a further refined report on the 
Colorado State.
    Mr. Skaggs. Great. I have heard figures like perhaps a 
million bucks a year in potential savings, which in Colorado is 
still real money. So----
    Mr. Tipton. That's right.
    Mr. Skaggs. I don't know whether you've heard numbers like 
that.
    Mr. Regula. That's real money though. [Laughter.]
    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Thank you, and I think we will look into 
whether we need to provide some additional authority in our 
bill.
    Mr. Wamp.

                         land between the lakes

    Mr. Wamp. Thank you, Mr. Chairman. Just one, brief 
question.
    When Secretary Babbitt was here a couple of weeks ago, I 
raised an issue which is a related issue. I'm the chairman of 
the TVA Caucus in a seven-state region, and a hearing was 
scheduled for the weekend before last on the issue of the Land 
Between the Lakes, between Kentucky and Tennessee, and the 
hearing was postponed because all the floods set in. But the 
hearing will be rescheduled, I understand. The issue that I 
asked the Secretary was, Do you have an interest in or comment 
on the future use of the Land Between the Lakes or the future 
management of the Land Between the Lakes?
    The President's budget actually instructs the Tennessee 
Valley Authority and Army Corps of Engineers to get together on 
a proposal to eliminate the non-power funding for the Tennessee 
Valley Authority, including the management of the Land Between 
the Lakes, which is a very controversial issue between Kentucky 
and Tennessee. And, as you well know, President Kennedy set 
this land aside when he was President, and since then the TVA 
has been steward of this land. But it's kind of up for grabs 
and I'm asking the Park Service, the Interior, and BLM if 
there's any interest in the management of, or any input in, who 
should manage this.
    I want to tell you the Secretary was very outspoken, 
stating the Tennessee Valley Authority should remain as the 
caretaker for this land and he thought that it would be a 
tragic mistake if TVA gave up the stewardship of this land. Do 
you have any input into that?
    Ms. Baca. Mr. Wamp, this is the first I've heard of this, 
being that this is not BLM land currently, this is the first 
time I've heard about this issue.
    Mr. Wamp. Well, the proposals have gone from maybe the 
Interior or the Park Service, or whoever might take it over, 
and I just was asking all of the agencies that might have 
jurisdiction--potentially might have interest, whether or not--
but if you would, in the future, in the next few days if you do 
pursue this line of questioning back at headquarters and you 
have any input, just submit it for the record. Any input from 
your perspective about the stewardship and management of our 
lands across the country which would include this as an asset 
would be helpful, as we explore what potential managers there 
are for this land.
    [The information follows:]

                         Land Between the Lakes

    Although the BLM has a proven track record of managing 
public lands for multiple use to meet the present and future 
needs of the American people, it would not be an appropriate 
manager for the Land Between the Lakes. The BLM manages very 
little public land east of the Mississippi River. Of the 264 
million surface acres of public land that the BLM manages, only 
30,000 acres, or one-tenth of one percent, are located in the 
East. The BLM currently has no field offices near the Land 
Between the Lakes, and would therefore have to incur 
significant expenses if it were to manage this area. As a 
result, the Bureau would not be the most appropriate agency to 
manage the Land Between the Lakes. The Secretary has stated his 
support for the Tennessee Valley Authority's continued 
administration of this area.

    Mr. Wamp. Actually, after the testimony of Secretary 
Babbitt, I had others in the room that came and gave me their 
input, which I thought was beneficial to hear from as many good 
stewards of our natural resources as we have.
    With that, there's no further question, Mr. Chairman.
    Mr. Regula. So you can get that information?
    Ms. Baca. Yes.
    Mr. Regula. Mr. Yates.

                         wild horses and burros

    Mr. Yates. Yes, Mr. Chairman. Thank you.
    I'm interested in the Wild Horse and Burro Program. And I 
keep hearing reports that too many healthy wild horses and 
burros are being just sold for slaughter. Can you tell us about 
that? Is that true?
    Ms. Baca. Mr. Yates, Dr.----
    Mr. Yates. Could you pull that microphone, please? I find 
that I don't hear as well as without it.
    Ms. Baca. Sure, Mr. Yates. The allegations on the Wild 
Horse and Burro Program that you probably read about in the 
newspapers we have found to be just greatly exaggerated. Yes, 
we sent out a team of BLM inspectors to all the slaughterhouses 
in the United States and one in Canada that we know of that 
would process horses. And what we found was that out of 266,000 
horses that have gone through those facilities in the last two 
years, there were approximately 700 horses that may have been 
under Federal management at any time. That comes out to less 
then one-quarter of 1 percent of all the horses that are going 
through there that may have had any sort of Federal title at 
any point in time. So that, you know, certainly shows that 
they're not going through the slaughterhouses at the extent 
that they're being reported.
    Mr. Yates. Well, do you think that new regulations are 
required by the Bureau that would prevent slaughterhouses from 
butchering wild horses unless a veterinarian certifies that the 
animal is sick, lame, or old?
    Ms. Baca. Mr. Yates, we have, you know--there are already 
prohibitions against slaughterhouses processing----
    Mr. Yates. There are----
    Ms. Baca. Yes, against processing horses. Since this whole 
issue came forward, we sent letters to slaughterhouses just as 
recent as probably a month ago reiterating that there are 
regulations that prohibit them from slaughtering horses that 
may have been wild horses that are untitled.
    Mr. Yates. Well, now, in a memorandum to your directors you 
mentioned that you want to place a greater focus on the long-
term health of land in respect to the treatment of the wild 
horses. What does that mean?
    Ms. Baca. Okay. Yes, Mr. Yates. What that has to do with is 
reaching what we call ``appropriate management levels,'' and 
with your permission, I'd like to have Mr. Maitland Sharpe 
explain exactly what that is.
    Mr. Yates. Okay.
    Mr. Sharpe. Yes, I'd be happy to do that. When we looked at 
the Horse and Burro Management Program last summer and fall, 
both at the drought and at the program overall, we realized 
that in some cases we had been looking more at the horses and 
the conditions of the horses themselves than at the condition 
of the range and the habitat which supports the horses. In some 
cases, this may have led us to leave more horses on the range 
longer than we really should have in order to protect and 
maintain over a long period of time the health of the 
underlying resource base, which, of course, is necessary over 
time to sustain horse herds at appropriate numbers for many, 
many years to come.
    So our goal is to shift the focus within the Horse and 
Burros Program to ensure that we are basing our horse 
management efforts on a proper and accurate assessment of the 
health of the underlying land and vegetation resource, the 
watersheds themselves, rather than simply managing, as a 
commercial livestock manager might, on the basis of how a stock 
looks.
    Mr. Yates. What's implicit in that process? How long does 
it take? Ordinarily, I would have thought that you would have 
reviewed the state and quality of your land and your watersheds 
just to make sure they're right, they're not deteriorating. And 
you would do that anyway, even without the horses. Now how does 
this change that?
    Mr. Sharpe. Yes, sir. We should and we have, and it's in 
fact on the basis of those assessments and ongoing monitoring 
studies that we have set the AML, the so-called Appropriate 
Management Level for the size of the horse herd within a 
particular horse management area. But we also found that under 
the pressure of time, constrained resources, that sometimes our 
horse management specialists were placing less attention on the 
ongoing monitoring and assessment of the condition of the 
land--the vegetation, and the watershed, and soil than was 
really required, putting more of their time and attention into 
the operational issues of horse management. And we need to 
readjust that balance to ensure that we are taking proper care 
of the basic resource. That's what was at issue in those 
recommendations.

                           blm funding levels

    Mr. Yates. A fundamental of good management is protecting 
your basic resource. Do you have enough money in your budget to 
do that? You have so many acres of land within the BLM; I don't 
know whether you have enough people to review the condition of 
your basic resource.
    Mr. Sharpe. The first----
    Mr. Yates. I'm told you have 264 million acres that you 
have to take care of.
    Mr. Sharpe. That's correct.
    Mr. Yates. I assume some of that you don't have to take 
real good care of because it's probably rot and other things of 
that sort. But I'm thinking of the grasslands, the ranges, and 
the riparian areas. Do you have enough funding to do an 
adequate job of that?
    Mr. Sharpe. Well, the Bureau has always been a lean outfit. 
The Horse Management----
    Mr. Yates. Well, that may be, but we haven't been nearly as 
lean with our budget as we have in recent years.
    Mr. Sharpe. Yes, that's true.
    Mr. Yates. Yes. I wondered whether or not you do have 
enough funds now to adequately do the job you're supposed to 
do.
    Mr. Sharpe. Well, we believe, of course, that the budget 
that's been proposed is the proper budget for the tasks that we 
are taking on----
    Mr. Yates. A great Congressman from Arkansas used to talk 
about the dance steps. One step forward and two steps to the 
side. Now, I don't even think you're taking one step forward 
when you give me answers like that. You have got two steps 
going to the side. Now just, what is the answer to my question? 
Can you give me an answer to my question?
    Mr. Sharpe. I think I can give you an answer to that 
particular question.
    Mr. Yates. Do you have enough knowledge yourself to be able 
to answer my question, truly?
    Mr. Sharpe. I think I do.
    Mr. Yates. Okay.
    Mr. Sharpe. A rather particular answer to your question, 
now that I've performed the required dance steps. [Laughter.]
    Mr. Yates. It's not the Macarena! [Laughter.]
    Mr. Sharpe. The two team efforts that we've had ongoing 
over the period of the last nine months or so to thoroughly 
review this program and propose corrections, adjustments, 
additions, things that we need to do to do a better job, and to 
fix the problems----
    Mr. Yates. Did it also indicate the amount of money you'd 
need for that?
    Mr. Sharpe [continuing]. Correct--have totaled up to--the 
one set of recommendations that is about to come in, but has 
not yet been presented or accepted by the Director carries a 
price tag of $1.9 million over three years.
    Mr. Yates. 1.9 million or billion?
    Mr. Sharpe. Million.
    Mr. Yates. To take care of all these----
    Mr. Sharpe. An additional, an increment of $1.9 million 
over three years.
    Mr. Yates. Oh, an additional. Oh, that's just for the 
horses?
    Mr. Sharpe. That's just for the additional increment on 
horses----
    Mr. Yates. Oh, now I'm expanding the purview of my 
questioning and I hope you're answering--I'm talking about the 
whole range----[Laughter.]
    I'm talking about the domain that is called the Bureau of 
Land Management.
    Mr. Regula. The global perspective.
    Mr. Yates. Yes, the global perspective. We're coming into 
the 21st century and everybody talks about ``global 
perspective.''
    Mr. Regula. Building a bridge, are you? [Laughter]
    Mr. Yates. Well, yes. It's kind of a trestle at the moment.
    Ms. Baca. Mr. Yates, if I could attempt to answer that, in 
my opening remarks, I have laid out for the committee the 
various funding requests that we have and our Fiscal Year 98 
budget request for range improvements. We have asked for $2 
million more for the Wild Horse and Burro Program. We have also 
asked for a million dollars more to combat noxious weeds on 
public lands. What we'll do with that money is we'll take it 
out there and we will leverage it with partnerships with 
various states and local governments.
    We have found that, through the cost-share program, that 
we've been able to take our money and leverage it many times 
over. We asked for an additional $3 million for the Abandoned 
Mine Lands Program. And last year we got a million dollars for 
that program and we were able to leverage that to $7 million. 
So we're pursuing all avenues to take the money that's 
appropriated to us and enter into these partnerships and have a 
bigger effect on the ground. But we have asked for certain 
increases in our 1998 request that we think will help us to 
sustain our lands.
    Mr. Yates. Are your increases predicated upon a thorough 
review of your domain?
    Ms. Baca. Our request reflects our best information on the 
public lands.
    Mr. Yates. What's the basis for your information? Who is 
providing you with that information?
    Mr. Benna. Mr. Yates, if I might respond to this somewhat. 
When we go through--begin to develop our budget request for 
1998--we start approximately two years in advance. And really 
our budget request is predicated upon a lot of input from all 
of our field offices on the ground. So this is not a 
headquarters decision on where we think the priorities are.
    Mr. Yates. Well, here you have 264 million acres. How many 
people have you got to make that review for you?
    Mr. Benna. We have about 9,000 employees in total.
    Mr. Yates. Well, how many of the 9,000 employees are making 
that review for you? All 9,000?
    Mr. Regula. Well, they feed information in, I'm sure.
    Mr. Yates. Yes, but some of those 9,000 are administrative 
officers, aren't they? And they aren't making the reviews, and 
that's what I was trying to find out, Mr. Chairman, as to how 
many are doing that. How many of them are in your offices 
rather than out in the field?
    Mr. Benna. I don't know the exact number of how many are in 
offices, as opposed to in the field, but we are attempting to 
put as many people as we can----
    Mr. Yates. Well, I know that. But that's what I'm trying to 
find out. Do you not know at the moment, is what I'm trying to 
find out.
    Mr. Benna. I could provide that number for the record.
    Mr. Yates. Okay. That's a good enough answer for me, 
because I do want to know whether you are getting an adequate 
review of the condition of the resource, and whether or not the 
review you are getting is adequate to base your request for 
increases of funds.
    [The information follows:]

                            Field Employees

    Of the Bureau's approximately 9,000 employees, about 70 
percent are involved in operational-field work. The other 30 
percent is involved in Headquarters, administrative-type work.

    Mr. Yates. Perhaps you should have asked for more money. 
Did your reviewers give you a greater amount to ask for than 
you're asking for? Do I make myself clear?
    Ms. Baca. We'll provide that information for the record.
    [The information follows:]

[Page 398 --The official Committee record contains additional material here.]


    Mr. Yates. Okay. That stops me. [Laughter.]
    I have one or two more questions, Mr. Chairman, with your 
indulgence, please. And I'll have others for the record, of 
course.

              Grand Staircase-Escalante National Monument

    How much opposition are you meeting with respect to 
carrying out the President's establishment of the Grand 
Staircase Escalante National Monument? I know that a lot of 
people in Utah don't want it. Is that correct?
    Ms. Baca. Mr. Yates----
    Mr. Yates. Or am I just assuming something?
    Ms. Baca. Well, we have certainly read in the newspapers 
the opposition by some of the people of Utah, but we have also 
read letters of support from the region as well. The number of 
inquiries that have come into the BLM since the designation of 
the monument has doubled since the proclamation was issued.
    Mr. Yates. Do you need an EIS to establish a monument?
    Ms. Baca. I don't know, sir. We do not----
    Mr. Yates. Who would know that answer to that question?
    Mr. Millenbach. Sir, the monument was established by a 
presidential proclamation----
    Mr. Yates. I know.
    Mr. Millenbach. There was no EIS on that.
    Mr. Yates. There's no need for an EIS, then?
    Mr. Millenbach. We're preparing a land-use plan to be done 
within the next three years and that will include an EIS with 
that.
    Mr. Yates. Include the EIS with that. And that will afford 
the opportunity for public hearings?
    Mr. Millenbach. Yes, sir.
    Mr. Yates. Okay. Well, opponents of the monument say that 
this ecologically-sensitive area is being protected only to 
assist foreign coal interests. Have you heard that? That's the 
claim that some are making.
    Ms. Baca. I'm sorry. That it is--I didn't understand----
    Mr. Yates. To protect the coal interests of foreign 
countries, of foreign owners. Do you know anything about that?
    Ms. Baca. That's not true.
    Mr. Yates. That's not true. Okay.

                                  PILT

    Now, one of my last questions: I see you want to reduce the 
amount you're paying as PILT by $12 million. Why is that? You 
just don't have the money to pay them?
    Ms. Baca. Mr. Yates, our budget request for PILT is the 
same request that we had last year.
    Mr. Yates. Oh, I see.
    Ms. Baca. And it's $101 million. It's the same amount that 
we are anticipating for the next five years.
    Mr. Yates. I see. I expect that western Congressmen may not 
be willing to accept that. I expect that, Mr. Chairman. I don't 
know whether my expectation is correct. [Laughter.]
    Mr. Regula. ``Anticipate'' is probably a better word.
    Mr. Moran. Sounds like leverage. [Laughter.]
    Mr. Yates. I'll have other questions for the record. Thank 
you, Mr. Chairman.
    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman. Mr. Chairman, 
I want to discuss three of the liberal, irrational and 
counterproductive interpretations of three grossly antiquated 
Federal laws.
    Mr. Yates. Mr. Chairman, I demand that his use of the word 
``liberal'' be striken----[Laughter.]

                Federal Subsidies for Use of Public Land

    Mr. Moran. The first is the 1906 Federal grazing law. The 
second is the----
    Mr. Yates. Strike that from the record. [Laughter.]
    Mr. Moran. No, that's all right. No, put it in. It was used 
deliberately.
    The second is the 1872 mining law, and the third is that 
1866 law that guaranteed miners access across Federal lands to 
get to their mines. In terms of grazing fees, we are at an all-
time low in terms of the animal unit month that we charge--
$1.35. It had been up to $1.90. Why we can find it within our 
means to subsidize public land grazing at the tune of what--
it's got to be over $50 million, and I'd like to know how much 
it was last year and what you anticipate it to be this year--to 
attract grazing on lands that are being degraded by the 
grazing, in addition to the pollution of streams and the 
increase of costs in order to maintain the grazing lands.
    The second is the cost of the growing subsidy primarily to 
foreign mining firms to acquire and use land. I know that there 
has been a suspension of that, but I'd like to get an update on 
that, I think, irrational use of public resources using costs 
that date back to 1872. This is not a new issue, I know. 
[Laughter.]
    Mr. Yates. He's heard of it.
    Mr. Moran. Yes.
    Mr. Yates. I'm sure the gentleman knows that Mr. Regula has 
led the fight that you're now making, over the years.
    Mr. Moran. I'm just indicating that, Mr. Regula, I plan to 
fall into line. [Laughter.]
    And I know that you've been helpful, too.
    Mr. Yates. I have been. I'm not sure whether Mr. Regula 
will do it this year, but we welcome you to the ranks----
[Laughter.]
    Mr. Regula. I'm more than happy to do it.

                            wilderness areas

    Mr. Moran. Well, let me mention a third thing. And that is 
the fact that we are letting so many people in that live near 
areas that we are anticipating designating as wilderness areas, 
find old trails, turn them into roads and thus subvert the 
intention of being able to designate wilderness areas because, 
as we know, we can't designate as a wilderness area if it has a 
road in it.
    Those are three areas that, I think, based upon Federal law 
and, I think, an intimidated administrative structure that it 
has let these things go on that I suspect the vast majority of 
the American public would oppose if they were fully aware of 
the way in which their public resources, as well as their 
financial subsidies are being used. So let me let you respond 
to those three issues, Ms. Baca. First, grazing lands. How do 
we justify $1.35? You're going to tell me that the cost of beef 
has dropped----

                              grazing fees

    Mr. Regula. It really has.
    Mr. Moran. And you want to make sure that more people are 
eating beef because we know how healthy fatty meats are in our 
diet. But tell me how you can justify--well, first of all, tell 
me, what is the subsidy for grazing that is in this budget and 
what did it cost us last year?
    Ms. Baca. Mr. Chairman, Mr. Moran, the grazing fee is 
currently $1.35 per AUM, Animal Unit Month. That is--you are 
correct--that is at an all-time low. There is a very 
complicated formula that goes into establishing the grazing 
fee. If you'd like an explanation of that----
    Mr. Moran. I don't want the complicated formula, but I want 
a justification for why we don't attempt to change a formula 
that we know is enabling ranchers to use public lands at much 
lower cost than the cost of grazing on private lands, but also 
is creating not only costs to us of maintaining the ranch 
lands, but we know is degrading many of those lands.
    Ms. Baca. Mr. Moran----
    Mr. Moran. What is the subsidy?
    Ms. Baca. I'm not sure what the subsidy is, but we can 
provide that for the record.
    [The information follows:]

                                Grazing

    The BLM collected over $15 million in grazing fees during 
Fiscal Year 1996 while allocating nearly $50 million for the 
Rangeland Management Program and approximately $9 million for 
the Range Improvement Program during FY 1996. The actual amount 
of funds within these programs used to facilitate livestock 
grazing has been determined to be 70.5 percent of the Rangeland 
Management Program and 63.3 percent of the Range Improvement 
Program.
    Therefore the difference between the amount the BLM spends 
to facilitate livestock grazing and the amount that it collects 
in grazing fees is just over $25 million.

    Ms. Baca. But I think you know that the Secretary has been 
up here on this particular issue many times in the last four 
years. The Secretary currently does not have grazing on his 
legislative agenda for this year.
    Mr. Moran. What does that mean? That means he's not going 
to put up a fight? He's been cowered by the ranchers, is that--
what does that mean?

                       resource advisory councils

    Ms. Baca. No, Mr. Moran. What it means is that a couple of 
years ago when the grazing controversy was put forth, the 
Department moved in a direction to improve the range land 
through the Range Land Reform, and what the Secretary asked was 
that we would go out to the field and we would figure out a way 
through the Resource Advisory Councils on how we would protect 
the public lands by bringing everybody who has a stake in the 
public lands to the table to come up with standards and 
guidelines on how we protect the resource itself. At that time 
it was decided that we weren't going to move forward on the 
grazing fees. We would just concentrate on looking at 
protecting the resource itself.
    Mr. Moran. Well, I think it's a subsidy whose time has come 
to be reduced, when we compare it to the cost of other programs 
that we're having to eliminate. So, Mr. Chairman, I want to go 
after that and any help----
    Mr. Regula. Don Young will be waiting for your bill. 
[Laughter.]
    Mr. Moran. I know Mr. Young's attitude on that. How about, 
could I ask----
    Mr. Regula. Can I ask, will you yield?
    Mr. Moran. Yes. I'd love to.

                            grazing permits

    Mr. Regula. Have you retired any permits this year where 
people have gone out of business?
    Ms. Baca. Mr. Sharpe, do you know the answer to that?
    Mr. Sharpe. I do not know the answer to that, but we'd be 
happy to----
    Mr. Regula. You can do that, am I correct? If a 
longstanding grazing permit is not being used, could you retire 
the permit?
    Mr. Sharpe. The permits are ordinarily available to a new 
applicant.
    Mr. Regula. Okay.
    Mr. Sharpe. And in our case, there are a good many Forest 
Service permits, particularly in the higher country in 
Colorado, for example, on Forest Service lands that have been 
retired over the past ten or fifteen years. But I don't know of 
equivalent situations on BLM lands. The permit is almost always 
picked up by a new applicant.
    Mr. Moran. So we're not making any progress. I'm glad you 
got at that, Mr. Chairman.
    Mr. Regula. Yes, the price of cattle in the auctions, and 
so on, is terrible. That's why the fees have really come down.
    Mr. Moran. Well, I understand, but we also have private 
land and, of course, we all believe in the free enterprise 
system, and I'm not sure this is a public subsidy that we ought 
to continue to support in increasingly strained fiscal times. 
But I understand the Secretary's approach, you tell us, for 
this year is simply to try to make everybody happy, to bring 
them in and have them all talk with each other.

                            mining revenues

    Do we have an estimate--do we have an update on the mining, 
the current revenue that has been gained in the last, let's 
say, two Fiscal Years from the use of public mining lands?
    Ms. Baca. Mr. Moran, we don't have that available right at 
our fingertips. We could provide that information to you.
    Mr. Moran. That would be helpful, because we read about it 
in Newsweek and U.S. News & World Report, and so on, but I 
haven't found it in much of the information coming from BLM.
    [The information follows:]

                                 Mining

    The BLM does not receive any revenue from hardrock mining 
on public lands in the form of royalties or bonuses. Over the 
past two years, Federal revenue associated with hardrock mining 
activity on public lands has been more than $65 million. The 
source of this revenue is holding fees for mining claims and 
other filing fees.
    We are committed to assuring a fair return to the American 
taxpayer for use of publicly-owned natural resources. The 
Administration's mining law reform proposals include a 
reclamation payment equal to five percent of the ``net return'' 
on the first commercially marketable product for locatable 
minerals produced on Federal lands. These payments will be 
dedicated to cleanup of abandoned hardrock mine sites, and 
would add approximately $35 million annually to the budget for 
that purpose, beginning in FY 1999.

                          roads in wilderness

    Mr. Moran. And the third thing is what are we doing about 
the subvention of the Federal intent to be able to determine 
what wilderness areas are to be designated? You and your 
colleagues know that a lot of people are doing their utmost to 
prevent the Federal Government from having those options by 
turning walking trails into roads, knowing that they can 
manipulate the law. What are we doing about that?
    Ms. Baca. Yes, Mr. Moran. We are currently seeking--we have 
lawsuits against the people who are going and blading the roads 
and the wilderness areas. We experienced a high degree of that 
last year and we are pursuing it through legal mechanisms.
    Mr. Moran. I understand that. But what I wanted to get at--
Mr. Chairman, I appreciate your indulgence--is don't they win, 
though, even if you bring suit against them? If the road is 
made then they've accomplished their objective, haven't they? 
By ensuring that the area won't become a wilderness? Or do you 
discount the fact that the road shouldn't have been made and so 
it's as though it never was made in terms of your decision?
    Ms. Baca. I'm going to ask Mr. Millenbach to answer that 
question.
    Mr. Millenbach. This is a very vexing problem for us, as 
well. We've tried to really keep a tight hold on these 
sensitive areas that you referred to in Utah and other places. 
One of the things that we would look for in the suits is a 
rehabilitation requirement so that we can repair the damage----
    Mr. Moran. And they will not accomplish their objective, 
though, by preventing the area from being designated as 
wilderness, if they did it unlawfully?
    Mr. Millenbach. It depends on the--if it's a formal 
wilderness study area that's already been recommended for 
wilderness, we would probably be okay with that.
    Mr. Moran. What do you mean you would probably be okay with 
that?
    Mr. Millenbach. I don't think that--if we got the road 
rehabilitated and brought back to its former condition, that 
should not be a constraint on the Congress' ability to 
designate it a wilderness. The difficulty is----
    Mr. Moran. And you will charge them for the cost of 
rehabbing the road completely.
    Mr. Millenbach. Yes.
    Mr. Moran. And you're suing all of them that you are aware 
did that illegally.
    Mr. Millenbach. Yes. We're in court with some counties in 
southern Utah where this has happened. The difficulty gets to 
be in some of these areas where we have not designated them as 
wilderness study areas, but there are citizens' groups or other 
people who think they ought to become wilderness areas 
eventually. It's a little harder to say what the impact on 
those areas would be. That is a real problem.

                       unauthorized road building

    Mr. Moran. Okay. So the non-wilderness study areas, those 
are fair game for people who want to build roads?
    Mr. Millenbach. Well, I wouldn't call it fair game. We're 
very concerned about the unauthorized building of roads on any 
of our lands. The problem gets to be that there are tremendous 
differences of opinion over whether those ought to become 
wilderness areas or not. So we tried to keep a tight hold on 
what's going on out there to prevent that from happening in the 
first place. And take corrective action where it does.
    Mr. Moran. Mr. Chairman, thank you. I'm not suggesting that 
they necessarily should be--every area should be a wilderness 
area--but I'm just suggesting that we ought to be able to make 
that decision unencumbered by people who are trying to preclude 
that designation from being possible.
    Mr. Millenbach. We agree with you on that.

                                rs-2477

    Mr. Moran. If the debt--there was that RS2477, doesn't that 
need to be revised? Isn't that the problem? Have you 
suggested----
    Mr. Millenbach. RS2477 was repealed in 1976. The difficulty 
is that there are some people who are trying to assert claims 
under that law that would have preceded----
    Mr. Moran. Assume they were already grandfathered. I guess 
I shouldn't say ``revised.'' Shouldn't there be regulations 
making clear the intent?
    Mr. Millenbach. Yes. We proposed regulations several years 
ago. They were very controversial. We haven't gone to final 
regulations, but Secretary Babbitt just issued a new set of 
guidelines on the interpretation of RS2477 and we can send you 
a copy of those.
    Mr. Moran. Okay, thank you. And thank you very much, Mr. 
Chairman.

                        hardrock mining royalty

    Mr. Regula. Mr. Moran, you might have interest in this: if 
I'm not mistaken, Secretary Babbitt on the mining lands has 
moved, by Executive Order, to deal with environmental problems 
and also seek a royalty, am I correct?
    Ms. Baca. Yes. In our Fiscal Year 1998 budget request we're 
asking for a 5 percent royalty off of mining.

                         mining law regulations

    Mr. Regula. And also, has he administratively strengthened 
the environmental requirements that the mining companies have 
to meet?
    Ms. Baca. Through administrative action, the Secretary has 
asked the BLM to go back and look at what they are doing in 
terms of what we perceive in some areas to be undue degradation 
of the public lands.
    Mr. Regula. So you're presently just studying that?
    Ms. Baca. We've put together a task force who are going to 
come up with recommendations on how, through administrative 
procedures, we can tighten-up the mining.
    Mr. Regula. So at this point, there has not been a 
challenge to the Secretary's authority to do this because I 
assume he hasn't made it a specific requirement.
    Ms. Baca. We have not received any challenges as of yet. 
We've notified the public that we are working on these, and we 
don't know what sort of response we'll get to them.

                         hardrock bonding rule

    One other thing that we did do was we went final with our 
hard-rock bonding rule in February.
    Mr. Regula. Yes.
    Ms. Baca. And that was a rule that had been out there for a 
number of years. It went final, and, you know, the reaction to 
it has been mixed, but that particular rule also looks forward 
to making sure that the environment isn't degraded.
    Mr. Regula. Are you requiring any company mining hard rock 
to post a bond per acre? Is that it?
    Ms. Baca. Yes. Mr. Regula, I want to defer this to Mr. 
Millenbach, who knows the specifics of the new rule.
    Mr. Millenbach. Yes; the minimum bond is $1,000 an acre for 
notices of mining, and $2,000 an acre for the more detailed 
plans.
    Mr. Regula. And that would then be available for 
reclamation in the event that a company went bankrupt, or for 
whatever reason?
    Mr. Benna. Yes, sir.
    Mr. Regula. Do you feel you have statutory authority to do 
that?
    Mr. Benna. Yes, sir; those are final rules.
    Mr. Regula. And they've been adopted; so they are adopted.
    Mr. Moran. Mr. Chairman, could I inquire?
    Mr. Regula. Yes, I yield.
    Mr. Moran. Could I inquire if that is comparable to what 
the private sector would charge if it was private land? Is that 
comparable to what a mining company would have to charge?
    Mr. Tipton. Hord Tipton--the principle of the rule is for 
100 percent reclamation costs. This is now for a notice level 
of operation, which are operations of up to five acres and for 
larger operations up to five acres and above. That cost, 100 
percent cost, must be certified by a professional engineer, and 
it is based upon what the reclamation would cost if we had to 
get a third party contractor to come in and do the reclamation. 
It's based upon the point in operation of maximum disturbance, 
as if the operator chose to walk away.
    Mr. Regula. I'm familiar with coal, and in Ohio you 
establish a bond based on what they anticipate would be 
required if, in fact, the operator walked away, and I think 
they're saying you're doing essentially the same thing.
    Mr. Tipton. It's not quite as stringent as the SMAYCRA coal 
mining rights, but it's a step in that direction.
    Mr. Moran. It's an improvement. I was just trying to get at 
the amount of public subsidy that is still being offered, and 
it's still fairly substantial.
    Mr. Regula. Well, if there's a subsidy, it's probably in 
whether or not the royalty is adequate, and the conveyance of 
the land, the title to the land under the old 1872 act--that 
does have those elements.

                          Coal mining bonding

    Do you require a bond on coal mining? We talked here about 
hard-rock; how about coal?
    Mr. Tipton. We do have a bond on the leases. It's a 
different type of bond. The coal bond is administered through 
SMYCRA and is a 100 percent reclamation cost, as well.
    Mr. Regula. Okay--Headwaters; we submitted some questions. 
I don't think we got quite all of the answers, so we're going 
to submit more questions for the record on this.

                           Endangered species

    How is the endangered species program? Do you think you can 
adequately administer the program?
    Ms. Baca. Yes--on BLM lands or specific to headwaters?
    Mr. Regula. No, on BLM lands, generally.
    Ms. Baca. We're asking for about $17 million for this 
effort in Fiscal Year 1998, and we believe that's adequate to 
carry out the act.

              Grand Staircase Escalante national monument

    Mr. Regula. On the Grand-Staircase I notice you are asking 
for $5 million, and yet in the budget justifications you say 
``costs associated for Fiscal Year 1997--$5 million.'' You 
really don't have authority for that much, do you? Are you just 
taking this money out of some other area?
    Ms. Baca. Are you talking about in the current year?
    Mr. Regula. Yes, the current budget year.
    Ms. Baca. The current budget year----
    Mr. Regula. You show $5 million for Fiscal Year 1997, and 
then your budget request for 1998 is $6.4 million. Are you 
expending right now at the rate of $5 million for Fiscal Year 
1997?
    Ms. Baca. Mr. Regula, I would have Mr. Benna answer.
    Mr. Benna. Mr. Regula, we plan on spending $5 million in 
1997 for the monument, and that would be to begin the planning, 
for additional field operations, and some scientific studies. 
What we have done is basically to re-direct some funding from 
existing programs to the monument itself. The money would stay 
within the same programs. It would be used for----
    Mr. Regula. So you don't require any reprogramming?
    Mr. Benna. We don't believe we do. We did submit a report 
to Congress in February that detailed our actions in this 
regard, and I believe it was submitted to the committee.
    Mr. Regula. The staff advises me that you had unobligated 
balances that you could use for that purpose.
    Well, I think that will cover it for today. I know that I 
will have a number of questions for the record, and other 
members will, too, and we'll get those to you as soon as 
possible. And we'll also appreciate prompt responses so that we 
can have the information available as we go to mark-up.
    Thank you for coming.
    Ms. Baca. Thank you, Mr. Chairman.

[Pages 408-539 --The official Committee record contains additional material here.]


=======================================================================


                       Department of the Interior

                     U.S. Fish and Wildlife Service


======================================================================= 


                                         Wednesday, March 12, 1997.

                     U.S. FISH AND WILDLIFE SERVICE

                               WITNESSES

JOHN G. ROGERS, ACTING DIRECTOR
JAY L. GERST, ACTING DEPUTY DIRECTOR
GARY V. CECCUCCI, BUDGET OFFICER
JAMIE RAPPAPORT CLARK, ASSISTANT DIRECTOR, ECOLOGICAL SERVICES
GARY B. EDWARDS, ASSISTANT DIRECTOR, FISHERIES
ROBERT G. STREETER, ASSISTANT DIRECTOR, REFUGES AND WILDLIFE
MARSHALL P. JONES, ASSISTANT DIRECTOR, INTERNATIONAL AFFAIRS
DAN ASHE, ASSISTANT DIRECTOR, EXTERNAL AFFAIRS
PAUL W. HENNE, DEPUTY ASSISTANT DIRECTOR, POLICY, BUDGET AND 
    ADMINISTRATION
MARY ANN LAWLER, DIRECTOR OF BUDGET, U.S. DEPARTMENT OF THE INTERIOR

[Pages 544-552 --The official Committee record contains additional material here.]


    Mr. Regula [presiding]. Well, we'll get the committee 
started. We're happy to welcome members of the panel: the 
Director--I see you're all on the witness list, and we'll put 
your statement or statements in the record, if you summarize 
for us.

                           Director's Summary

    Mr. Rogers. Thank you very much, Mr. Chairman, and good 
morning. I'm pleased to be here this morning to present and 
discuss the Fish and Wildlife Service's budget proposal for FY 
1998. As you said, I have a formal statement, which I would 
like to go in the record. I would also like to talk briefly 
about a few high points before we get started.
    As you know, one of the qualities that makes America unique 
among the countries of this world is the close connection 
between our people and its wildlife. Americans have always had 
a love affair with the great outdoors, and wildlife in 
particular. Notably, we have 14 million hunters, 35 million 
anglers, and 65 million bird watchers in this country. Spending 
on wildlife-oriented recreation accounts for about 1 percent of 
the Gross Domestic Product and supports hundreds of thousands 
of jobs.
    Likewise, the American people have always participated as 
partners with their government in the conservation of wildlife. 
Over the past----
    Mr. Regula. Just to set the stage, you mentioned all these 
people. Do a lot of them participate in using your facilities 
directly?

                       National Wildlife Refuges

    Mr. Rogers. Most certainly. For refuges, we have about 29 
million visiors. Visiting refuges is a very principally 
wildlife-dependent recreation.
    Mr. Regula. So, you have a great deal of public 
participation. I think this is something most people don't 
realize. They think that you take care of the birds that are 
flying back and forth.
    Mr. Rogers. You're entirely correct, most people think of 
refuges by the dictionary definition of the word, that is, a 
sanctuary. But there is considerable wildlife-dependent 
recreation and usage by the American people of our 90 million 
acres.
    Mr. Regula. Do you get involved with education-type 
programs where maybe a class of students from a local high 
school or grade school would come to visit your facility?
    Mr. Rogers. Most certainly. Of the 509 refuges, 172 of them 
are located in urban areas, and it's on those refuges where we 
have concentrated, and will continue to concentrate, our 
educational efforts. We had about 250,000 students in the local 
urban refuges there for educational programs.

                            Public Outreach

    Mr. Regula. Do you do any outreach? What I mean is, do any 
of your staff people go to a school by invitation to talk about 
wildlife and our natural resource heritage?
    Mr. Rogers. Most certainly. The Adopt-A-School Program, 
which is several years old, is something the Fish and Wildlife 
Service takes very seriously. Both here in Washington and in 
the field staff have been out to local, elementary, and high 
schools. Our 700-plus field stations gives us a lot of 
opportunity to contact with people at the local levels.
    Mr. Regula. Do you have a Web page?
    Mr. Rogers. Yes, we do.
    Mr. Regula. And is there information on there that would be 
useful to a school or anyone that's interested?
    Mr. Rogers. Most certainly, yes. The Fish and Wildlife 
Service has a Web page; as do each of the regions and many of 
the individual facilities.
    Mr. Regula. Do you find you get a lot of what they call 
``hits?''
    Mr. Gerst. Very extensive statistics.
    Mr. Regula. Yes, very interesting.
    Mr. Gerst. We welcome anybody looking at the Service Web 
page. It's one of the better Web pages in the Federal 
Government. In fact, it has been recognized by the 
Congressional Research Service as one of the best sites.
    Mr. Regula. Is that right? Well, that's good to hear that. 
I'm sorry to keep interrupting you here, but these are things 
that I'm interested in. I like to see the public involved in 
these agencies. We're spending their money, and I think 
historically there has not been enough interface between the 
public and the agencies. I gather from your responses that 
you're really expanding that constantly, and there's a high 
degree of interest.
    Mr. Rogers. That's right.

                  Fish and Wildlife service Volunteers

    Mr. Regula. Do you use many volunteers?
    Mr. Rogers. We use 29,000 individual volunteers, and we 
estimate that the contribution presented by those 29,000 
volunteers is worth about $10.8 million to the Fish and 
Wildlife Service.
    Mr. Ceccucci. One point one million volunteer hours were 
contributed last year.
    Mr. Regula. Well, that's good. I think there's a growing 
level of interest on the part of the public in our natural 
resources, for which you have a very important responsibility. 
So I'm happy to hear that you're getting them involved in a lot 
of diverse ways.
    Okay, I'm sorry.

                           Endangered Species

    Mr. Rogers. No, they're good questions on a subject that we 
wanted to touch on later, anyway.
    I'd like to highlight four areas in which we're requesting 
increases. The first is endangered species conservation. In the 
past four years, the Fish and Wildlife Service has focused on 
using the flexibility of the Endangered Species Act to work 
with companies and private landowners to balance economic 
development and the conservation of species over the long term. 
This effort has been an outstanding success.
    As an example, we have negotiated 197 habitat conservation 
plans and are in the process of working on more than 200 others 
with private entities. These voluntary agreements allow 
landowners to continue to develop their property while ensuring 
the health of protected populations on their land. The 
President's budget would bolster these efforts. It includes an 
additional $10 million to reduce the backlog of pending habitat 
conservation plans, and also to expedite consultations with 
other Federal agencies, as well as to strengthen our commitment 
to the President's Northwest Forest Plan.

                       National Wildlife Refuges

    The second area, which you began questioning us about a 
minute or two ago, is the National Wildlife Refuge System. We 
currently have 509 refuges located in all 50 States. They 
provide invaluable habitat for migratory birds, endangered 
species, and other wildlife. But, just as important, they 
provide places where people can go to enjoy and learn about 
wildlife.
    The number of hunters, anglers, bird watchers, and other 
visitors to refuges has increased over 16 percent over the last 
several years--to, as I said, 29 million people. Unfortunately, 
however, the refuge system budget has not kept pace over the 
years, and refuge managers are often hindered in their efforts 
to manage the system. The President's budget request includes 
an additional $9.8 million in program funding to cover 
essential needs, such as critical visitor services, facility 
maintenance, control of introduced species, and restoration of 
native habitat.
    Mr. Regula. Will you be addressing the fee issue that we 
passed?
    Mr. Rogers. We're prepared to respond to questions about 
it. I wasn't going to respond in the testimony.
    Mr. Regula. Okay.

                               fisheries

    Mr. Rogers. The third area is fisheries management. Growing 
numbers of nonindigenous invaders, such as the zebra mussel, 
are among the many threats to our Nation's fisheries. The 
President's budget includes an additional one million dollars 
to address non-indigenous impacts on our Nation's fishery 
resources, as well as $578,000 to restore the magnificent 
fisheries of the Great Lakes.

               north american wetlands conservation fund

    The last area I'd like to touch on is the North American 
Wetlands Conservation Fund, for which the President's budget 
includes an additional $5.3 million. The fund has been critical 
to stemming the loss of wetland habitat throughout North 
America. Working with State and local governments, 
corporations, conservation organizations, and private citizens, 
we have conserved, enhanced, maintained, and restored 1.0 
million acres of wetlands in the United States, 2.3 million 
acres in Canada, and 20.1 million acres in Mexico (in Mexico, 
acreage includes large biosphere reserves affected by our 
projects).
    The recovery of duck populations from the drought years of 
the mid-1980s is a clear example--and only one clear example--
of the benefits of this fund to wildlife. The Service estimated 
last year's fall flight of ducks at 90 million, up from 57 
million in 1989. As you know, plentiful snow and rain 
contributed to this, but without wetlands and wetland basins to 
contain the water that was sent to us, it would have been for 
naught. Thanks to the North American Wetlands Conservation 
Fund, the habitat was there. But if we're going to have healthy 
duck populations in the future, as well as to provide habitat 
for the myriad of other wetland species, we need to maintain 
our efforts to conserve and restore wetlands.
    Mr. Chairman, those are the areas I'd like to highlight. We 
would be happy to respond to any questions you might have at 
this point.
    [The information follows:]

[Pages 557-561 --The official Committee record contains additional material here.]


                              canada geese

    Mr. Regula. Speaking of migrating, on behalf of all the 
developments and golf courses, and so on, tell me how you keep 
those Canada geese moving. [Laughter.]
    Mr. Rogers. Mr. Chairman, this is a growing problem and it 
is a difficult one. We are doing two things in this regard. 
First, we're trying to expand the opportunities for hunting of 
local resident Canada geese. This is having some effect. 
Second, we are streamlining the process of working with animal 
damage control in the Animal Plant Health Inspection Service, 
which has the control responsibilities. We are streamlining the 
process to allow them to do what's necessary.
    Mr. Regula. As I understand it, there are two varieties of 
Canada geese, those that migrate and those that come and stay. 
Is that accurate?
    Mr. Rogers. That's correct. Our zeal in suburban America to 
bring some wildlife closer to us has led many communities and 
corporations to introduce Canada geese into the appropriate 
waters. Fortunately, in most aspects that worked, but now we're 
also getting to see the other side of living close to nature.
    Mr. Regula. It's a real problem at least in our area, but I 
suspect it's universal. I was at Hershey this week where we 
went to learn to love each other more----[Laughter.]
    And I looked out and here's a bunch of Canada geese on the 
water. I have a five-acre lake on my farm, and if you need any 
extras, I've got lots of them. [Laughter.]
    Mr. Rogers. They go very well at Christmas. [Laughter.]
    Mr. Regula. I normally don't let anyone hunt on my couple 
hundred acres, but that's one I break the rules on. However, I 
don't hunt myself.
    We did have a lot of ducks this weekend, but I think they 
were just moving through.

                  recreation fee demonstration program

    Let's go to the fee question. As you know, we provided new 
and enhanced fee collection authority. What are you doing with 
that? Is it working out well?
    Mr. Rogers. So far we have about 10 sites operational under 
the Recreational Fee Demonstration Program. We anticipate that 
we'll have 42 by the end of this year. We have made some rough 
calculations and believe that it will amount to between $1.6 
and $1.8 million increase in revenues that, as you know, will 
go right to the refuges where they are collected. The revenues 
will be used to cover such things as enhancing and providing 
better visitor services. In the few refuges that have heavy 
enough visitation, the funds may be applied to some of the 
maintenance backlog. We're looking forward to full operation of 
the program.
    Mr. Regula. Have you experienced much in the way of public 
resistance?
    Mr. Rogers. None, to my knowledge.
    Mr. Regula. It would appear from agencies that have been 
here previously that the public, as long as they know it's 
staying there, support the concept.

                          maintenance backlog

    Do you have a maintenance backlog? I'm sure you do, but is 
it severe?
    Mr. Rogers. Yes, we have a maintenance backlog in refuges 
of about $505 million and in fisheries of about $117 million.

                         conservation easements

    Mr. Regula. It's a tough problem and we need to address it 
as much as possible.
    You mentioned about corporations cooperating and others. Do 
you have any programs where you get air rights or you just 
don't own the land but lease the land or have some agreement 
with the landowner to provide refuges?
    Mr. Rogers. We have extensive activities, mostly in the 
easement arena. In the Partners for Wildlife program, with 
which you may be familiar, we restore habitats on private lands 
in exchange for some cost-sharing. We also engage in 
conservation easements and try to extend them for 30 years.
    Under the Migratory Bird Conservation Fund, which are 
monies that we receive from duck stamps and other revenues, we 
purchase easements, waterfowl production areas, principally in 
the Prairie Pothole for waterfowl production. We have areas and 
sundry easement programs for various purposes across the 
country. It's very popular.
    Mr. Regula. In terms of wetlands, do you or does the Corps 
of Engineers work out arrangements where a landowner can offset 
with the purchase of another piece of land to provide an offset 
to using their own?
    Mr. Rogers. Our relationship is in the Clean Water Act 
Section 404 program with the Corps. As you probably know, it's 
a Corps program over which the Environmental Protection Agency 
(EPA) exercises oversight. We provide advice to the Corps and 
to EPA on what we believe to be mitigating measures needed to 
compensate for lost revenues.

                        south florida everglades

    Mr. Regula. How are you using the $6.7 million that we put 
in 1997 for the South Florida Everglades Ecosystem Project?
    Mr. Rogers. The funds are being used for a multi-species 
habitat conservation plan, which is the principal activity. 
There is also refuge habitat modification going on in that 
program at four major refuges: J.N. Ding Darling, A.R.M. 
Loxahatchee, Florida Panther, and National Key Deer. Funding 
goes to those refuges for habitat enhancement as well as 
education services.

               natural communities conservation planning

    Mr. Regula. Are the NCCP programs working pretty well?
    Mr. Rogers. In our estimate, they are. As you know, the 
environment of southern California is large; it's highly 
complex biologically, and it's highly complex because of the 
the high human populations and high human water use. So, yes, 
it's been effective. We estimate that we would probably need 
three to five more years of funding at the current level to 
continue and finish up the highest priority planning efforts in 
NCCP.
    Mr. Regula. There's one of those in California.
    Mr. Rogers. It's all in California.
    Mr. Regula. Are they working out well?
    Mr. Rogers. Yes. However, in terms of long-term monitoring 
of their impacts and success for the reasons that the preserve 
systems were set up, the NCCP has not been in place long enough 
for long-term monitoring. Part of the increase that we've asked 
for on endangered species for consultation would be used to 
carry out monitoring programs on all habitat conservation 
programs and NCCP programs.

                         rocky mountain arsenal

    Mr. Regula. I met with the mayor of the community in 
Colorado where they're converting the Rocky Mountain Arsenal 
for a wildlife refuge. What have you done so far and what 
remains to be done?
    Mr. Rogers. Well, the Fish and Wildlife Service for several 
years has been managing the relatively safe areas of the 
arsenal.
    Mr. Regula. So you've already been involved even though the 
Army had the area?
    Mr. Rogers. We have been involved using funding from the 
Army.
    Mr. Regula. Okay.
    Mr. Rogers. And the anticipation is that we will ultimately 
take over ownership, operation, and management. That's 
considerably down the line because of the extensive cleanup 
that needs to be done there.
    Mr. Regula. But the Army's paying for the cleanup; is that 
correct?
    Mr. Rogers. The Army's paying for the bulk of the cleanup. 
The local community, as part of the Base Review Plan, has 
identified about 815 acres which they'd sell. The proceeds of 
the sale would be used to, in partnership, construct and 
operate a visitors' center. We're looking forward very 
positively to that.
    Mr. Regula. I understand that there's a problem of 
disturbing the bald eagles in this refuge from planes leaving 
the new Denver airport.
    Mr. Rogers. Yes, one of the departures passed over the 
traditional eagle roost. We have been engaged with the Federal 
Aviation Administration since the problem was first identified 
and believe that by next winter, when the birds return, we will 
have an acceptable solution to the plane flight problem.
    Mr. Regula. So you think you can get that solved?
    Mr. Rogers. Yes.
    Mr. Regula. Do you think that your budget will provide 
enough money for your role in the arsenal?
    Mr. Rogers. Well, Mr. Chairman, we don't have enough money 
to operate appropriately any of the refuges in the system. So a 
bland yes from me would be misleading; the falsehood of that 
would be seen. We believe that within the budget we can do the 
highest priority things that need to be done at the arsenal.

                       mason neck wildlife refuge

    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    In my district we have Mason Neck Wildlife Refuge, and the 
majority of the people that I speak to, who actually live 
within the district, have the sense that the highest priority 
of your refuge manager is to operate the deer hunting program; 
that there seems to be a much lower priority to providing 
opportunities for the public to come and just fully enjoy Mason 
Neck. Now it may be that the only thing that gets visibility 
and publicity is the open deer hunting, but there's clearly an 
advocacy attitude on the part of the refuge manager toward the 
deer hunting, which in my perception is not there in terms of 
providing family-oriented viewing, appreciation, tours, 
whatever.
    Now, granted, this is a heavily urban area within the 
Washington metropolitan area, and I think it may be an example 
where there needs to be some flexibility on the part of the 
refuge managers, even the culture within the Fish and Wildlife 
Service, which obviously makes hunting and the controlling of 
populations, particularly the deer population, for example, 
duck population as well, an integral and high priority. But 
when you're in an urban area, it seems that at least an equally 
high priority, if even a high priority, ought to be activities 
that are not so much restricted to men proving their manhood, 
or whatever, as to the entire family having an opportunity to 
fully appreciate all of the activities and flora and fauna, and 
of course the animals that find this is the only refuge really 
within the area. So I wanted to address that.
    I'd also be interested in knowing how much we spend and how 
many programs we have to teach youth how to kill animals. Do 
you know that?
    Mr. Rogers. We don't have any programs that teach youth how 
to kill animals.
    Mr. Moran. You don't?
    Mr. Rogers. We have--This past year we have authorized a 
youth waterfowl hunt, through our waterfowl regulations, which 
provides opportunities for the State to have a day set aside 
for young people to learn the sport of waterfowl hunting, but 
it's really a State program.
    Mr. Moran. It's only one day set aside for waterfowl?
    Mr. Rogers. It is a day on which adult hunters cannot hunt, 
outside of the regular duck season, and it's set up that the 
State chooses to exercise that option for youth hunters under 
16 years of age only.
    Mr. Moran. Well, there's certainly nothing wrong about 
that. I can't imagine anyone having a problem with that. But on 
the refuge within my district, you have a program where the 
youth are taught how to shoot and they can bring adults with 
them.
    Mr. Rogers. We have----
    Mr. Moran. That's clearly refuge resources at a wildlife 
refuge, resources that are being used, taxpayers' dollars----

                              federal aid

    Mr. Rogers. We have extensive involvement through the 
Federal Aid program in hunter education.
    Mr. Moran. Through the Federal what?
    Mr. Rogers. Through our Federal Aid program, receipts are 
collected from excise taxes on hunting, sporting arms and 
ammunition principally. The receipts mostly go to the States to 
teach hunter education to children or adults who are intending 
to hunt, but don't have the appropriate certification from the 
States or the other appropriate skills.
    Mr. Moran. Well, I just had a conversation last week with 
our Federal refuge manager, and he was obviously very 
interested and excited and supportive of the program that he 
has to teach kids how to hunt because he's afraid that this 
tradition is getting lost, and there's a generation of kids 
that aren't as excited or involved in hunting. And so he sees 
this as a mission, clearly, that he's excited about. And I'm 
just wondering how many of such missions we have. Some kind of 
public money is paying for it.
    [The information follows:]

                            Hunter Education

    The Service's involvement with hunter education, for all 
age groups, is designed to satisfy state requirements for 
hunter safety training and to educate the public about the role 
of hunting as a wildlife population management tool. Techniques 
to increase a hunter's take, such as stalking, are not taught. 
From a safety aspect it is important that hunters know when to 
shoot, when not to shoot, be able to shoot what they are aiming 
at, and be able to make a clean kill instead of wounding an 
animal.
    Hunter education and safety programs, and youth hunts are 
held on 13 refuges in the Northeast Region. More than 200 
youths attend the hunter education and safety programs, 
performed on eight refuges. States and other associations 
contribute staff, expertise and supplies to these training 
events. These programs involve classroom instruction, and may 
involve other elements such as courses on waterfowl 
identification. Designated youth hunts are held on eight of the 
13 refuges. Approximately 220 youths participated in these 
hunts in 1996. A total of $6,160 was spent on hunter education 
and safety, and youth hunt programs in the Northeast Region in 
FY 1996.

                                hunting

    Mr. Rogers. We can get back to you with the answer to that 
question, but it is true that many people in the conservation 
world in this country, including the Fish and Wildlife Service, 
are concerned about the loss of the hunting tradition. The 
reason is not because they want to see that activity 
necessarily passed along, but that the hunters in this country 
are the single population that has paid for most of the 
wildlife habitat improvement in this country. Most of the early 
conservationists started out as hunters. Most hunters in the 
broadest sense of the word are conservationists.
    So while we have a responsibility, as we were discussing 
with the Chairman earlier, to teach and otherwise provide the 
broad range of people experience or appreciation for the 
natural world, one of the ways in which we do it, and one of 
the ways which has paid off most of the resource, has been in 
hunting.
    Mr. Moran. And you make grants to the National--what?--
Shooting Foundation, is it? To what? To teach--train kids how 
to hunt?
    Mr. Rogers. Hunting safety.
    Mr. Moran. Well, Mr. Chairman, I think this is an issue 
we're going to be getting into more because I think there needs 
to be a fair amount of flexibility and at least a proportionate 
influence on full family activities on these refuges. I know 
the impression of most of the people that I represent, that the 
Fish and Wildlife Service is more identified with hunting 
animals than it is necessarily offering opportunities for the 
whole family to just take walks and guided tours and that kind 
of thing. And maybe that's an unfair impression.
    Mr. Rogers. The Fish and Wildlife Service, in our operation 
of the refuge program, recognizes wildlife-dependent public use 
as the first priority among all potential uses of the refuge 
system. Deer hunting or properly-managed hunts, recreational 
hunts, are appropriate types of wildlife-dependent recreation, 
and, in the case of Mason Neck, a required management need. It 
may be--and we will have to check into it--that we aren't doing 
everything we can and should in terms of the non-hunting issues 
at Mason Neck.
    [The information follows:]

                  Mason Neck National Wildlife Refuge

    The Fish and Wildlife Service provides many opportunities 
for wildlife-dependent public use for non-hunters. Nine 
different non-hunting educational and recreational activities 
are ongoing at Mason Neck National Wildlife Refuge. 
Approximately 30,000 visits or public contacts take place 
through these activities. The costs directly attributable to 
these activities exceed $50,000 annually. The programs, listed 
in order by visitation level, with the highest level of public 
use first, are: hiking and wildlife observation on Woodmarsh 
and Great Marsh Trails, press releases on special wildlife 
observation opportunities, displays and exhibits on and off 
refuge grounds, environmental study areas, brochures on public 
use opportunities available at the refuge and other locations, 
information on school-sponsored home page and voice mail, 
cooperation with the State, County and private entities in the 
Mason Neck Management Area, teacher workshops, and special 
tours for birding groups.

    We would be glad to look into that and work with you as we 
do so. But it's my belief, at least at Mason Neck, hunting has 
been highlighted because it has been controversial, not because 
it is an activity that might normally be conducted on a 
wildlife refuge.
    Mr. Moran. Well, I understand that. I also have some 
questions about the number of incidental-take permits that are 
issued, and also how well we are integrating the National 
Biological Service through the Geological Survey, whether 
that's working out. I assume that it is working out, but the 
chairman may have questions about that, so that I don't need to 
ask that. I think he wants to call on Mr. Nethercutt at this 
point, but I would like to get back and ask about the 
incidental-take permits.

                    mason neck environmental center

    Mr. Regula. To follow up on that, as I understand, you're 
doing an environmental center in the planning stage. I think we 
put $100,000 in last year to start the planning for the 
environmental center at Mason Neck, and then I assume this 
would be for education, for family type of activity; is that 
correct?
    Mr. Rogers. Right.

                       overpopulation of wildlife

    Mr. Regula. Isn't overpopulation also a problem on refuges? 
At least I know I'm overpopulated with Canada geese, but isn't 
this something that's growing across the country?
    Mr. Rogers. It is. We talked about geese a little earlier. 
People like white tail deer. White tail deer do very well in 
suburban situations. Unfortunately, they do too well and damage 
the habitat by preventing regeneration of habitat, and 
producing browse lines. Equally unfortunate, there is no 
economical, logistically-reasonable solution to control the 
population of white tail deer anywhere that we have found other 
than a properly-managed hunt.
    Mr. Moran. And some of this is a culture clash between 
urban and rural attitudes, obviously, but I just want to make 
sure that there's balance, and I suspect we're going to get 
into this issue more, but I also suspect you want to call on 
Mr. Nethercutt at this point.
    Mr. Regula. Well, I'd just say that you highlight something 
that's growing, and that's a conflict between the people, the 
preservationists of every dimension of nature versus those who 
use facilities. We have a local paper; it has a hotline where 
you can call in, and about two-thirds of the calls are about 
Canada geese on the walking or running track, and it's about 
50/50.
    Mr. Moran. Oh, they're complaining about their pooping on 
the running track?
    Mr. Regula. Exactly. [Laughter.]
    Mr. Moran. Well, the golfers complain about that, too, but 
I'm not sure that that needs to be the driving force behind 
population control, either.
    Mr. Regula. Especially if you're not a runner or a walker. 
[Laughter.]
    Mr. Nethercutt.

                   turnbull national wildlife refuge

    Mr. Nethercutt. Thank you, Mr. Chairman.
    I want to follow up on Jim's comments about wildlife 
refuges to have the strollers and the families be there. I can 
give you a good example of that out in my district: The 
Turnbull Wildlife Refuge. I don't know if you've been there, 
Mr. Rogers, but it is really a wonderful place to go and visit. 
In fact, it gets to my first question of you.
    We've had an increase in visitors at that wildlife refuge. 
I've been there myself in the last two years and had a 
wonderful tour of it. Yet, in 1995 we had 10,000 visitors, 
14,000 visitors in 1996. You all reduced the budget by $37,000 
last year, and you're proposing another reduction of $22,000 
for the next fiscal year. Can you explain the continuing 
reduction in that treasure in my district that is so suitable 
for families and such a good resource, and it's paying its way 
in some respects because they have a fee that they charge.
    Mr. Rogers. The details of that are something we'll 
probably have to get back with you for the record. As there has 
been continual erosion of our funding, the regions have been 
placed in the position of having to set priorities and reduce 
funding. Whether they were correct in setting the priorities or 
not, I suspect that it's a result of that. But we'll get back 
with you for the record.
    [The information follows:]

[Page 570 --The official Committee record contains additional material here.]


    Mr. Nethercutt. Well, I appreciate it. And I want to 
balance the budget and reduce unnecessary expenditures as well, 
but I also think that in your analysis of Turnbull you may 
think about the potential for fire there. I know when I went 
through last year there was great concern about the weather 
patterns of Spokane, Washington, and the hot summers we get, 
and the people on the ground having concern about a fire 
somehow spreading and really causing tremendous damage to the 
habitat and the species that are protected.

                         caribou reintroduction

    Last year, you may recall, we talked about the woodland 
caribou program in the Selkirk Mountains. Do you know if the 20 
caribou that were released last year are still alive?
    Mr. Rogers. I don't know specifically. We ought to be 
getting smart before too long and be able to anticipate the 
question, but we'll get back with you.
    Mr. Nethercutt. That's all right. I would appreciate that. 
I know the program is ongoing, but I assume that you also want 
to keep track of the effectiveness of the program.
    [The information follows:]

[Page 572 --The official Committee record contains additional material here.]


    Mr. Rogers. Yes, and please don't let my ignorance imply 
the general ignorance on the part of the Service.
    Mr. Nethercutt. Somebody knows somewhere----
    Mr. Rogers. Somebody knows somewhere.

                  columbia basin ecosystem management

    Mr. Nethercutt. If you could provide that, I would 
appreciate it.
    You may remember that I've been involved in the issue of 
the Interior Columbia Basin Ecosystem Management Project. You 
may also be aware that the management agencies were ready to go 
to print on the Environmental Impact Statements last winter--
actually, last fall, just prior to the November elections. I 
understand that your agency, along with the EPA and the 
National Marine Fisheries Service, requested a delay in the 
printing of that draft EIS, which we still don't have in print. 
I think it's going to be out in May, from what I understand 
now.
    Can you confirm, Mr. Rogers, that your agency had 
objections to the draft EIS? And if you can confirm that, what 
were your objections?
    Mr. Rogers. I can't confirm that we had specific objections 
to it. I do know that we wanted to make sure that we had enough 
certainty and understanding of the alternatives and impacts, so 
that the EIS didn't give an erroneous impression that certain 
activities would not be a problem, when in fact they might be. 
In my understanding, it's a matter of making sure that we can 
provide certainty, that we do in fact provide that certainty 
and not give an erroneous impression.
    Mr. Nethercutt. Certainty as to what?
    Mr. Rogers. Certainty as to impacts on principally 
endangered species or anadromous fish.
    Mr. Nethercutt. Hadn't that been the intention of the study 
that had been ongoing for a couple of years, that you were 
compiling that information and were preparing to get out?
    Mr. Rogers. That's right.
    Mr. Nethercutt. I'm just wondering if there is something 
that delayed it automatically from September until now. Is 
there something specific that you can provide for the record?
    Mr. Rogers. I can't provide it--for the record, we can be 
more complete, but I can't address that right now.
    [The information follows:]

[Page 574 --The official Committee record contains additional material here.]


             columbia basin environmental impact statement

    Mr. Nethercutt. When the standards and guidelines contained 
in that EIS are implemented on the 74 natural resource units 
within the 144 million acres covered by the project, do you 
anticipate increased consultations with the land management 
agencies?
    Mr. Rogers. Yes. Part of what we have learned from the 
Forest Plan, as I'm sure you're well aware, is that much of the 
difficulty that some folks feel is presented by Endangered 
Species Act is in the time necessary or historically used to 
conduct the consultations. So we will try to achieve the same 
kind of streamlined consultation process that is there with the 
Forest Plan. We've been able to bring formal consultation time 
down from in excess of 130 days to about 45 days and informal 
consultations down to about 17 days. So we have been effective; 
we're learning all the time. I assume we will transfer that 
learning to the Columbia.
    Mr. Nethercutt. Do you know how doing this will affect your 
workload and what the cost might be? Have you projected that at 
all?
    Mr. Rogers. No, and part of that is because we don't have a 
preferred alternative yet against which to measure the work. 
We've got considerable resources that we're using right now. 
About $800,000 is what we're spending currently. Also, we might 
have to use part of the Forest Plan increase that has been 
requested to augment that activity. So we are operating under 
the assumption right now that we can cover what's needed within 
what we have. If we find we can't, we might be coming back to 
the committee with a further request.
    Mr. Nethercutt. That's my concern in some respects with the 
study, that there will be this implementation period and a cost 
attached to it and we are going to be looking at a huge amount 
of money. If you look at the Northwest Forest Plan, I think the 
budget is around $400 million a year, if I'm not mistaken, for 
implementation. It seems bottomless as we try to figure out 
whether this is a good idea or bad, not from a judgmental 
standpoint, but from the standpoint of, ``Is it even going to 
work and can we have the resources available to implement it,'' 
notwithstanding the consequences of whatever the preferred 
alternative might be on the economic development of these 
areas. So I have some concerns long term about it. I presume 
from your answers that perhaps you do, too.
    Mr. Rogers. Yes, we are concerned, and I would say, on the 
positive side, that the chief advantage of both having had the 
Forest Plan experience and going through the extensive planning 
process we're going through now, is that with a plan at least 
we can anticipate the problems and adjust to answer those 
problems, and meet the needs, as opposed to sitting at our 
desk, randomly waiting for a Federal agency to walk in the door 
with a program we know nothing about. So, whatever the costs 
associated with implementing the EIS, I suspect there will be 
less than, and the impacts less than, the kind of the random 
way we did business in the past.

                       endangered species reports

    Mr. Nethercutt. It will be interesting to see how it 
unfolds, but I have great concerns about it just from a 
practical standpoint, as well as an economic standpoint.
    Let me ask a final question, if I may. Do you have an 
accounting of how much money you spent from year to year on the 
management of threatened and endangered species?
    Mr. Rogers. We have to produce a report for the Congress on 
a specific cycle, and I'm not certain what that is.
    Mr. Nethercutt. Have you done that?
    Mr. Rogers. Can I ask Assistant Director Clark to----
    Mr. Nethercutt. Certainly.
    Ms. Clark. Hi. We----
    Mr. Nethercutt. State your name for the reporter.
    Ms. Clark. My name is Jamie Clark, and I'm the Assistant 
Director for Ecological Services.
    In response to your question, per the requirements of 
section 18 of the Endangered Species Act, we're required to 
report on an annual basis all readily identifiable expenditures 
by the Federal and State agencies. And we do that. We are a 
couple of years behind in our reports to Congress, but we do, 
working through the International Association of Fish and 
Wildlife Agencies, collect those data and roll them up in 
tabular format on a species by species basis.
    Mr. Nethercutt. Okay. So, let me make sure I understand. In 
1992, the Fish and Wildlife Service published its last one, is 
that correct, the summary of these expenses? Am I correct on 
that?
    Ms. Clark. I would have to get back to you for the record 
on that. I can't remember--you might be mixing up--we have two 
reports due to Congress. One is a recovery report, and that's 
the status of species, their recovery status, and the last one 
for that was 1994. Then we have an annual report on species 
expenditures, and we just finished--that's going through final 
clearance--I believe, the 1994 report as well. So, I believe we 
have reports through 1993, but I need to check on that.
    [The information follows:]

[Page 577 --The official Committee record contains additional material here.]


    Mr. Nethercutt. Is that a requirement of law? I mean, are 
you required to do this?
    Ms. Clark. Yes, it is.
    Mr. Nethercutt. Is there some reason why that hasn't been 
done? It sounds to me like you're behind a couple of years. How 
do you justify that? I respect that you have a lot of work to 
do, but have you notified Congress as to the reasons why you 
haven't done what you're supposed to do?
    Ms. Clark. No, I don't believe we have notified Congress 
regarding our backlog of reports. Part of the problem has been 
our working out computer glitches and reporting requirements 
with the State agencies, because a lot of the report has to do 
with the State agencies and working with the International 
Association of Fish and Wildlife Service.
    Part of it has do with our reconciling data with the other 
multitudes of Federal agencies that are involved, including our 
own. So, some of it's a resource problem on all of our parts, 
but it's primarily us working with the International 
Association of Fish and Wildlife Agencies to try to streamline 
the reporting requirement, which was fairly onerous when we 
were trying to collate all of these data that were coming in, 
in many different fashions.
    Mr. Nethercutt. I think that perhaps illustrates the 
problem that it poses for the Congress now, as we try to figure 
out reauthorization for the Endangered Species Act. We need to 
figure out what works and doesn't, and then reform the law 
accordingly. Your report would be of great help. We need that 
information in order to make judgments about what is working 
and what isn't. So, I would hope your agency would be diligent 
in trying to get that put together at your earliest 
opportunity, recognizing how big the government is, but 
nevertheless, it's slowing down progress on ESA 
reauthorization.
    Mr. Rogers. We will work to do better.
    Mr. Regula. Do you have any comment on the Kempthorne-
Chafee bill? Mr. Nethercutt, I suggest you might also be 
interested in the Senator's bill which essentially moves some 
responsibilities back to the States.
    Mr. Rogers. No detailed comment, other than we are 
analyzing it and preparing a legislative report on it, and 
we'll be dealing with it extensively, I'm sure, in the future.

                    bonneville power administration

    Mr. Nethercutt. May I just ask, for the record, that you 
submit some information on how much mitigation money you 
receive each year from the Bonneville Power Administration and 
nationwide?
    Mr. Rogers. Yes.
    [The information follows:]

[Page 579 --The official Committee record contains additional material here.]


    Mr. Regula. Mr. Taylor?

                      endangered species research

    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Rogers, with all of the new information on cloning and 
how it might apply to endangered species, is your agency 
looking into that or cooperating with any of the organizations 
as a way of perhaps, if not solving, at least releasing the 
pressure in the endangered species area?
    Mr. Rogers. Probably the easy answer--the best answer is, 
no. [Laughter.]
    I'm sure there are people thinking about it randomly. There 
is no organized discussion about it. As you know, it is a very 
detailed and extensive arena for potential research, and 
research in the Interior Department is now the responsibility 
of the Biological Resources Division of the U.S. Geological 
Survey. So I'm not trying to ``fog'' you.
    Mr. Regula. Will you yield on that?
    Mr. Rogers. Sure.
    Mr. Regula. Is that working out for you, with the NBS, 
former NBS, now part of the U.S. Geological Survey?
    Mr. Rogers. Yes, it's working out in that, once you accept 
that most of the resources of that agency used to be applied 
toward Fish and Wildlife Service-related work, while now 
they're applied broadly for the Department. One can argue that 
priorities for the Department are higher than or different from 
individual Fish and Wildlife Service priorities. But, yes, and 
though we had been in denial for a while, we're getting there.

                         northwest forest plan


    Mr. Taylor. I understand. Whatever those priorities are, 
for the last several years that has been a great mystery to me, 
the National Biological Survey. That will have to wait to 
another hearing.
    What I was--I think it's an area we should look into in a 
serious way because it may be one of the ways we can relieve 
the pressure, and also the pressure on human areas where we 
disrupted thousands of people's lives and their incomes and 
have taken their property in the most unconstitutional way. I 
think, in fact, we might be able to find other ways to solve 
that problem without the Draconian measures we're using.
    Let me ask you, first, within ecological services, you 
request an additional $1.6 million to strengthen the 
President's commitment to the Northwest Forest Plan in Oregon 
and Washington. I thought he had backed away from that two 
campaigns ago. Are we still spending money on that, the 
Northwest Forest Plan?
    Mr. Rogers. Yes, we are. I'm not aware of a withdrawal from 
the Forest Plan and----
    Mr. Taylor. That was the time before he endorsed it, before 
he went against it, before the election to get the vote when it 
was made at the 1993 plant. It gets confusing as you go through 
the steps, but I'm serious, in a sense, that there was this 
great plan; everybody thought there would be a workout and a 
compromise for harvest and moving ahead in saving some of the 
jobs in the Northwest area, and it's amounted to about that, 
and as it wanders in and out, and the folks--I spoke to the 
lumbermen Monday, and they were shaking their heads. I mean 
they've written it all off as far as a plan. And I just 
wondered if we're still spending money on something that is a 
dead horse?
    Mr. Rogers. We're still spending money on the Northwest 
Forest Plan, and I'm sure you can find lots of argument whether 
it's a dead horse or not.
    Mr. Taylor. Well, perhaps we could look at it a little more 
and see if it really is in reality. A lot of people would like 
to think that there was some effort to move, to find some 
particular compromise that would bring about allowing a 
reasonable amount of harvest that would save an infrastructure. 
Because if we're not saving the infrastructure, talking about 
harvesting in the future will be moot, and that's why I was----
    Mr. Rogers. Well, there is timber harvest going on. We are 
consulting, as I mentioned earlier, on an expedited basis with 
both the Bureau of Land Management and U.S. Forest Service to 
allow the harvest that is consistent with good sound 
conservation principles. The allowable harvest is probably not 
all that some of the locals would want, and it is probably more 
than some of those on the other side would prefer.

                      wilderness institute report

    Mr. Taylor. It's totally insufficient in the sense of 
maintaining an infrastructure, to make it worth an argument in 
the future, but here we can't go into that, either. I'd ask one 
other question: have you seen the Wilderness Institute's report 
of about two years or so ago. They came out on the ESA, and it 
shows the millions of dollars that are being wasted in ESA and 
how they're being wasted. And I'm not here to say that the 
report is perfect. I just wondered if your agency had looked at 
it and analyzed it, and found any room for reform with it?
    Mr. Rogers. Yes, I have seen it. Yes, I have read it. The 
analysis--do we have it? I guess we don't have any specific 
analysis. Part of the reason, probably, is because there's lots 
of reports coming, and if we analyzed all the reports, we 
wouldn't do much else.
    Mr. Taylor. Well, I would recommend that one to you perhaps 
as to see if you feel--I mean it sort of in one way poked fun, 
but the other way it had some serious suggestions. It was 
talking about, I think, one endangered species there. If you 
spent all this money, you could restore it if we had another 
ice age, which in the conclusion it seemed like maybe we were 
spending the money for something that wasn't likely to happen 
any time soon. I don't know how that conflicts with global 
warming, but it was--what I'm saying is, if in our expenditures 
that we're making, if when we get to the end, the possibility 
of something happening is ridiculous, then perhaps we should 
re-examine our expenditures.
    For instance, one of the analysis, I think, of an 
endangered species in California, probably around Los Angeles, 
was that the salvation, after your expenditures, would be 
possible if the population was removed, and those are not 
realistic possibilities, and that's probably extreme. But in 
each of our cases, as we analyze, perhaps we should be heading 
in another direction, whether it's relocation, whether it's 
trying to see the encouragement of the habitat somewhere where 
it isn't populated. I mean, multiple alternatives. That's, I 
guess, what I'm saying.
    Mr. Rogers. I would hope we'd be the last to say that we're 
perfect and don't have anything to learn, but I would be very 
cautious to make sure that we don't let a few anecdotes, that 
may or may not be true, direct the conservation policy of the 
country. But your point's well taken. We need to improve and 
look at imaginative ways of doing business.
    Mr. Taylor. Well, and I would hope if there's anything 
there, an analysis could bring it forward.
    Mr. Rogers. Yes.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.

             endangered species act section 7 and flooding

    Mr. Wamp. Thank you, Mr. Chairman. Mr. Rogers, in these 
parts of the country that have been flooded, and have been 
declared disaster areas, does section 7 of the Endangered 
Species Act still apply? Or is suspended until the flood 
protection systems are put back in place, and where are we 
right now with regard to section 7?
    Mr. Rogers. Let me refer that question to Mr. Gerst, Acting 
Deputy Director who's been intimately involved with the 
departmental flood policy and section 7.
    Mr. Gerst. Actually, what we have done is invoke section 
7(p) of the act, which is the emergency authority. We have on a 
broad basis suspended the advance consultation requirements, 
for the duration of the flood season, for the express purpose 
of not impeding, but promoting rapid repair and renovation 
where necessary. Therefore, we are not consulting in advance. 
We will consult after the fact, but the Fish and Wildlife 
Service has taken steps to make sure that in no way does the 
consultation mitigation requirements delay the necessary 
repairs during the flood season.
    Mr. Wamp. That's a good answer. The flood season seems to 
be changing in some parts of the country. What do you define 
the flood season as now?
    Mr. Gerst. Well, the flood season does not have a legal 
definition. A working definition is, basically, at the moment, 
until the end of the snow melt. So it will be late spring or 
later. There is not a date on the calendar at this stage, but 
we are monitoring that very closely to make sure that the Fish 
and Wildlife Service actions do not impede the necessary 
repairs.
    Mr. Gerst. So, Secretary Babbitt said that section 7 would 
be suspended through the end of the year, but 7(p)----
    Mr. Rogers. Section 7(p).
    Mr. Gerst. Section 7(p) is the relevant citation.
    Mr. Rogers. That's the actual emergency authority on the 
Endangered Species Act, and that's what we're operating under.
    Mr. Wamp. Okay, very good. Thank you, Mr. Chairman.

                         land between the lakes

    Mr. Regula. Any others? I thought maybe we'd get ``Between 
the Lakes'' this morning. [Laughter.]
    Mr. Wamp. Not this time.
    Mr. Regula. Does that lend itself to a fish and wildlife 
refuge?
    Mr. Wamp. It may. He references Land Between The Lakes. 
I'll mention that. There's a big discussion going on between 
Kentucky and Tennessee about Land Between The Lakes because of 
TVA's proposal to get out of the non-power funding business. 
It's extremely controversial, and there's a hearing set. Mr. 
Chairman, thank you for reminding me of that.
    I've asked the other pertinent agencies if there is any 
interest or concern about Land Between The Lakes. We heard from 
most of the agencies that--they thought TVA should maintain 
stewardship and control over the Land Between The Lakes, but if 
it were up for grabs, so to speak, what is Fish and Wildlife's 
input into this decision over what the country should do with 
this area we know as Land Between the Lakes?
    Mr. Rogers. Because of the use of that area, it's 
principally recreational and non-wildlife-dependent recreation. 
It is just more open area and open water recreation, and the 
natural resources are fairly well handled in that area by the 
State and by the Tennessee Valley Authority. It is also not of 
high Federal responsibility, so we believe it's best left to 
another entity. Because of the discussion we had a little 
earlier about the deficit in funding we face in the National 
Wildlife Refuge System, we think that gobbling up another 
relatively large responsibility that could be carried out 
equally well by another agency, would be a mistake for us, 
certainly given our funding deficit.
    Mr. Regula. Just out of curiosity--it's off the record.
    [Off the record.]

                             research needs

    Mr. Regula. Okay, we'll go back on the record.
    Last year you indicated that even when Fish and Wildlife 
Service had their own research program, it never worked 
perfectly. How is the relationship today, after the merger has 
been completed? And is the Biological Research Division of USGS 
serving the Fish and Wildlife research needs? And if it's not 
perfect at the moment, do you think it will in time work out 
for you?
    Mr. Rogers. Yes, in time it will work out for us. As I 
indicated earlier we had some adjustment problems, and we've 
gotten over those; and we are working very closely with them. I 
feel that we always have. It's more of at the administrative 
upper levels where we had to figure out how to do business, and 
it's going to work.

                       forest service cooperation

    Mr. Regula. Mr. Taylor mentioned the Forest Service and 
their relationship with Fish and Wildlife, and I would be 
interested, do you cooperate with the Forest Service? Because, 
obviously, harvesting has an impact on the fish and wildlife 
population. Is there a close interface between the two agencies 
to protect as much as possible the impact on fish and wildlife 
resources?
    Mr. Rogers. We have a very good, historic relationship with 
the Forest Service on wildlife stewardship side. We work very 
closely together on such things as Partners in Flight, the neo-
tropical migratory bird initiative. We are working with them 
and with BLM on a riparian initiative. So, on that side we have 
worked, and we will continue to work, very closely together.
    Sometimes we have thorny relationships when it comes to 
section 7 complications on forest product activities, and we're 
getting better at working those out through the streamlined 
consultation process, principally, and through close 
communication and co-location where possible.

                   delisted and reclassified species

    Mr. Regula. A couple of questions on endangered species: 
How many species have been delisted over the past year and what 
are they?
    Mr. Rogers. None. That's because of the listing priority 
system that we've set up as we try to recover from the 
moratorium on the listing process.
    Mr. Regula. How many species have been reclassified from 
endangered to threatened over the past year?
    Mr. Rogers. None.
    Mr. Regula. So, in terms of the endangered species, you're 
main function is, then, to evaluate candidates for listing. Is 
that right?
    Mr. Rogers. Our main function since the moratorium was 
lifted last spring has been to, first, process emergency 
listings, of which there have been none; and second, to work 
with species that had been previously proposed for listing. The 
next two tiers, which we've barely started to get into, consist 
of new proposals, petitions, and delistings. These last tiers 
have been a lower priority because conservation of species was 
paramount.
    I might make note of the fact, since we're talking about 
delisting, that we have, in the 1998 budget, requested to move 
the delisting activity over to the recovery process, because 
it's the logical culmination to the recovery process. So, in 
the unlikely and hopefully never-happen event of another 
listing moratorium, delisting would continue.
    Mr. Yates. Mr. Chairman, may I make a request on that 
point?
    Mr. Regula. Yes.
    Mr. Yates. The----
    Mr. Regula. Why don't you take your time here, because 
we're going to run out.

                           delisting criteria

    Mr. Yates. The TV carried a story about the recovery of the 
bald eagle in this area. I was so impressed with that story; I 
thought that, perhaps, you had totally succeeded in that 
program. If that's true, under what circumstances do you 
delist?
    Mr. Rogers. We would delist when the population or the 
species in question reaches its recovery goals, and the bald 
eagle is very close. Once we start back into the delisting 
business, which would be the first of Fiscal Year 1998, the 
bald eagle would be one of the species we look at first.
    Mr. Yates. Okay, thank you.
    Mr. Regula. How many are waiting to be delisted?
    Mr. Rogers. Well, theoretically, yes; all the species on 
the list. But we envision as many as a dozen delistings and 
reclassifications in the next year, among which might be the 
bald eagle, peregrine falcon, and brown pelican.
    Mr. Regula. So recovery programs are working is what you're 
saying?
    Mr. Rogers. They are working where we have had the 
opportunity and the resources to put it through.
    Mr. Regula. Do you have any more questions?
    Mr. Yates. I do, but it's not my turn.
    Mr. Regula. Yes, it is. [Laughter.]

                           california condor

    Mr. Yates. Oh, it is my turn? Okay, thank you.
    Well, I was going to congratulate you upon the success with 
which the recovery of the bald eagle has been achieved. What's 
the status of the condor program?
    Mr. Rogers. The condor program is--well, as you probably 
know, it took a major leap forward this past year when we 
reintroduced some more condors into the wild just north of the 
Grand Canyon. So now we have the beginning of a population in 
Arizona, and the growing, by reintroduction, population in 
California.
    Mr. Yates. Oh. How close is the condor to delisting then?
    Mr. Rogers. It's quite a ways off because we still don't 
have any breeding in the wild.
    Mr. Yates. What about the peregrine falcon?
    Mr. Rogers. The peregrine falcon is one that is really 
awaiting our getting back into the listing business. We're 
ready to go, and I suspect--well, I know--it will be one of the 
first species we address in the first of fiscal year 1998.
    Mr. Yates. When you say that you will get back into the 
delisting business, that's your business all the time, isn't 
it?

                           listing moratorium

    Mr. Rogers. Yes, sir, it is. But if you'll recall, during 
the listing moratorium and the shutdown a year ago, we were 
mandated not to list any species. The backlog of species 
awaiting listing grew. And it's taken us from when that 
moratorium was lifted last spring, through the rest of this 
fiscal year, just to catch up with the backlog of listings.
    Mr. Yates. You're under a court order to list how many new 
species?
    Mr. Rogers. Well, the numbers keep changing, but the Fund 
for Animals lawsuit has directed our listing priorities for a 
while, and we are on track to complete the listings there as 
appropriate.
    Mr. Yates. Well, is that one reason why you're asking for 
the increase, to be able to take care of all of the 
requirements of your listing and delisting program?
    Mr. Rogers. We haven't asked for an increase in the listing 
arena. We have asked for it in candidate conservation recovery 
and consultation, but, in general, the increase in endangered 
species was asked for so that we could----

                        last endangered species

    Mr. Yates. When was the last time you de-listed a species?
    Mr. Rogers. The last species we delisted was----
    Ms. Clark. I think it was the Arctic peregrine in FY 1996.
    Mr. Yates. Oh, really? So you did in Fiscal Year----
    Ms. Clark. In 1995, excuse me.
    Mr. Yates. 1995? That's three years ago--two or three years 
ago.
    Mr. Rogers. Two.
    Mr. Yates. Two years ago. And how many candidates for 
delisting do you have?
    Mr. Rogers. We've got probably a dozen for delisting and 
reclassification that we would be able to deal with over the 
next year.

                        status of listed species

    Mr. Yates. Now how many are listed?
    Mr. Rogers. Approximately 1,000 plants and animals are 
listed.
    Mr. Yates. And growing every year.
    Mr. Rogers. And growing every year.
    Mr. Yates. Well, according to the Environmental Defense 
Fund, two-thirds of all plants and animals on the threatened 
and endangered species list were still in decline or their 
status was unknown. Do you agree with that?
    Mr. Rogers. I think that's accurate.
    Ms. Clark. The data that the Environmental Defense Fund 
used was out of our report to Congress. They have interpreted 
our status review for species that are declining, extrapolated 
the species that were declining along with the species for 
which we didn't know their status, and called them all 
declining.
    A lot of the percentage, though, is a result of the many 
species that we've added to the list just in the last year or 
two, post-moratorium. It's not a surprise that many species 
that finally make it onto the list are in a declining status. 
So many of the plants from Hawaii and California that came onto 
the list were in a rapidly-declining mode, and that's what 
caused the percentage to be so high for continuing-to-decline 
species.

             hostility toward the fish and wildlife service

    Mr. Yates. What about the hostility to the Fish and 
Wildlife Service that we read about in the papers? Do you still 
encounter that out west?
    Mr. Rogers. Yes.
    Mr. Yates. Are you making any progress toward ameliorating 
that?
    Mr. Rogers. I think we are, the----
    Mr. Yates. What's the basis for the hostility?
    Mr. Rogers. In a nutshell, I'd say it's fear over actions 
that we might take in our regulatory role under the Endangered 
Species Act.
    Mr. Yates. Well, is it fear of what you might do or fear of 
what you have done?
    Mr. Rogers. It's more a fear of what we might do or what 
might happen, rather than what has actually happened.
    Mr. Yates. Well, what are they afraid of?

               endangered species act and property rights

    Mr. Rogers. Well, broadly, they're afraid of infringement 
on private property and private property rights.
    Mr. Yates. In what respect?
    Mr. Rogers. That a listing might limit use of private 
property principally for economic reasons.
    Mr. Yates. Well, can you give me an example of what that 
might be?
    Mr. Moran. Mr. Taylor probably could provide a personal 
example. [Laughter.]
    Mr. Yates. Why, what happened to him?
    Mr. Regula. We're going to run out of time here.
    Mr. Yates. I'm running out of time.
    Mr. Regula. Well, the vote--I can
    Mr. Yates. Oh, no; I'm going with you, but I would like to 
have some examples of that.
    Mr. Rogers. We can provide that.

[Pages 588-589 --The official Committee record contains additional material here.]


    Mr. Yates. And I'll have questions for the record. Thank 
you.
    Mr. Regula. Mr. Moran, do you----
    Mr. Moran. I'm going to go vote with you guys.
    Mr. Regula. I mean, do you need--should we come back?
    Mr. Moran. It's not necessary on my account.
    Mr. Regula. Okay. The record will be open for all of the 
members to submit questions for the record. I know I have a 
number of them and will get them to you, and, hopefully, get 
prompt responses.
    Mr. Rogers. You will.
    Mr. Regula. It's very helpful in constructing your budget 
if we have the responses.
    Mr. Rogers. Yes.
    Mr. Regula. Thank you for coming. The committee is 
adjourned.

[Pages 591-778 --The official Committee record contains additional material here.]


=======================================================================


                       Department of the Interior

                         National Park Service


=======================================================================

      
                                          Thursday, April 10, 1997.

                         NATIONAL PARK SERVICE

                               WITNESSES

DENIS P. GALVIN, ACTING DEPUTY DIRECTOR, NATIONAL PARK SERVICE
C. BRUCE SHEAFFER, COMPTROLLER
MARY BRADFORD, ASSOCIATE DIRECTOR, ADMINISTRATION
MAUREEN FINNERTY, ASSOCIATE DIRECTOR, PARK OPERATIONS AND EDUCATION
KATHERINE STEVENSON, ASSOCIATE DIRECTOR, CULTURAL RESOURCES STEWARDSHIP 
    AND PARTNERSHIPS
CHARLES CLAPPER, JR., ACTING ASSOCIATE DIRECTOR, PROFESSIONAL SERVICES
MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATURAL RESOURCES STEWARDSHIP AND 
    SCIENCE
JOHN D. TREZISE, CHIEF, DIVISION OF BUDGET AND PROGRAM REVIEW

[Pages 782-783 --The official Committee record contains additional material here.]


                             Introductions

    Mr. Regula [presiding]. Okay, it's the appointed hour, so 
we'll declare the committee in session. We're happy to welcome 
both of you. I think you probably have one of the more 
enjoyable responsibilities in government--to manage parks, and 
it's something that certainly the people love. We'll put your 
statements in the record and any comments you'd like to make. I 
would be interested especially if you'd address at least some 
of your observations on the GAO report and also Director 
Raines' memo on GPRA, which I see has eight criteria and how 
you're contemplating meeting this.
    I think some of this probably fits with what the GAO has 
recommended. As I look to the future in government I think we 
have to take the approach of Edward Demming: How can we manage 
it better? And I notice Director Raines' memo; what did he say, 
``more for less''? And you probably feel that you've already 
been under that kind of an environment. And, of course, the 
other slogan is ``no measures, no money.'' Well, we hope that 
doesn't have to be our solution.
    But I think what Mr. Raines is trying to do is to recognize 
the realities of budgets. I noticed this morning in the 
Congressional Digest--I think it said the budgeteers met 
yesterday with the President's people and there's disagreement 
on the discretionary part. Our budgeteers don't want to cut 
discretion any more than the White House, but it illustrates 
the problem, and that is that there's a big hunk of the budget 
that we can't get to: entitlements, interest. And so that makes 
what we do in this committee fair game as we try to move toward 
a balanced budget.

                 Opening Remarks and Budget Highlights

    Mr. Galvin. I'll just summarize the opening statement, Mr. 
Chairman. We have with us the Associate Directors today who 
will be able to answer questions in more detail. And as you 
point out in your introductory remarks, we're in the 
discretionary part of the budget. We have been treated quite 
fairly by the Administration this year. Our request is $1.6 
billion which reflects a net increase of $176 million. About 
$100 million of that supports the Everglade ecosystem. But, 
also, there are requested increases in there to maintain and 
upgrade the current level of services provided the 276 million 
people expected to visit the national parks in Fiscal Year 
1998.
    In addition, we will be initiating operations at five new 
parks passed in the Omnibus Bill of 1996. There is money in 
there for the startup operation. There's also enhancements to 
the Natural and Cultural Resource Management Programs, 
continued support of the Elwha River Ecosystem Restoration 
Project, and some expansion of the partnership opportunities, 
including the expansion of our successful Volunteers-in-Parks 
Program.
    This budget provides increased funding in the operations 
area of $65.7 million, 5.5 percent above the Fiscal Year 1997 
level for operation of the Service's 374 units. It covers, 
thankfully, the mandated employee pay raises, provides a 1 
percent across-the-board increase for all parks and the U.S. 
Park Police, and, additionally, $16.3 million for 63 parks with 
special needs, such as the five new ones that I indicated--
Nickodemus and Washita, and some others--Boston Harbor Islands.
    It also includes initial funding for the Franklin Delano 
Roosevelt Memorial, which this subcommittee has been very 
familiar with. We will dedicate that on May 2. It will go into 
operation at that time. Also, expanded facilities largely built 
with private funding at Mount Rushmore National Memorial will 
go into operation and require some modest increases in 
operating funds. We'll begin operating in cooperation with the 
Navajo tribe the Antelope Point Marina at Glen Canyon National 
Recreation Area, and we've requested some increases to cover 
that.
    I should note, Mr. Chairman, and my prepared remarks expand 
on the fact that, this year marks the 125th anniversary of 
Yellowstone National Park. We were chatting earlier about the 
Russian park system and the systems in Eastern Europe. All of 
those parks systems, in one way or another, began with the idea 
established in Yellowstone and Yosemite 125 years ago.
    And as you mentioned, I'm not sure I'd use the word 
``enjoyable'' in terms of managing the national park system, 
but I certainly would use the word that it's a ``privilege'' to 
manage the national park system. And I think all of us who have 
spent careers in this organization feel overawed by the 
responsibilities that we are given to manage this world class 
and truly great system. And I think all of us, including, I 
know, you, Mr. Chairman, want just to pass it on as well as we 
got it, or maybe a little bit better.
    We also include in this a $125 million request that covers 
increases for ecosystem recovery in south Florida and I 
previously mentioned the Elwha Dam. A $100 million is requested 
for the Everglades restoration and roughly $25 million has been 
requested for the Elwha River ecosystem.

                   science and the everglades project

    Mr. Regula. If I could interrupt you there--do we have the 
science adequately completed to go forward on the Everglades 
restoration? I'm a little concerned that we get the restoration 
ahead of the science. One of the problems that put us where we 
are is there wasn't enough science.
    Mr. Galvin. Well, there's really three parts, I think, to 
the Everglades project. One is to buy land, and to buy land for 
a number of reasons; in some instances, to take it out of 
agriculture, so the nutrient loadings that get to the 
Everglades will be modified. Another is to buy land to move 
water around on it. All of this is largely outside of the park. 
The Corps of Engineers needs to store water; the South Florida 
Water Management District needs to store water. In one 
instance, it's to recharge ground water; in the other instance, 
it's to store it for agriculture purposes or to store it for 
domestic purposes. Within the park, we need to continue land 
acquisitions.
    The second part relates to your question with respect to 
science. We have asked for an additional $12 million here to 
continue the research and the balance of the money--of the $100 
million about another $12 million--is for Corps of Engineers 
construction. I believe we know enough about the system to 
pursue the construction, the Corps of Engineers construction, 
at this time. But, I think, in answer to your question, do we 
know everything about the Everglades system? No, we don't. The 
$12 million is to continue our knowledge.
    Mr. Regula. Is this part of the $125 million?
    Mr. Galvin. It's part of the $100 million. Actually, the 
Everglades portion is $100 million.
    Mr. Regula. Oh, I see. Okay.
    Mr. Galvin. It's roughly $76 million to buy land, $12 
million to do research, and $12 million to fund Corps of 
Engineers construction.
    While we don't have the science, the complete scientific 
knowledge, to some extent there's going to have to be 
experimentation with these water regimes. So that I don't think 
it's unacceptable to continue on this course, to request this 
$100 million while we're doing research. And I don't think it's 
necessary to get all the research done before we start the 
construction or the land acquisition, I guess is what I'm 
saying.
    Mr. Regula. So you're saying in your judgment the $12 
million will keep the science at least abreast of what's 
happening?
    Mr. Galvin. Yes. Yes, it will.
    Mr. Regula. You mentioned the water. Is this part of the 
need to replenish the aquifer to feed the growing urbanization 
of southeast Florida?
    Mr. Galvin. That's basically what the South Florida Water 
Management District does is to manage the water regime for that 
part of the state and there's really three parts to it. One is 
flood control. The second is agricultural water for irrigation. 
And the third is domestic water. A lot of these tracts are 
designed to store water until they're needed for that, or to 
prevent them from flooding urban development in the area. It's 
a very complicated system, to be sure, and, of course, at the 
bottom of all of it is the Everglades.

                 grant programs and volunteer programs

    In addition, Mr. Chairman, we have included significantly 
enhanced funding for the historically black colleges and 
universities, an increase of $9 million dollars. Nearly $3 
million dollars will be for the new heritage areas that would 
assist state and local governments in the identification and 
preservation of resources and landscapes in their communities 
without adding to the inventory of Federal management. There is 
also a million dollars to strengthen and expand individual park 
volunteer programs.

                          vanishing treasures

    I mentioned that we are requesting $13.6 million in a 
variety--an increase in a variety of natural and cultural 
resource management programs, including ``Vanishing 
Treasures,'' a $3.5 million request that will try to reduce 
over a 10-year period deterioration to 2,000 prehistoric ruins 
in 41 parks in the Southwest. This request includes developing 
a skilled maintenance staff to replace an aging maintenance 
staff that has the skills to do this and has been doing it for 
us in the past.

                            new initiatives

    We have asked $4.5 million dollars for equipment and other 
information management upgrades to try to get the Service ready 
for the 21st century in information management and an increase 
of a million dollars to fund an education initiative whose 
goals are to make the interpretive programs of the National 
Park Service more broadly useful in the education community--
and, indeed, more broadly useful for people who don't visit 
parks, but could benefit from the information that we have 
developed to interpret parks.
    That concludes a summary of my statement, Mr. Chairman. 
With your permission, I would go into the Government 
Performance and Results Act if you'd like.
    [Mr. Galvin's statement follows:]

[Pages 788-789 --The official Committee record contains additional material here.]


                      omb director's memo on gpra

    Mr. Regula. Yes. Mr. Skaggs, I think you have a memo there 
from Franklin Raines?
    Mr. Skaggs. Yes.
    Mr. Regula. And I'd ask the Director to comment on that. I 
noted that you gave a speech not long ago in which you 
questioned the numbers on maintenance. And it would seem to fit 
with the challenges that are set forth in Mr. Raines' memo.
    Mr. Skaggs. Well, since you mentioned that, Mr. Chairman, 
could I make a modest statement for the record on that?
    Mr. Regula. Of course.
    Mr. Skaggs. It is, of course, always a source of delight 
and curiosity to those of us who make speeches what gets 
covered and what doesn't. [Laughter.]
    Mr. Regula. Well, that was it.
    Mr. Skaggs. In the course of some I hope not overly long 
remarks to the western park superintendents' meeting in Estes 
Park last week, in which I talked mainly about the importance 
of what the Park Service represents in this society and the 
very, very profound contribution that it makes to us as a 
people, as almost a whimsical throw-away, I said: ``By the way, 
when you're compiling these lists of things to do, it may work 
better on our receiving end if they are not so large as to be 
almost overwhelming to us''--not to say that all of the things 
on the list aren't absolutely legitimate, but that maybe 
there's a tad of a propensity to pad, occasionally, depending 
on what the guy at the park next door may be doing. So it got 
the headline and that made it sound a little bit more critical 
than I intended or I think was the case. But it's an issue. 
Thank you.

                   gao report and gpra implementation

    Mr. Regula. Well, I think the memo from the Director of OMB 
is somewhat consistent with that, plus the GAO report, and so, 
given that background, I welcome your comments on either the 
GAO report and/or the OMB report criteria that's been 
established.
    Mr. Galvin. Well, let me do the Government Performance and 
Results Act, because I think in many respects the GAO report 
suggests that application of the Government Performance and 
Results Act in the National Park Service will change the highly 
decentralized management system and what they characterize as a 
``lack of accountability.''
    We have been working on the Government Performance and 
Results Act for two or three years. In fact, our strategic plan 
was the first one that went to OMB by a land management agency. 
So we have a pretty good handle on what the implications of the 
Act are and what it's going to take to implement in the 
National Park System.
    We started two years ago with nine prototype parks and made 
them analyze their operations through the Government 
Performance and Results Act. In 1997, we expanded that to 30 
parks. Concurrently, we developed a strategic plan for the 
National Park Service, which is currently at OMB and under 
consideration. It was developed with public input. It includes 
long-term goals that are measurable. And next year we will put 
all the parks on the Government Performance and Results Act, 
which will result in their having two things: a strategic plan 
with long-term goals--five years, in the case of this act. And 
it will have an annual performance plan that describes how they 
intend to meet those goals.

                            long-term goals

    Those plans will all be done in accordance with the 
Servicewide plan, and I'll just give you an example of some of 
the long-term goals that we have in the current strategic plan. 
Fifty percent of the historic structures on the 1998 list of 
classified structures are in good condition. Right now we know 
that that number is about 46 percent. The assumption that 
drives these goals is flat budgets. I think Mr. Raines refers 
to that here. We did not try to describe any goals that 
required budget increases. As we understand the Act, it's not 
designed to say, ``If you had another $20 million what would 
you do?'' These goals have considerable professional input and 
we believe they are realistic goals that can be reached in five 
years within current funding limits.

                               gao audit

    With respect to the GAO audits, we do not maintain in 
Washington a breakdown of park expenditures. We know on the 
margins what parks spend. We talk to regional directors and to 
superintendents about the nature of park expenditures, but we 
don't maintain any file of how Yellowstone spends its $18 
million dollars or how Cuyahoga spends its $5 million, or 
whatever.
    With the Annual Performance Plan, such a document will be 
in place and tied to goals. So I, personally believe that 
although this is a very difficult and complex system, it has 
considerable potential for improving the management of 
government agencies generally, and the National Park System.
    Mr. Sheaffer says, ``budget link,'' exclamation point----
    Mr. Sheaffer. No, that's a happy face. [Laughter.]

                gpra and the change in budget structure

    Mr. Galvin. Ultimately, and Mr. Raines refers to it here, 
the structure of the budget is supposed to change to reflect 
the Government Performance and Results Act. Now, in this budget 
some of those changes have been incorporated. There are more 
units of measure in this budget than in previous years, 
although the basic structure is the same.
    You want to add anything to that?
    Mr. Sheaffer. The budget link will probably ultimately be 
the greatest challenge we have, making GPRA tie specifically to 
the budget, and making it work for you and for us. We're going 
to need some feedback from you as to how the goals work for you 
and then, ultimately, whether these numbers are going to be 
meaningful decisionmaking numbers for you. That's going to be 
the significant challenge.
    Mr. Regula. The numbers that are produced pursuant to this?
    Mr. Sheaffer. Yes. Currently, our budget is basically a 
functional display: maintenance, visitors' services, and the 
like.
    Mr. Regula. Right.
    Mr. Sheaffer. And this will clearly lead us in a direction 
of a very different display that will be talking about missions 
and goals and outcomes, and it will be very different.

                          achieving gpra goals

    Mr. Regula. How will that translate into money? Because we 
have to ultimately put it into money?
    Mr. Sheaffer. It will have to be translated initially by us 
into money and then interpreted by the decisionmakers.
    Mr. Galvin. The theory is that we would take one of these 
goals and price it out right through to the organization. So we 
would present to you a budget that says here's what it's going 
to cost to get 50 percent of the historic structures on the 
List of Classified Structures.
    Mr. Regula. And then we have to make the policy decision 
vis-a-vis how much money we have.
    Mr. Galvin. Right.
    Mr. Sheaffer. Absolutely.
    Mr. Regula. And we can allocate to this overall function?
    Mr. Sheaffer. That's correct.
    Mr. Galvin. Or, if you feel that a goal in another area is 
inadequate, do you want to move money over to that goal and not 
achieve this one?

                       change in budget structure

    Mr. Sheaffer. But it may be very different. For example, 
you may find that a construction line item is no longer sitting 
under its own construction account, but instead is listed under 
a mission statement. You won't be making decisions on issues of 
maintenance, for example. It will be on issues relating to 
correcting problems and cultural resources, or natural 
resources, things that sound very different.
    Mr. Regula. So this would result in a much different 
submission on your part in terms of definitions.
    Mr. Sheaffer. Yes, sir. Absolutely.
    Mr. Galvin. Yes.
    Mr. Sheaffer. And one that we all are going to have to 
agree to before we change the budget structure. Because making 
these changes will require enormous effort; for example, we 
will be required to make significant changes in the accounting 
system.
    Mr. Regula. Well, I think that's quite a challenge.
    Mr. Galvin. Yes, you betcha. You betcha. [Laughter.]
    We've been working on it for two and a half years and its 
very hard work.
    Mr. Regula. We're going to have to re-educate our members, 
too.
    Mr. Galvin. Well, we have not made the big turn yet, 
either. We've come up with the goals. We're working on the 
performance plans. But aligning the budget to those things, we 
have not gone very far.
    Mr. Regula. When do you contemplate you would actually 
submit a budget under those kind of characteristics?
    Mr. Sheaffer. Well, I think we're evolving that way now. We 
have provided in this year's budget some indications of how 
this might work. But the actual changing of the budget 
structure is something that I don't think will be done for a 
couple of years yet.
    It's imperative that we all agree on a set of goals, 
because if you're going to change the fundamental way we 
account for things, we can't have a disagreement and an ever-
changing series of goals. You'll never be able to track a 
budget in any meaningful way.
    Mr. Regula. Once you make that leap, you're going to have 
to stay with it.
    Mr. Sheaffer. Yes. Yes, sir.
    Mr. Galvin. And the notion is that the overall timeframe 
you're dealing with on these goals is five years. And, you 
know, every five years you do a new strategic plan. But you do 
an annual performance plan, obviously, every year.
    Mr. Regula. Well, any further comments either of you would 
like to offer at this point before we get into questions?
    [No response.]

                          construction backlog

    Well, since we mentioned maintenance earlier, this, 
historically, has always been a rather forbidding amount of 
money. This $5 billion is tossed around quite a bit. I notice 
Mr. Raines talks about reality, what is--reality, make it real. 
And are you addressing it?
    Mr. Galvin. Well, there are sort of two approaches we're 
taking. You may remember, Mr. Chairman, in 1994 this 
subcommittee directed us to take a look at the way we set 
construction priorities and come up with a new construction 
priority system. And we have done that. Now, because of the 
lead time in which it requires to put construction in place, 
the results of that system won't show up, really, until the 
1999 budget.
    But the basic assumption that drove that new system is 
quite different than discussions of the backlog. It is based on 
the assumption that we will get about $90-$100 million a year 
in line-item construction, and over about a 10-year period. In 
fact, the priority lists that we have developed talks about a 
five-year period and about $500 million worth of work. So, 
ironically, it's almost a complete departure from the backlog 
concept which was simply a big, long list of projects that we 
tried to go down from year to year. This moves more towards a 
five-year, comprehensive program.
    Now, regrettably, on the other side, I can't say that that 
$5 billion figure isn't real. It is real. There are ways you 
can tackle it and slice it. You can take a billion dollars out 
of it if you say, ``We are not going to build any new 
facilities.'' About $2 billion of it is roads. And so, as 
Director Kennedy testified in the Senate a couple of weeks ago, 
that portion of it probably ought to be tackled by the trust 
fund.
    So you can slice it in different ways. But I'm confident 
that sort of order of magnitude; the number's a pretty good 
number. And we have it broken down; buildings is about $1.6 
billion; utilities is $300 million; resource protection work is 
a billion; roads, bridges, $2.2 billion. So there's a question 
about how you deal with that. But I have a feeling that, as Mr. 
Skaggs--I was there when you made those remarks--I had the same 
thing happen. Miniclear quoted the wrong part of my speech, 
too. [Laughter.]
    Mr. Skaggs. Welcome to the NFL. [Laughter.]
    Mr. Galvin. Right.
    The backlog is there and it's real. The real question is, 
How do we deal with it? And I think that's a question that's so 
big that, you know, it's not going to be the Park Service or 
this subcommittee; the country's going to have to decide what 
to do about its infrastructure. And right now I don't think the 
country wants to do that.
    I read something the other day that said we're spending 
about half what we spent in 1980 on the interstate highway 
system in real dollars. Well, eventually that bill comes due. 
But our new system just basically says, ``Let's assume we've 
got a reasonable amount of construction money. What are the 
highest priority projects that we're going to bring to you 
every year to do that?''
    Mr. Regula. And you have, essentially, a 10-year plan.
    Mr. Galvin. Right. That's correct.
    Mr. Regula. And, hopefully, at the end of 10 years you will 
have worked your way out, to some extent, of the critical 
problems.
    Mr. Galvin. Right. Yes, the highest priority, critical 
problems.
    Mr. Regula. I was interested in your comment in your 
statement here that ``every construction project should 
materially contribute to resource protection, high-quality''--
--
    Mr. Galvin. Right.
    Mr. Regula. I think you said it very well.
    Mr. Galvin. Right. Yes. We have a system in place that 
measures every project by what does it contribute to resource 
protection, visitor enjoyment, health and safety. And, in 
effect, and then at the end, it's divided by the dollar, so 
that you get a benefit for the dollar spent. Incidentally, the 
system tends to favor small-scale historic preservation 
projects. They tend to rise to the top of the list.
    Mr. Regula. Mr. Skaggs?
    Mr. Skaggs. Thanks, Mr. Chairman.
    Good morning. I can't help but observe that Washington 
haberdasheries have probably done a land office business as the 
entire leadership of the Park Service switched back to civilian 
clothes. [Laughter.]
    Mr. Galvin. Well, Senator Byrd said something interesting 
about that some years ago when we were all in uniform. He 
allowed as how he had never seen so many uniforms in a room, 
muttered something about uniform allowances, and said he didn't 
think it improved the quality of the testimony. [Laughter.]
    So, either way. I don't know.
    Mr. Skaggs. Well, it's--enough said on that.
    Mr. Galvin. We're waiting for a new Director so we can get 
a new policy. [Laughter.]
    Mr. Regula. In the meantime they're going to enjoy it. 
[Laughter.]
    Mr. Skaggs. Shorts and knee-socks are the next order of 
business. [Laughter.]

                         financing the backlog

    Let's pick up on the infrastructure issue. I'm interested 
in your thinking on the McCain bill or variations on that 
theme. We're getting a little bit of experience now with the 
increased fees that are a cousin to the McCain idea. But I'm 
intrigued with that idea as a sort of order-of-magnitude jump 
into a frontal assault on this backlog.
    Mr. Galvin. Yes. I thought Director Kennedy outlined the 
portion of the program that looks like it would be responsive 
to that very well in the hearing before Senator Thomas a couple 
of weeks ago. First, that particular approach doesn't work to 
solve the entire problem. It definitely works in some parks. I 
mean, a sort of preliminary run-through that we've looked at 
would say that there may be 70 parks where you would look at 
bonding, if you could capture the revenue that those parks 
collect where the bonding capacity that the revenue generates 
might solve the backlog problems.
    Conversely, if you looked--and this is more the way 
Director Kennedy came at it--if you looked at the revenue on a 
Service-wide basis or surcharges, you could probably finance a 
couple of billion dollars worth of the backlog. So his 
formulation was kind of a three-part formulation. That bonding 
seems to have some place if you can capture the revenues. And 
that is more easily said than done.
    Second, and I mentioned it earlier, the road backlog has to 
be dealt with through the Federal Lands Highway Program. The 
Administration is supporting nearly a doubling of our portion 
of that because they feel the national park system roads are 
deteriorating faster than any other Federal road system.
    The third part, though, would still require a considerable 
increase in the construction appropriation of the National Park 
Service, probably to a doubling of our current levels, maybe a 
tripling.
    Mr. Skaggs. I recognize that, and, first, the political 
liability is maintenance of effort among us in the wake of a 
bonding revenue stream, so that we're not saying, ``Now we 
don't have to do it.''
    Mr. Galvin. Right. And, you know, we went through the 
bonding scenario with the Presidio and there is a bonding 
provision in the Presidio trust bill. But it's subject to 
appropriation. So, you know, we get into Treasury, Ways & Means 
Committee--we went places with that Presidio bill we've never 
been before and it didn't turn out the way we thought it would.

          water rights and wilderness issue at rocky mountain

    Mr. Skaggs. A few more specific or parochial questions. 
We're, I think, waiting for Rocky Mountain National Park to 
make its filing in water court for the water on the western 
side of the park. If you could just put something--or respond 
for the record as to what you think the timetable is going to 
be for getting that accomplished. It's the one thing, I think, 
holding up action on possible park wilderness for Rocky 
Mountain National Park that otherwise I hope will be an 
unobjectionable proposal.
    [The information follows:]

[Page 796 --The official Committee record contains additional material here.]



                      rafting fees at grand canyon

    Some of the non-commercial rafting folks are having some 
heartburn over both the outcome and the process leading to the 
outcome of fees on Grand Canyon.
    Mr. Galvin. Yes.
    Mr. Skaggs. And, again, not to belabor that right now, but 
if you could let me know who would be the appropriate person 
and make them available to meet with some people in Colorado 
who are very much affected by that. Let's see if we can get 
some of that resolved.
    [The information follows:]

[Page 798 --The official Committee record contains additional material here.]


      
    Mr. Galvin. Yes, of the new fees that have been introduced 
at Grand Canyon, it appears that the ones that have the 
potential for the most controversy are the river-runners fee, 
and also the aircraft fee. I know the park has been talking to 
the commercial river-runners. You're talking about running non-
commercial----
    Mr. Skaggs. Non-commercial. At least I'm told that could 
bump the cost of a non-commercial trip fee from $130 to $1,600, 
which is more than the cost of----
    Mr. Galvin. Sounds high. We can get somebody to talk to 
them about that, sure.
    Mr. Skaggs. Thank you.

                     land acquisition of inholdings

    We also recently learned that a family that's got a major 
inholding in Dinosaur is of a mood to talk sale, something that 
you all have been interested in for a long, long time, and now 
they may be. Price is obviously the issue. But, again, if you 
could let us know how we can help bring the appropriate people 
together on that.
    Mr. Galvin. Sure. And at Dinosaur, that would be an 
inholding. So there is discretionary money in this request to 
deal with inholdings.
    Mr. Skaggs. And we also are advised of three relatively 
more modest tracts within Rocky that are now available from 
willing sellers. You don't have anything specifically in your 
request for that, but we've got some opportunities there that 
I'd like to try to----
    Mr. Galvin. Each year there is $3 million requested 
specifically for emergency--$6 million for emergency hardships 
and inholding acquisition. And inholdings have a technical 
definition, parks before 1961. Both parks you mentioned would 
be inholdings and we would have to apply those funds to those 
purchases, assuming they were adequate.
    Mr. Skaggs. I understand that there's more demand than 
supply of money. But these are some opportune----
    Mr. Galvin. Yes, and they tend to be used on willing 
sellers, obviously.
    Mr. Skaggs. And we happen to have both of those willing and 
available. So if we can get our respective staffs together on 
that shortly and see if we can make some progress, that would 
be great.
    Mr. Galvin. Sure.
    [The information follows:]

                       Acquisition of Inholdings

    The National Park Service contact person regarding the 
acquisition of land inholdings at both Dinosaur National 
Monument and Rocky Mountain National Park is Dick Young of the 
Rocky Mountain Land Resources Office, who can be reached in 
Denver at 303/969-2611.

    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Yates.
    Mr. Yates. Thank you, Mr. Chairman.
    Well, Mr. Galvin, I'm glad to see you in the principal's 
chair.
    Mr. Galvin. Acting here, Mr. Yates.
    Mr. Yates. Sorry?
    Mr. Galvin. Acting, here.
    Mr. Yates. Well, whether ``acting'' or not, you're 
certainly at the head of it. You and I go back a long time in 
connection with the administration of the parks and I know of 
your very superb talents in connection with the operation of 
the Park Service. I think you've been a big factor in keeping 
it on the high level that it occupies.
    Mr. Galvin. Thank you, Mr. Yates.

                              ellis island

    Mr. Yates. I'm interested in the announcement I read a few 
days ago that Ellis Island was proposed to be divided between 
New Jersey and New York. Where does that leave the National 
Park Service?
    Mr. Galvin. Well, basically it's a longstanding dispute----
    Mr. Yates. Of course, we know about that.
    Mr. Galvin [continuing]. That's been flaring up again. A 
decision had been previously made that is now being litigated. 
And the decision made by the master the other day is 
essentially the decision that had been made more than a century 
ago--that the fast land belongs to New York and that the filled 
land belongs to New Jersey. Since it's all Federal 
jurisdiction, it really doesn't affect us. Now, when you start 
talking about building bridges and that sort of thing, perhaps, 
but even there our lawyers suggest that it's Federal 
jurisdiction, not exclusive jurisdiction, but Federal 
jurisdiction.
    Mr. Yates. Well, but they are talking about building 
bridges. They're talking about building a bridge from New 
Jersey.
    Mr. Galvin. Right.
    Mr. Yates. And I think they're moving actively in that 
direction, as I remember what Senator Lautenberg, proposes to 
do. I think the Senate is kind of backing him up.
    Mr. Galvin. Well, the funds were rescinded for that. So 
there's no current active proposal to build a permanent bridge. 
There is, of course----
    Mr. Yates. No pressure at all?
    Mr. Galvin. Well, I didn't say no pressure. [Laughter.]
    Mr. Yates. Well, no money.
    Mr. Galvin. No money and----
    Mr. Yates. Well, there will be pressure to put the funds 
back.
    Mr. Galvin. Well, certainly the pressure to build a bridge 
has not gone away, to build a permanent bridge. There is a 
construction bridge there that's not adequate for public 
access.
    Mr. Yates. Well, what's the status of it? You still have 
jurisdiction over the island?
    Mr. Galvin. Yes, we do. Nobody's suggested anything to the 
contrary.
    Mr. Yates. Okay. And what about the controversy that 
existed about the collection of fees between--what was the name 
of that private organization?

                        ellis island foundation

    Mr. Galvin. The Foundation, the Ellis Island Foundation. I 
believe that has been resolved amicably.
    Mr. Yates. To what end?
    Mr. Galvin. That the Foundation will be the principal 
fundraiser for the projects that the other group wants to 
build. In other words, the Family History Center, which was the 
objective of the second group's fundraising, will be built. But 
the Ellis Island Foundation will raise the money for it. And I 
think there is an agreement between parties that that's the way 
it will be done and the fundraising is underway.

                           park entrance fees

    Mr. Yates. All right. Let me invite your attention next to 
the question of entrance fees to parks. I was kind of shocked 
when I saw the level of some of the entrance fees. What was it, 
$10 in some parks? That's a lot of money, isn't it, for a usual 
family?
    Mr. Galvin. Well, for a family it gives a week's access to 
a national park. So----
    Mr. Yates. But it's the same price for a two-member family 
as for a five-member family.
    Mr. Galvin. Well, it varies. The $10 fee is for a car full 
of people. And that is----
    Mr. Yates. Whether it be one person or five?
    Mr. Galvin. Correct.
    Mr. Yates. Okay.
    Mr. Galvin. Now, there are different charges for individual 
entries: people who walk into parks, bicycle into parks, 
motorcycle into parks. There is a per-person charge as well 
that would be lower than $10. For people who use a park, say, 
like Shenendoah is a good example, over and over again, there 
is a $20 annual pass. And there is, of course, the $50 for 
people who visit parks all over the System. For $50 for a year, 
you get into all parks in the System for a year.
    We think it is not unreasonable and we have instituted it 
in a lot of parks and have had very little to almost no 
criticism of the public. Mr. Skaggs was at Rocky Mountain two 
weeks ago. I was there as well. They have had no adverse 
comment on that $10 fee.
    Mr. Yates. Have you had any drop in the number of visitors?
    Mr. Galvin. No, and in fact our revenue collections are up 
$6 million over where they were last year. Part of that has got 
to do with the shut-down.

                              fee revenues

    Mr. Yates. What's the total of the revenue you have 
collected in all the parks?
    Mr. Galvin. Bruce.
    Mr. Sheaffer. The projection is that we will make about an 
additional $40 million off of this demonstration program for a 
total of about $130 million.
    Mr. Yates. A hundred-and-thirty million collected from all 
the parks?
    Mr. Sheaffer. That is our projection for the first year of 
the demonstration program, yes.
    Mr. Galvin. For 1997.
    Mr. Sheaffer. For 1997.
    Mr. Yates. That's pretty good.
    Mr. Sheaffer. That's very good.
    Mr. Galvin. And we project higher than that, probably $140 
million next year.
    Mr. Sheaffer. But we are collecting about $80 million right 
now under the old authority.

                         yosemite national park

    Mr. Yates. Yes. Has Yosemite been opened again?
    Mr. Galvin. Yes. Yosemite opened on a limited basis a 
couple of weeks ago. People are being brought into the park 
under managed circumstances.
    Mr. Yates. You mean buses?
    Mr. Galvin. More let in in private automobiles to the 
valley. Other parts of the park are open. The Mariposa Grove is 
open as it always was. It was not substantially damaged in the 
flood. The valley was. And it is open, but it can carry far 
fewer visitors as a result of the flood, and that will be the 
way it will be this summer.

                              park safety

    Mr. Yates. The committee's always been interested in the 
question of safety of the visitors. You said the roads are in 
bad condition in many of the parks. Is that because you're not 
getting enough money to fix them, or because you can't do it?
    Mr. Galvin. They're deteriorating; we're getting about $80 
million a year out of the Federal Land Highway Program. The 
estimates done for us by the Federal Highway Administration 
indicate we need about double that to stop the deterioration of 
park roads and----
    Mr. Yates. Are there any park roads that are unsafe?
    Mr. Galvin. I would say generally not, Mr. Yates. If they 
are unsafe, we would close them.
    Mr. Yates. What about the bridges?
    Mr. Galvin. We have about 1,500 bridges. We inspect them 
regularly; if they were unsafe, we would close them. They need 
work, they certainly need work; we're going to have to invest 
in them.
    Mr. Yates. What about dams?
    Mr. Galvin. We have a dam safety program administered by 
the Department. We are requesting money in this budget to 
rehabilitate several dams. We have done most of the high 
priority dams in the System; the ones that have the highest 
hazard ratings have been taken care of.
    Mr. Yates. What about drinking water and toilet facilities?
    Mr. Galvin. Generally speaking, in good shape. There are 
exceptions; we have a major request in here for Lake Mead. The 
Subcommittee funded a request last year to correct waste water 
treatment problems at Lake Mead. We have requests in here for 
Lake Mead, for water and sewer systems. You may well remember, 
Mr. Yates, when you were working with us on the Park 
Restoration and Improvement Program, we placed pretty high 
priority on utilities, and as a result of that backlog we were 
talking about earlier, it is the smallest portion of the 
backlog.
    Mr. Yates. That's good.
    Mr. Galvin. We've got a water system here at Flamingo in 
Everglades as well.

                               dam safety

    Mr. Yates. There were several dams that were considered 
dangerous some years ago. Have they been corrected?
    Mr. Galvin. We have taken care of the highest hazard dams. 
Now, one thing I'd like to say about the Dam Safety Program; 
when people talk about dams, they think about Glen Canyon. 
Generally, these are relatively small catchments upstream of 
parks, and they are rated by the Bureau of Reclamation with 
respect to hazard. If they are high hazard dams, we have the 
option of simply draining them and we do that. If they're 
functioning dams, we would drain them until such time as we 
could correct their safety, and we have requests in here at 
both Delaware Water Gap and the Blue Ridge Parkway to repair a 
couple of hazard dams. But we've been at it for quite awhile 
and we're down to 42 on the Department of Interior's list.
    Mr. Yates. Thanks, Mr. Chairman.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.

                    interpretation at trail of tears

    I would like to reiterate, Mr. Galvin, for the record what 
I shared with the Secretary when he was here before us. I'm 
about a perfect mix of German and Cherokee Indian blood; going 
bald because of my German blood; I wished I had more Cherokee 
Indian blood at times.
    Mr. Regula. Especially the benefits that come with that. 
[Laughter.]
    Mr. Wamp. Thank you, sir.
    I shared with the Secretary, though, of our desire to 
interpret the Trail of Tears--and actually, Mr. Yates, I think 
is going to hang around here long enough in the Congress to 
help me with this; I hope so anyway.
    Mr. Yates. Well, it will have to be done this Congress.
    Mr. Wamp. Okay, Mr. Yates.
    Mr. Yates. All right. Let's you and I drive for that end.
    Mr. Wamp. Okay, let's try to do all we can in this 
Congress, but I'll need the National Park Service's help. There 
in Chattanooga, where I live the round-up really brought Creek 
and Cherokee Indians in 1836 and 1837. I think, to Chattanooga 
to begin the Trail of Tears and the removal there, which I 
think was very unfortunate. And the authorization exists to 
interpret the Trail of Tears, and I will be pursuing as soon as 
possible--we're formulating the plans, with the cooperation of 
a variety of interests there, to preserve the Moccasin Bend 
area in Chattanooga where Secretary Babbitt came and toured and 
promoted this idea as well. I think it's a great idea to 
interpret the Trail of Tears from that point to Oklahoma, and 
actually, then appropriate some of the necessary funding to do 
that. And I hope you'll work with us and cooperate there.

                     park entrance fees for locals

    And the only question I have is that the entrance fee issue 
affects a lot of people that aren't traveling, that aren't 
tourists. In small venues, for instance, at Point Park at the 
tip of Lookout Mountain overlooking Moccasin Bend, a very small 
park. Where a $2 entrance fee is not a big deal unless you are 
a senior citizen that lives next door and you actually walk 
through there everyday on your regular pass. And then you have 
the option, I think, of buying a $20 annual pass, but let's say 
that some walk casually. I just think there ought to be a 
monitoring. And I hope you'll address in kind the upkeep of 
this initiative, so that we can look at little cases and see 
what exemptions or exceptions or new rules could be 
implemented, so that it's not an onerous thing for locals that 
may use these natural resources. And that sensitivity is all I 
would ask for and ask you to comment on that for the record.
    [The information follows:]

               Park Entrance Fees Paid by Local Visitors

    For a one-time fee of $10, all U.S. citizens and permanent 
residents age 62 and older are eligible for a Golden Age 
Passport. This lifetime pass admits the pass holder to all NPS 
areas that charge an entrance fee, including fee demonstration 
parks.
    The national park areas participating in the recreation fee 
demonstration program continue to provide for local use through 
the offering of annual passes as an alternative to daily fees. 
At Chickamauga and Chattanooga National Military Park, local 
residents and frequent visitors may purchase a pass for $20 
that allows the pass holder unlimited recreational visits for a 
one year period. For those persons who visit multiple national 
park areas within the same twelve-month period, there is the 
option of purchasing a Golden Eagle Passport for $50.

                           park entrance fees

    Mr. Galvin. I'd certainly would be glad to. There are a 
number of provisions, particularly for senior citizens. Senior 
citizens can buy a one-time $10 Golden Age Passport which then 
allows them for the rest of their life to enter parks free and 
to get substantial reductions in user fees in all parks, 50 
percent reductions in user fees. So that's one option.
    You mentioned the $20 annual pass, which is another option, 
and the $2 daily fee. I would say that the authority that this 
Subcommittee gave us on the Recreation Fee Demonstration 
Program permits the kind of flexibility you're talking about. 
We've tried to be very careful with our public involvement, to 
make sure that the local people support this.
    The money does come back to the park, 80 percent of the 
money. The new money collected comes back to the park, so we've 
had a lot of public support, but we certainly know about that 
situation, and we'll be willing to work with you to make sure 
that the public supports the fee structures that we have.
    Mr. Wamp. Thank you, Mr. Galvin. I'll look forward to 
working with you in the years to come, and I'll yield back, Mr. 
Chairman. Thank you.
    Mr. Regula. Mr. Nethercutt?
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, Mr. Galvin, and all of your staff.
    I'm not offended by the fee structure changes.
    Mr. Galvin. Good. [Laughter.]
    Mr. Nethercutt. I think it's a good thing. I happen to have 
bought a $25 annual family pass. We went to Great Falls----
    Mr. Galvin. Beat the deadline.
    Mr. Nethercutt. Yes, I did. [Laughter.]
    We went out to Great Falls Park a number of times with my 
family. We happened to be down in Williamsburg and went through 
the park in that area. The program is a pretty good deal. Now 
it costs $50, and that's not offensive to me. For a family, for 
all the parks in the country, if you're traveling across 
country, that's a pretty good deal.
    Mr. Yates. It was better in the old days.
    Mr. Nethercutt. Oh, I'm sure. [Laughter.]

                     new fee demonstration program

    Mr. Galvin. Well, as I say, the new fees are in effect in a 
substantial number of parks; some of them went into effect in 
January. As an example, at Yellowstone the fee for a snowmobile 
tripled, from $5 to $15. And people, if they know it's going to 
stay in the park, they have been very supportive.
    Mr. Nethercutt. That's a very good program that you've 
undertaken, part of which was in effect out in my district, the 
fifth of Washington, at Lake Roosevelt. I think the idea of 
using those fees for renewal efforts in the parks from which 
they are generated is a good program. I'm on record as saying I 
think the fee structure arrangement is a good one, and it makes 
sense in today's market.

                 construction costs of employee housing

    I want to ask you, though, about the issue of construction 
costs. I was looking through the budget documents that were 
presented here and noticed that it's a big ticket item. I know 
that Secretary Babbitt addressed that in a discussion with me 
when he was here a short time back. I'm concerned about the 
excessive cost of Federal construction of employee housing in 
the parks. The Inspector General came out with a report on 
December 11 really quite clearly emphasizing what appears to be 
construction costs that are out of line with the private 
sector. I'm wondering if you've looked at that, if you could 
comment on it for the record here.
    Mr. Galvin. I sure have, Mr. Chairman, and was deeply 
involved in the discussions with the Inspector General's report 
and, in fact, with those projects that they cited. The audit, 
as you know, was on Yosemite and Grand Canyon.
    We are doing some things to take a look at that. For that 
very reason we have not requested any line-item construction 
for housing in this budget, so we can go back and take a look 
at the cost of housing.
    The best answer for park housing is to get out of the 
business. Now, regrettably, we can't do that every place. The 
great bulk of our housing is in the West. We have relatively 
limited amounts of housing, as you might expect; very little in 
the National Capital Region and in the parks of the Northeast 
or the Southeast. What we're left with are parks like Yosemite 
and Grand Canyon where, if we could find a good alternative to 
building Government housing, we would.
    In the Omnibus Bill we got additional authority to work 
with the private sector to allow them either to build housing 
inside parks or outside parks. We're going to look at where 
that is applicable; it's not applicable everywhere, but in a 
place like Rocky Mountain it might be. It might be possible to 
get a developer to build housing outside parks that we would 
then lease and have Government employees stay in.
    The hardest problem, though, is in those areas where there 
doesn't seem to be any alternative, and I would take some issue 
with the way the IG structured the comparison with the private 
sector. I've lived at Grand Canyon, and I've worked in 
Yosemite, and building a house in Flagstaff is not the same as 
building a house in Grand Canyon.
    For one thing, a contractor either has to ferry his 
employees 200 miles a day or he has to find housing, lodging 
for them, in Grand Canyon, and there is none. So, you've either 
got to move in--you've either got to rent motel rooms, move in 
a trailer village, et cetera. And just generally speaking, all 
other things being equal, it would be more expensive to build a 
house in a national park. When you add in the environmental 
constraints we put in place, it adds to that.
    Now, none of that justifies not looking carefully at costs, 
and we intend to do that. We've had better results more closely 
akin to industry costs in rehabilitating housing; it's more the 
cost of new housing that seems to be a problem.
    Also, management decisions enter into it. If we built more 
multiple-unit housing rather than single-family housing, it 
would lower the unit cost. But we are taking a look at that and 
hope we can do better, and we haven't requested any housing in 
this budget as a result of that.
    Mr. Nethercutt. My understanding is that the Park Service 
agreed to take a look at the housing needs on a park-by-park 
basis. Has that been done?
    Mr. Galvin. Right. We're in the process of doing that; it's 
in process. We've done it in some places, and we are continuing 
to do it in, I think, another 50 parks this year.

                   contracting out for park services

    Mr. Nethercutt. In the same line of questioning relative to 
costs and trying to keep costs as effective as possible in the 
way you do your work, to what extent has your agency looked at 
contracting out for park services: maintenance, garbage pick-
up, that sort of thing? To what extent have you looked at it, 
and if you've looked at it, to what extent do you think it can 
work--as a cost-saving but also as an efficiency?
    Mr. Galvin. We do it in some places. For instance, there's 
a very sophisticated mechanical plant on Ellis Island that 
maintenance--virtually all of the maintenance on Ellis Island--
is done through a contract. Now, there, you're sitting in the 
middle of New York City; it's easy to find sophisticated 
contractors. It's a little bit more difficult at a place like 
Lake Roosevelt.
    We did have a program some years ago--in fact, it's still 
on the books--called A-76 that basically requires us to compare 
ourselves to the private sector. When we were implementing that 
in western parks, we found mostly that the Park Service did the 
job cheaper than private industry, again, largely because we're 
working in remote locations and the cost of a private 
contractor to sustain an operation 100 miles from town turned 
out not to be competitive.
    Mr. Nethercutt. When was that analysis completed?
    Mr. Galvin. We were doing a lot of that in the mid-
eighties, and we actually went to bid. I mean it required you 
to go in effect to a bid, open up sealed bids. The contractor 
had a bid, and we had a bid. So, we do it in places; it does 
not seem to be the answer every place.
    Mr. Nethercutt. Is there a formal analysis being done or 
will there be one? Do you plan one for the next fiscal year 
particularly?
    Mr. Galvin. Not on a comprehensive basis, no, other than 
what we were talking about earlier with the Government 
Performance and Results Act.
    Mr. Sheaffer. OMB is considering revitalizing the A-76 
effort that may very well result in a comprehensive effort on 
selected commercial-like activities in the Park Service.
    Mr. Galvin. Right. And we are in active discussions with 
them about some of our functions. Mr. Raines, who the Chairman 
was talking about earlier, has encouraged us to look at some of 
our functions and see if they could be done better, not 
necessarily more cheaply, by the private sector.
    Mr. Nethercutt. Sure. I'm just thinking in terms of looking 
at your maintenance backlog, it is advisable, I would suggest, 
to look at whatever cost-saving measures you might be able to 
employ in order to maybe put some of that money towards 
maintenance.
    Mr. Galvin. Sure.
    Mr. Nethercutt. Well, thank you and thanks for your work; 
the parks are a great national treasure----
    Mr. Galvin. We believe that, too.
    Mr. Nethercutt [continuing.] And I'm a user, so I'm a 
consumer and enjoy it very much. I wish you well.
    Mr. Galvin. Thank you.
    Mr. Regula. Thank you.

                            employee safety

    Mr. Yates touched on the safety issues. I noted, I think, 
in your report that 12 of your employees lost their lives last 
year?
    Mr. Galvin. Yes.
    Mr. Regula. Is this individuals or was there something 
about the characteristics of the machinery or the parks or 
something that contributed to that?
    Mr. Galvin. Well, of the most recent employee fatalities, 
one was an avalanche. We've had a fatality associated with a 
snowmobile patrol and a fatality associated with a drowning on 
a canoe patrol. The more general picture, apart from the 
fatalities of employee safety as opposed to visitor safety, 
which Mr. Yates brought up, is something that the Service 
simply has to improve on, and, in fact, was the subject of my 
remarks to the Intermountain superintendents several weeks ago 
that Mr. Skaggs alluded to.
    Our lost time record is twice that of the Department's; it 
is comparable to the mining industry, and it is greatly in need 
of improvement. We have been working with the Dupont 
Corporation, which has an exemplary safety program, to begin to 
emphasize again, as we did in the past, the safety of our 
employees. We do a much better job with visitors than we do 
with our employees, and it is a priority item of mine and 
Maureen Finnerty's, the Associate Director of Operations, to 
get us back to a reasonable safety frequency.
    The Dupont Corporation safety frequency is 1/100th of ours; 
that is, they're 100 times better, and this is an operation 
that works with chemical plants and explosives. So there's 
enormous room for improvement here, and we intend to make it an 
important issue. It's not a question of money; in fact, it's 
quite the other way around. We're spending $15 million on 
compensation, and much of it is not high-risk behavior; it's 
unsafe work practices as opposed to mountaineering accidents or 
things like that.
    Mr. Regula. Yes, but 12 deaths doesn't reflect what you 
have in lost time from injuries, and so forth.
    Mr. Galvin. Right. Right. And of course the theory is, if 
we pay more attention to safety, it'll all come down: the lost-
time accidents, the fatalities.

                             visitor safety

    Mr. Regula. How about visitors? Have you had any unusually 
large number of problems with visitors?
    Mr. Galvin. I don't believe so, Mr. Chairman, and, in fact, 
in our review of safety one of the things we've turned up is 
that we do full investigations of visitor accidents, but we 
have not consistently done full investigations of employee 
accidents. So, one of the things we hope to improve is to apply 
the standards we use for visitors to our own employees.

                          education initiative

    Mr. Regula. I was interested--you mentioned development of 
outreach services to take to the public some of the features of 
the parks for those that can't visit, and I wonder if you'd 
just amplify on that, because I've always had an interest in 
trying to make these marvelous things available, if nothing 
else, on a computer, or whatever, to the general public.
    Mr. Galvin. Yes. Well, that's an important part of what we 
call the education initiative. I have to credit Director 
Kennedy with this idea. With his strong background in the 
education area, he saw that much of what we produce to 
interpret in parks could be of great use in school systems and 
academic institutions, et cetera.
    Some of the examples we've been thinking about are things 
like the Underground Railroad, an important part of African-
American history; the Civil War, where in parks we interpret 
the Battle of Antietam or the Battle of Gettysburg or a site 
associated with the Underground Railroad. It would seem like it 
would be a relatively easy step to pull that up into a package 
of materials on the Civil War that could be made available to 
college classes and that could be made available to grammar 
schools, either using the Internet or developing printed 
materials or videos, so that these classes far from Gettysburg 
could use the materials that we've already developed.
    We have asked for a modest increase to support a prototype 
initiative next year, but we are relying heavily on the 
National Park Foundation to fund prototype projects of that 
type. We expect to start that before this fiscal year is over.
    Mr. Regula. I'm very pleased to hear that, because it does 
expand the outreach and makes these resources that all people 
support available.
    Mr. Galvin. And that was precisely the Director's idea.

                   gettysburg national military park

    Mr. Regula. Just as a footnote, one of the members--and I 
don't recall who said they stopped at Gettysburg and visited 
both the battlefield and the Eisenhower home, and they were 
very pleased with the way everything was handled up there.
    Mr. Yates?
    Mr. Yates. Yes, Mr. Chairman, on that point, I look at a 
press statement from the Salt Lake Tribune that's very 
critical--the headline is ``Gettysburg is Losing the Endless 
Battle with Deterioration.''

    Mildew streaks the leather flap of an Army cartridge pouch; 
red rot crumbles another; in the steel storage drawer, rust 
spots. As park rangers of Gettysburg National Military Park 
brace for a seasonal onset of more than 1.7 million visitors, 
an important part of Civil War heritage is disintegrating; some 
call it the second battle of Gettysburg, and this time both 
sides are losing. Overwhelming odds, park officials, led by 
Superintendent John Latscher, say that they face overwhelming 
odds in their struggle to preserve and protect this park. They 
say current funds are not enough to stop the deterioration of 
many of the 1,300 monuments and statues and 400 canons 
scattered about the battlefield park, the second--the largest 
and most visited of the Nation's 24 Civil War parks.

    What do you say in response to this? Apparently, your 
superintendent doesn't agree with that assessment. Let me see 
what he said here, ``I'm behind, and I don't think I'll ever 
catch up,'' said Gettysburg chief ranger, Brian Fitzgerald, 
``We're past the point of irreparable damage; we're barely 
keeping our noses above water.''
    That sounds like he's having a hell of a time.
    Mr. Galvin. Well, we've had for a long time a collections 
problem in Gettysburg. As you know, Mr. Yates, we have an 
extensive collection of Civil War artifacts there that have 
been stored in substandard conditions for years; it is not a 
new condition. We have attempted----
    Mr. Yates. Why don't you correct it? No money?
    Mr. Galvin. Well, money is a problem, but we have a 
potential solution that does not necessarily rely on 
appropriated funds.
    We have currently a Request For Proposals out on the street 
to see if we can get somebody in the private sector interested 
in essentially developing, in cooperation with us, a visitor 
center museum and a collection facility that would be styled as 
a museum of the Civil War, with the notion that they would also 
develop some kind of commercial facility that would generate a 
revenue stream to justify their investment.
    Mr. Yates. Have you ever asked us for that kind of a 
visitor center?
    Mr. Galvin. Not recently. The visitor center----
    Mr. Yates. Well, how far back does your request go?
    Mr. Galvin. Oh, I don't think we've asked for a visitor 
center at Gettysburg in 30 years. The visitor center that is 
there was built in Mission 66, so it dates from some time 
between 1956 and 1966.
    Mr. Yates. Well, you're going to be. That motion picture 
Gettysburg was a wonderful motion picture, and I suspect that 
you're going to get a flood of visitors into Gettysburg, and if 
the condition is as bad as this article describes, they're 
going to be terribly disappointed.
    Mr. Galvin. We have on our current priority list a project 
to protect the historic structures at Gettysburg that will be 
in the five-year program.
    Mr. Yates. But what about the interpretation, I visited 
Gettysburg, oh, maybe 20, 25 years ago. And as I remember from 
my experience there, it was a wonderful experience, because the 
interpretation center had the battle in lights and----
    Mr. Galvin. Yes. Well, you're right. You visited it 25 
years ago and the electric map is still there and the cyclorama 
is still there, and they all need attention and care; this 
Request For Proposals is designed to deal with----
    Mr. Yates. How much money do you need? I'd be in favor of 
trying to get you that money. Wouldn't you, Mr. Chairman?
    Mr. Galvin. Well, we're going to see----
    Mr. Regula. Well, I want to hear the amount first. 
[Laughter.]
    Mr. Galvin. And I'm not going to give you the amount. 
[Laughter.]
    Mr. Yates. Well, you give it to me.
    Mr. Galvin. Seriously, we do have a request out on the 
street to try to see if the private industry is interested in 
developing, in partnership, a facility that will both generate 
revenue for them and also take care of the collections problem, 
the cyclorama and the electric map for us, and then we would 
remove those facilities from their current locations.
    Mr. Yates. Have you had a concessionaire at Gettysburg?
    Mr. Galvin. No, we don't, I don't believe.
    Mr. Yates. Where do visitors stay? Is there a hotel?
    Mr. Galvin. They stay in private accommodations throughout 
towns. We do have, Bruce points out to me, a request to 
increase our collections care of $873,000 in this request.
    Mr. Yates. How much money do you need to put Gettysburg in 
the shape that the chief ranger says is needed? Well, is the 
chief ranger here?
    Mr. Galvin. No, he's not, Mr. Yates.
    Mr. Yates. Is his superintendent here?
    Mr. Galvin. No, Mr. Yates.
    Mr. Yates. You're the only one who can speak for this? You 
don't know----
    Mr. Galvin. Well, if anybody else wants to speak--perhaps 
Kate Stevenson would like to speak. [Laughter.]
    Mr. Yates. Well, is this under your jurisdiction----
    Mr. Galvin. I would estimate the collection needs at 
Gettysburg to be on the order of $10 million, just the 
collection needs alone, not the redevelopment.
    Mr. Yates. The collection needs alone?
    Mr. Galvin. To do a proper storage facility and develop a 
museum of the Civil War.
    Mr. Yates. Well, we're building an Indian museum to protect 
Indian artifacts.
    Mr. Regula. Maybe. [Laughter.]
    Mr. Yates. Well, I don't know how you can stop it; you're 
two-thirds there. Just don't put the roof on.
    Gettysburg is, to my mind, as an important historical 
artistic center as any place in the country.
    Mr. Galvin. And we agree with that.
    Mr. Yates. I've been holding this open for you, Jim 
[speaking to Mr. Moran].
    Mr. Moran. I see. Do you want to filibuster a little, Sid? 
Thank you.
    Mr. Yates. Are you guessing at $10 million? Is that your 
rock-bottom figure?
    Mr. Galvin. Yes.
    Mr. Yates. Why do you say that?
    Mr. Galvin. Actually, on our list here we have an $8 
million project at Gettysburg on our backlog list. So, of the 
$5 billion backlog, the projects that represented here for 
Gettysburg are 6.8--$7 million.
    Mr. Yates. Okay. What are the prospects of your getting a 
private entrepenuer?
    Mr. Galvin. We'll know better in about 60 days. The 
proposals close in 60 days. I think the prospects are fair.
    Mr. Yates. What does the plan encompass? How much money 
will a visitor have to pay in order to enter this place?
    Mr. Galvin. Well, we can structure it in any number of 
ways, and obviously, that will be the result of the negotiation 
with the responders, but you could structure it so that parts 
of it were free. For instance, if it was in conjunction with an 
IMAX theater, you could do a film which charged admission to 
the IMAX theater, but you could presumably get into the museum 
portion free.
    Mr. Yates. When will you know what you're going to do? 
Sixty days?
    Mr. Galvin. Oh, about 60 days, I think is when the 
proposals close.
    Mr. Yates. Is there any way you can notify the committee--
    Mr. Galvin. Sure we can. Absolutely. In fact, we want to 
keep the committee informed, because that proposal, by the way, 
has been very controversial in Gettysburg.
    [The information follows:]

  Status of Private Proposals for Development at Gettysburg National 
                             Military Park

    Proposals for the new visitor center/museum complex for 
Gettysburg National Military Park are due on May 9, 1997. A 
National Park Service evaluation team has been selected to 
review submissions and recommended the best proposal. Issues 
related to the private development of the Park are complicated, 
including considerations of the extent to which Park control 
and integrity will be compromised should funding be dependent 
on partners, and fear of lost revenue to merchants in the 
vicinity of existing facilities. Also, the procedure for the 
Requests For Proposals (RFP) has been challenged. However, 
careful strategies and criteria allow for protection of park 
purposes and effective NPS control. The RFP was thoroughly 
reviewed within the NPS, and by solicitors in both the 
Department of the Interior and the General Services 
Administration.

                        cost of safety programs

    Mr. Yates. Well, now, one last question, Mr. Chairman.
    How much money do you need to make your safety program 
comparable to the Dupont program?
    Mr. Galvin. I think with respect to employee safety, we 
have the resources to do that. It's not a question of money; 
it's a question of management, attention, and development of 
the program.
    Mr. Yates. What about visitor safety?
    Mr. Galvin. I think we're in good shape on visitor safety, 
much better shape than we are on employee safety.
    Mr. Yates. Is the budget that you're presenting to the 
committee adequate for your purposes?
    Mr. Galvin. It's adequate to maintain the National Park 
System without significant closures and it forestalls 
deterioration.

                              omb request

    Mr. Yates. How much did you ask OMB for?
    Mr. Galvin. More. [Laughter.]
    Mr. Sheaffer. We don't have those numbers with us, but we 
would be glad to provide them to you.
    Mr. Yates. Did you get what you wanted from OMB?
    Mr. Galvin. We feel this is a very--in these budget times--
--
    Mr. Yates. I'm not asking you that, Denis; I'm asking you 
did you get what asked for from OMB?
    Mr. Galvin. Probably not.
    Mr. Sheaffer. Not entirely; no, sir.
    Mr. Yates. Not entirely? How much did you lose?
    Mr. Sheaffer. I don't have the exact figure; I'd like to 
provide it to you.
    Mr. Yates. All right, that can be provided, but what's your 
guess?
    Mr. Sheaffer. We lost substantial amounts in the operating 
budget that the Secretary was requesting for the park service; 
he requested considerably more than what we wound up getting.
    Mr. Yates. Put that in the record. Thank you.
    [The information follows:]

[Pages 813-814 --The official Committee record contains additional material here.]


    Mr. Regula. Mr. Moran, this is the only vote today. This is 
it; that's what they advised me. Now, either you can take five 
minutes now or, if you prefer, we'll go over and vote and come 
back and you'll have more time.
    Mr. Moran. You would prefer, though, that I close it up 
right now, I'll bet.
    Mr. Regula. Well, I'm going to keep going; I have a number 
of questions yet.
    Mr. Moran. Oh, okay. Well, then we could just vote and then 
come back. Sure. Okay.
    Mr. Regula. Okay, I didn't know what your time constraints 
were.
    Mr. Moran. No, that's fine. I wanted to accommodate--good, 
very good. Thank you.
    [Recess.]
    Mr. Regula. Okay. The committee will reconvene.
    And Mr. Moran?
    Mr. Moran. Well, thank you very much, Mr. Chairman. Mr. 
Dicks and I have talked about the B-2, so let me get back here 
on track, something more constructive maybe.
    Mr. Regula. Is Norm trying to talk you out of voting for 
it? [Laughter.]
    Mr. Moran. Oh, yes. Sure. [Laughter.]
    Mr. Dicks. That would be wrong. [Laughter.]

                   george washington memorial parkway

    Mr. Moran. All right. Mr. Galvin, the George Washington 
Memorial Parkway, we've had six fatalities just in the last 
year, and many more people injured. The reason is speed 
primarily, but do you know there's only one park police officer 
assigned to the whole GW Parkway, as far as I can tell. And we 
have looked within this budget to find out how much is devoted 
to the Park Police, and we can't find it. I was hoping to see a 
decent increase, and yet we can't even find the budget amount.
    The Park Police assigned to the Washington, D.C. area are 
housed in a former bathhouse in Haines Point. You might think 
that might be enjoyable, but it's not particularly--there's 
fertilizer, and they've got gasoline, and so on, underneath 
their building, which of course is used for the golf course at 
Haines Point. The people that are assigned to the GW Parkway 
and the Clara Barton Parkway, which gets more traffic probably 
than all your other Park Service roads combined, they are 
housed in a former amusement park. They were told that they 
were going to be moved out of that years ago, but nothing has 
occurred.
    I'm talking a little bit here, so you can get the numbers 
together there, because I want you to tell me how much of an 
increase is provided for to ensure that we start efforts to 
reduce the speed and the reckless driving on both the GW 
Parkway and the Clara Barton Parkway. We are putting median 
boundaries on the GW Parkway, but that's only an expedient, 
temporary measure.
    I don't want to spoil what is a beautiful, historical 
parkway with high barriers that don't fit, either aesthetically 
or even from a transportation standpoint, but unless we can get 
some adequate police enforcement and get people paying their 
speeding tickets, that's the kind of thing we're going to have 
to do. So, I'd like to know what we're going to do about the 
short-handed supply of Park Police officers in the Washington 
metropolitan area?
    Mr. Galvin. Well, the Park Police are displayed in the 
budget on page 156. The increases that are in the opening 
statement characterize the nature of the increases for all 
parks, including the Park Police. What they get, from 1997 to 
1998, we've requested their pay increase; we've requested a one 
percent across-the-board increase.
    Mr. Moran. A one percent increase?
    Mr. Galvin. A one percent increase in addition to their pay 
increase, and that's similar to all parks in the National 
Capital Region. In addition, I believe, there's a $300,000 
increase in their pension--all of which gets them to a total of 
$62.3 million, including the pension.
    And I would say, just for the record, that as we look back 
in history, we find that in park operations the Park Police 
budget is the most rapidly expanding portion of the park 
operation's budget; they've had a 40 percent real-dollar 
increase since 1987.
    Now, to be sure, we fight a race against more traffic, and, 
as you point out, more speed, but we have tried to treat the 
Park Police fairly in our budget, and I believe the record 
shows that we have.
    Mr. Moran. Well, your record may, and I'm not surprised 
that I didn't find it--it's this one line that says ``National 
Capital Field Area,'' and I don't see any figure for $62.3 
million.
    Mr. Galvin. That includes the pension. It's $48 million of 
operating funds plus $14 million for pension.
    Mr. Moran. Well, I don't know where--on page--well, I don't 
see where it is that you're pointing to, but, nevertheless, if 
this is all you have, this one chart that covers the whole area 
with no written----
    Mr. Galvin. Somebody back here is saying it's not the only 
place, so we'll sort that out.
    [The information follows:]

                    U.S. Park Police Budget Request

    The narrative justification of the current U.S. Park Police 
program and the FY 1998 budget request is presented on pages 
NPS-70 and NPS-71 of the National Park Service's FY 1998 Budget 
Justification to Congress. A discussion of pension funding for 
the U.S. Park Police appears on page NPS-110.

    Mr. Moran. Well, okay, if you can find it, that would be 
helpful, but let me try this again. You say there's been a 40 
percent increase. We have one Park Police officer with outdated 
equipment to cover the entire GW Memorial Parkway. The money 
may be put in there, and I'm not as concerned about the money 
as the way the money is being used; there's been no increase in 
police enforcement.
    Mr. Galvin. Yes, the change from 1997 to 1998 does not 
contemplate an increase beyond what inflation you would expect.
    Mr. Moran. Well, we've had seven fatalities in one year, a 
lot more injuries, and we still have one Park Police officer 
assigned to the whole parkway; that's inadequate.
    Mr. Galvin. Well, I'll get you the facts on the actual 
numbers assigned. We have beefed up the coverage because of 
that situation, and as you point out, we are trying to make 
some design changes to improve the situation.
    [The information follows:]

     Park Police Patrols on the George Washington Memorial Parkway

    Given the current staffing levels and required areas of 
coverage, the U.S. Park Police provide two patrol officers, per 
each of three shifts, to monitor traffic and enforce speed 
limits on the George Washington Memorial Parkway from Route 495 
to Mount Vernon.

                           belle haven marina

    Mr. Moran. I hate to be parochial, because I've got a lot 
of National issues I'm interested in, but no one else is going 
to raise these issues if I don't. We put $200,000 in the budget 
last year for the Belle Haven Marina; none of it has been 
spent; we don't see any cooperation in terms of getting that 
moving, and I don't know why.
    Mr. Galvin. The $200,000 has not been spent. We're 
negotiating a three-part agreement with the Friends of Belle 
Haven Marina, Fairfax County Park Authority, and the National 
Park Service. The $200,000 will be used in a partnership 
approach. The idea would be that the Fairfax County Park 
Authority would put some money into it, and they would assume 
administration of the marina.
    Mr. Moran. Now, I understand the way it's supposed to work, 
but it's not happening, and I hear that part of the reason is 
that the Park Service really doesn't--has not particularly 
engaged in making it happen.
    Mr. Galvin. Okay. Well, we can check into that; that's not 
in my information.
    [The information follows:]

            Status of FY 1997 Funding for Belle Haven Marina

    The National Park Service and Fairfax County Park Authority 
have met several times to work on an agreement. A draft 
agreement was sent to the Fairfax County Park Authority to 
review in March, 1997. The funding of the project is a three 
way partnership between the National Park Service, the Fairfax 
County Park Authority, and the Friends of Belle Haven Marina, a 
non-profit group. The NPS will provide $200,000; Fairfax County 
will provide $200,000; and the Friends of Belle Haven Marina 
will provide $50,000. The Fairfax County Park Authority will be 
responsible for overseeing the management of the marina, 
probably through a concessions arrangement, and the NPS will 
retain the ownership of the land.

    Mr. Moran. Okay, okay, fine. Well, all I know for sure is 
none of the money has been spent and so it's----
    Mr. Galvin. And we agree on that.

                          arlington boathouse

    Mr. Moran. The third thing, the people that live along the 
GW Parkway put a lot of effort into maintaining it; they 
complement what the Park Service does. They have that Potomac 
cleanup day; we got hundreds of volunteers.
    There's a place by the Teddy Roosevelt Island where we 
could put a boathouse. The Park Service doesn't want to do it 
because it hasn't been done before. I think it makes sense; 
it's the only access that that entire community of 170,000 
people would really have to be able to use that area. It's the 
first thing they've really asked for, and I'd like to see a 
more positive attitude toward that.
    Mr. Galvin. Well, we support working with Arlington County 
to build a boathouse on the Potomac; we don't support it at the 
location that they're suggesting.
    Mr. Moran. Where do you support it?
    Mr. Galvin. We suggested Columbia Marina; we suggested the 
other side of the river on the Georgetown waterfront.
    Mr. Moran. Wait a minute.
    Mr. Dicks. Not in Virginia.
    Mr. Moran. Yes, that's what they're saying; they support 
Arlington County, but put it in D.C. [Laughter.]
    Mr. Galvin. That's right. And the reason for that is 
because the riverfront on the Theodore Roosevelt Island side is 
undeveloped, and we would like to see it remain undeveloped; 
it's important----
    Mr. Moran. All you've got is a marsh area there between the 
parkway and the island itself.
    Mr. Galvin. Well, we've got a pretty heavily used natural 
area.
    Mr. Moran. Yes, but we're not talking about affecting the 
natural area on the island; there's no natural area next to the 
highway.
    Mr. Galvin. You're going to have to do parking; you're 
going to have to do access. We're willing to work with 
Arlington County, but we don't support the Theodore Roosevelt 
Island side.
    Mr. Moran. Well, you've got parking there, and it would 
only be used in the morning when the parking isn't being used, 
and if you look at the other boathouse much further south down 
the river, very little parking does it require because their 
high school crews primarily use it. So you've got adequate 
parking. You don't need to put a lot more parking. You don't 
have to put any more parking in. All you need to do is give us 
the go ahead and let us work on it. That's the best site for 
it. It's not to put it over in Georgetown. So I plan to have 
further discussions with you about that.
    Mr. Galvin. Sure.
    Mr. Moran. We won't belabor it now. I have probably used my 
time up here.
    Mr. Regula. You have got about two minutes yet.
    Mr. Moran. Oh. Do you want to ask your questions now and 
then I'll get him again?
    Mr. Regula. Well, I want to go to Mr. Dicks.
    Mr. Moran. Go ahead, that's okay.

                 olympic and mt. rainier national parks

    Mr. Dicks. Let me ask you about how the situation in the 
Olympic and Rainier National Parks, in terms of overall 
situation and backlog of projects that have to be done, work 
that needs to be done.
    Mr. Galvin. Well, these are two old line western parks. 
Their backlog situation is not unlike many of the other western 
parks. They tend to be heavier in infrastructure than the parks 
in the east. On the backlog list, for instance, for Olympic, we 
show about $8 million worth of projects that probably, well 
that certainly don't show up in this budget. At Mount Rainier--
I know I worked at Mount Rainier--there's a considerable amount 
of road work that needs to be done. We show $34 or $35 million 
of backlog at both of those parks.
    We do have some funds in here, I believe, for Mount Rainier 
to rehabilitate an employee dormitory at Paradise, but that's 
about it for those two parks. Of course we had the Elwha Dam 
request in here for Olympic to finish the acquisition of the 
dams and to plan the removal of them.

                          construction backlog

    Mr. Dicks. What is the backlog nationally, overall?
    Mr. Galvin. About $5.2 billion of construction. When I say 
construction, I really mean mostly rehabilitation needs. They 
would be done through the construction appropriation.
    Mr. Dicks. Is that going to get worse do you think because 
of the overall budgetary situation?
    Mr. Galvin. Yes. Roads are a good example. What the Federal 
Highway Administration tells us is that with the current level 
of investment, which is $80 million a year, the roads are 
getting worse in the National Park System. We need to double 
our level of investment, maybe slightly more than that, just to 
stop the deterioration of the existing road system. I am happy 
to say in that area the Administration request in the ISTEA 
reauthorization does do that.
    Mr. Dicks. That is funded through the--that is not funded 
through the Park Service.
    Mr. Galvin. No, but it is part of the $5.2 billion backlog. 
So that's why it is relevant. If you take that out, the backlog 
number we're working with goes down to $3 billion.
    Mr. Dicks. So of the backlog, $2.2 billion is on roads?
    Mr. Galvin. Roads, yes; road rehabilitation costs 
basically.
    Mr. Dicks. And right now, there's no plan to deal with 
this, right?
    Mr. Galvin. Well, with respect to the roads----
    Mr. Dicks. Well, the roads, the other issues.
    Mr. Galvin. Senator McCain is generating a bill that would 
put a surcharge on entrance charges at Grand Canyon in his 
original submission. Such an approach might take care of part 
of the backlog. If you could generate a stream of revenue, some 
park backlogs could be taken care of with that. Our estimates 
indicate it would not solve the entire problem, but it would 
take another part of the problem out of there.
    Mr. Dicks. On roads?
    Mr. Galvin. No, generally on facilities.
    Mr. Dicks. I see.
    Mr. Galvin. On facilities generally.

                            new fee revenue

    Mr. Dicks. I thought we were putting in a fee of some sort.
    Mr. Galvin. We are.
    Mr. Dicks. How is that working?
    Mr. Galvin. Well, that helps. We get to keep 80 percent in 
the collecting park. That's going to generate----
    Mr. Dicks. Now in the past when the Park Service did this, 
they would then with slight of hand we all know about, the 
green eye shade people, would then decrease the budget for the 
park that was getting the 80 percent. They would come about 
where they were before. They would come to Congress and say we 
did this great thing and nothing changed. Is that going to not 
happen this time?
    Mr. Galvin. Yes. This is a different situation. In fact, 
it's the authority that this Subcommittee gave to us that we 
don't put this money back into the Treasury. Virtually all the 
new money that we collect as a result of raising the fees stays 
with the Park Service. Eighty percent of it stays in the park 
where it's collected so that it generates nationwide about $40 
million.
    Now for some parks, that's----
    Mr. Regula. Excuse me. Is that just the Park Service, the 
$40 million?
    Mr. Galvin. Yes. A year, for this year. That will be what 
will be available to put back into the facilities. So it helps, 
but with a $3 billion backlog, it's certainly not the entire 
solution but it helps.
    Mr. Dicks. So basically you are saying there is no plan to 
deal with this problem. We're just going on a year by year 
basis. The backlogs are getting bigger. We've got some 
incremental things that are happening, but overall the 
situation is deteriorating.
    Mr. Galvin. We're looking at other alternatives, but your 
conclusion is basically correct.
    Mr. Dicks. How long did this go on, before you really start 
to see serious degradation in the quality of the experience 
that people get when they go to these parks?
    Mr. Galvin. Well, GAO did an audit some years ago that 
suggests that we hide all this pretty well. It can go on 
longer, but ultimately----
    Mr. Dicks. Pay me now or pay me later, right?
    Mr. Galvin. Yes. The Nation is going to have to make a 
decision about its infrastructure. I mentioned earlier I just 
read an article that said we're investing half of what we 
invested in 1980 in real dollars in the interstate road system. 
That's just another part of the same problem, that we're going 
to have to make an investment on this infrastructure at some 
point in the future or we are going to have failure, which is 
what you are talking about.

                            safety problems

    Mr. Dicks. Now what about serious--do we get funded the 
serious safety problems?
    Mr. Galvin. Yes.
    Mr. Dicks. Are we getting those taken care of?
    Mr. Galvin. Yes. For instance, back when you were a Member 
of this Subcommittee at the time, we did the Park Restoration 
and Improvement program. That did a good job for solving 
utility problems, water and sewer. Now we still have those, but 
we're trying to pick off the worst ones where we are out of 
compliance with the Clean Water Act or where a State permit has 
been withheld. Lake Mead, as an example, is a request in this 
budget, has water system problems. Amistad has water system 
problems. We are trying to correct those in each year's 
appropriation requests. Our appropriation requests tend to be 
rehabilitation of systems.

                       growth of the park system

    Mr. Dicks. Do you think it's responsible, just as a 
philosophical question, I realize Congress is just as 
responsible here. I am not blaming the Park Service. Do you 
think it's responsible to go out with new initiatives, new 
programs, new parks, new monuments, when you have got a $5.2 
billion backlog that has no possible way in the foreseeable 
future of being dealt with?
    Mr. Galvin. That's a tough question. I would hate to answer 
it and suggest that the growth of the system or new programs 
shouldn't be entertained while we wrestle with this problem.
    Mr. Dicks. But could there be a moratorium. Why don't you 
have a moratorium and say until we get this, until we deal with 
this obvious problem, we ought to have a moratorium of some 
sort.
    Mr. Galvin. Well, if you look at the growth of the system 
by decade, it has slowed down in the 1990s. I think the average 
before the 1990s was six new units a year. It's down to about 
half that right now. So there has been some restraint built 
into the System. By and large, these have been small historical 
areas, so they are not terribly----
    Mr. Dicks. How much is on new initiatives in this budget?
    Mr. Galvin. Let's see, what would you say?
    Mr. Sheaffer. The total number that I can provide you 
relates to the Omnibus Parks Bill that was passed last year. 
There is $4.4 million associated with the establishment of five 
new areas and assistance to Heritage Areas. But only about $1.6 
million of it has to do with the operation of new areas.
    Mr. Dicks. So it's very, very minimal.
    Mr. Sheaffer. Minor.
    Mr. Galvin. And actually, if you look at the growth of the 
System historically, with some exceptions you find that the 
real problems are in the old line parks or in the parkways as 
Mr. Moran points out.
    Mr. Dicks. But ultimately, if you keep adding to the 
System, you are going to get more O&M, more maintenance, more 
additional problems that are going to add to this overall.
    Mr. Galvin. No question about it. Let me answer your 
observation about moratoriums. That sort of informally has 
happened in the past. If you look at the record, what happens 
is you get like in the early 1980s, years of relatively slow 
growth, no units added, one unit added, two units added. But 
four years into that cycle, you get something like 16 units 
added. So there's kind of a pent up pressure I think by 
advocates for new areas that eventually people respond to. So 
you have got to kind of look at this thing on a decade long 
basis. It's clear in the 1990s that some restraint has been 
imposed, but that's not to say the growth of the system has 
been zero either.
    Mr. Dicks. I have no further questions, Mr. Chairman.
    Mr. Regula. The ghost of Phil Burton is with us.
    Mr. Dicks. Yes. I remember the redwoods.
    Mr. Galvin. It's still a great park. Good idea to save 
those trees too.
    Mr. Regula. We would have lost them.
    Mr. Dicks. We did it. This committee maintained the bill.
    Mr. Galvin. That's right.

                  cooperative ecosystem studies units

    Mr. Regula. I have one question, and then I think Mr. Moran 
might have a couple.
    Your budget includes $2.4 million and 16 FTEs for coop, 
ecosystem study units. This sounds similar to the USGS 
Biological Resource Division coop units. What is the purpose of 
the new initiative, and how would it be different from the USGS 
program? Why is this a priority for NPS?
    Mr. Galvin. Well, first, Mr. Chairman, I would say the 
difference between the Biological Resources Division is that 
this is not research money. This money is to put one person on 
16 campuses across the country to facilitate and coordinate 
research scientific programs, applied science, resource 
management in parks, to try to leverage money out of the 
academic community to expand our ability to do research. This 
has been done, and in fact we would expect it's not simply 
scientific research. We would tie in with the education 
initiative to do social science programs and other kinds of 
research in addition to the natural resource research.
    The proposal is $2.4 million. In essence, it's one person's 
salary at 16 colleges. Again, while they would have a science 
and research background, it would be principally project 
managers.
    Mr. Regula. So you would be leveraging the college 
resources?
    Mr. Galvin. Absolutely. That is exactly what we are trying 
to do. Now NBS or BRD has been involved in this. They support 
it. The Secretary supports it. I think these people are more 
like Contracting Officer's Technical Representatives than they 
are researchers.
    Mr. Regula. I assume there's a lot of expertise out in the 
college world and a high degree of interest in what you do.
    Mr. Galvin. Yes. In fact, there are a couple of these in 
existence right now that are kind of remnants of the old 
system. We find that we can get substantial interest in working 
in parks and in fact on public lands if we have somebody 
promoting it at the university level.
    Mr. Regula. Do they include perhaps promoting volunteers?
    Mr. Galvin. Absolutely. Absolutely.
    Mr. Regula. Mr. Moran.

                            u.s. park police

    Mr. Moran. Thank you, Mr. Chairman. Back to the park 
police, very briefly. I don't think it's unreasonable to 
suggest that the park police at least ought to have their 
computers interactive with D.C.'s and Virginia's computers. 
That all makes sense. I would like you to look into that.
    [The information follows:]

 Communications Between U.S. Park Police and Surrounding Jurisdictions

    The U.S. Park Police (USPP) radio dispatch system is over 
25 years old and operates using VHF frequencies. The USPP also 
has two other existing methods for direct communication with 
other surrounding jurisdictions, as follows:
    The Civil Defense Phone (CD Phone) is a dedicated telephone 
line that provides direct connection to most surrounding 
police, fire and military personnel within the Washington 
metropolitan area. This system is adequate for dispatching 
ambulances, fire apparatus and police units. However, this 
system requires that requests for service be relayed through 
two dispatchers and two street units making this system 
cumbersome and inadequate for coordinating on-going police 
emergencies.
    The Police Mutual Aid Radio System (PMARS) is a frequency 
unit maintained by the Metropolitan Washington Council of 
Governments (COG) and is used to ``patch'' other police and 
fire departments into our frequency. However, this system has 
proven unreliable since it requires the connection of several 
different radios and frequencies and in doing so the system 
power is reduced resulting in voice transmissions being garbled 
or missing entirely.

    That GAO report was very interesting, that 93 percent of 
your costs are full-time permanent employees. Yet a large 
number, maybe half, maybe more than that have peak periods 
during the year when they really have to work hard. There are 
other parts of the year, substantial parts of the year when 
they are almost off in terms of their functional 
responsibility. I think you really need to look at that to 
determine whether you really want and need that many fulltime 
permanent employees, because unless you address that, you just 
don't have any flexibility to respond to these other pressures. 
I am not telling you anything you don't know.

                             seasonal hires

    Let me also ask something somewhat related to that. That 
is, that I understand the Park Service is not hiring their 
summertime volunteers because you have got an affirmative 
action quota something. So you put a hold on commitments to 
hire kids during the summer? Well, I want you to explain that 
because the attitude is that, or the feeling is that you have, 
and a lot of the best qualified kids that have just got to go 
other places if there's a delay in hiring. We don't want that 
to happen.
    Mr. Galvin. Your observation was correct, but that freeze 
has been lifted. The Department put it on while we gathered 
data about the composition of our seasonal work force 
candidates. We gathered that. We have developed an action plan 
with the department. We are proceeding with seasonal hiring 
now.

                        youth conservation corps

    Mr. Dicks. What about the Youth Conservation Corps? Is this 
part of that?
    Mr. Galvin. No. Not in the sense that it was affected by 
this. Youth Conservation Corps programs go forward in parks 
with the existing funding of the National Park Service.
    Mr. Moran. I'll end at that point. We'll have other 
opportunities to talk about specific things. Thank you.
    Mr. Dicks. Could you describe----
    Mr. Regula. Go ahead.
    Mr. Dicks. Thank you, Mr. Chairman.

                               Elwha dam

    Could you describe what the administration has in its 
budget for the Elwha Dam project?
    Mr. Galvin. In this budget, we have $24.5 million; $21.5 
million is to complete the funding for the land acquisition. We 
have $8 million in hand. An additional $3 million begins the 
design for the dam removal. I believe there's----
    Mr. Dicks. And the rest of it is for acquisition of the 
dam?
    Mr. Galvin. Yes, yes. The bulk of it is for----
    Mr. Dicks. There's some money that would be provided 
previously.
    Mr. Galvin. Yes, $8 million was provided previously. We 
have an additional $21.5 million requested here. That does it 
for the acquisition. If this request is honored, we will have 
enough money to acquire the dams.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. We'll hold the record open for three days or 
give or take, for any questions you want to submit.

                          construction backlog

    Mr. Dicks. I just thought of another question. Are you 
putting this backlog into the record? Will that be in there for 
the entire?
    Mr. Galvin. We can.
    Mr. Dicks. I think we should have that, Mr. Chairman.
    I think we should put the whole thing in there.
    Mr. Galvin. Yes. We've got it.
    [The information follows:]

[Pages 825-832 --The official Committee record contains additional material here.]


    Mr. Dicks. If that's all right.
    Mr. Regula. Yes. Without objection, you have it there. It 
will be made a part of the record.
    Mr. Galvin. Sure.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Submit the questions for the record. I have a 
number which we will submit. I would appreciate prompt 
responses because we need the information when we get to 
markup.
    Mr. Galvin. Thank you, Mr. Chairman.
    Mr. Regula. Thank you for coming. With that, the committee 
is adjourned.

[Pages 834-916 --The official Committee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Ashe, Dan........................................................   543
Babbitt, Hon. Bruce..............................................     3
Baca, Sylvia.....................................................   349
Benna, Lawrence..................................................   349
Bradford, Mary...................................................   781
Ceccucci, G.V....................................................   543
Clapper, Charles, Jr.............................................   781
Clerk, J.R.......................................................   543
Edwards, G.B.....................................................   543
Finnerty, Maureen................................................   781
Fry, Tom.........................................................   349
Galvin, D.P......................................................   781
Gerst, J.L.......................................................   543
Gordon, Gayle....................................................   349
Hatfield, Nina...................................................   349
Hayes, Nancy.....................................................   349
Henne, P.W.......................................................   543
Jones, M.P.......................................................   543
Lawler, M.A.................................................3, 349, 543
Mason, Gwen......................................................   349
Millenbach, Mat..................................................   349
Rogers, J.G......................................................   543
Sharpe, Maitland.................................................   349
Sheaffer, C.B....................................................   781
Soukup, Michael..................................................   781
Stevenson, Katherine.............................................   781
Streeter, R.G....................................................   543
Tipton, W.H......................................................   349
Trezise, J.D.....................................................   781


                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
American Heritage Rivers.......................................125, 249
    Funding....................................................126, 301
Appalachian Clean Streams........................................   108
Appropriations:
    Annual.......................................................     5
    Supplemental.................................................    21
Balanced Budget..................................................21, 22
Biological Resources Division (USGS)...........................133, 305
    Bison, Yellowstone...........................................   183
    Bureau of Land Management....................................     6
    Law Enforcement.......................................109, 223, 280
Bureau Cooperation...............................................   117
California Bay-Delta.............................................7, 280
Collocation of Bureau Offices....................................   212
Colorado Lands...................................................   334
Columbia River Interior Basin Plan.............................143, 226
Congressional Affairs............................................   273
Contracting......................................................   278
Cuyahoga River...................................................   126
Department of the Interior.......................................     3
    Appointments.................................................   136
    Personnel..................................................275, 305
    Workforce....................................................   281
Eagle Mountain Landfill, Joshua Tree National Monument.........151, 193
Endangered Species Act................................18, 200, 297, 338
    Funding......................................................   133
Energy Efficiency................................................   108
Everglades.......................................................   245
    Coordination.................................................   102
    Farm Bill Funding............................................    25
    Funding......................................................   103
    Land Acquisition.............................................    23
    Restoration..................................................   158
    Sugar Prices...............................................145, 146
Fees............................................................18, 111
    Coordination.................................................   151
    Demonstration Project............................115, 224, 296, 342
Fire Fighting:
    Management...............................................8, 16, 131
    Policy.......................................................   123
    Prescribed Burning...........................................   175
Fish and Wildlife Service........................................ 5, 52
Flood Damage Repair..............................................   142
Forest Health....................................................   105
Forest Plan, Pacific Northwest...................................8, 132
Forest Service...................................................    37
George Washington Parkway.................................111, 112, 344
Glen Canyon Dam Flood.....................................118, 120, 153
    Results of 1997 Releases.....................................   119
Government Performance and Results Act (GPRA), Implementation....  228a
Government Shutdown..............................................   304
Government Subsidies.............................................   301
Grand Staircase-Escalante National Monument..........209, 264, 287, 303
Grazing........................................................243, 279
Great Lakes Initiative...........................................   257
Great Smoky National Park........................................   291
Green River Basin Advisory Committee.............................   128
Guam......................................................120, 122, 229
Habitat Conservation Plans................................130, 259, 306
Headwaters Exchange...............................28, 58, 148, 172, 268
    Oil and Gas Interests........................................    49
Heritage Areas...................................................   263
Horses, Wild.....................................................   144
Indian Affairs, Bureau of..............................10, 19, 205, 312
Indian Gaming....................................................   326
Lake Tahoe Basin.................................................   181
Land Between the Lakes Recreational Area.......................147, 293
Land Management:
    Highest Priorities...........................................   306
    Increases....................................................     5
    Operations..................................................16, 234
Lobbying.........................................................   279
Mason Neck National Wildlife Refuge.......................112, 113, 343
Minerals Royalty Fee.............................................   135
Native Americans.................................................    75
    Ducheneaux Memorandum........................................    76
National Park Service............................................6, 342
    Coop Units, Re-establishment.................................   195
National Parks:
    Condition....................................................   232
    Highway Funds, Federal.......................................   128
    Housing...............................................139, 141, 156
    Maintenance Backlog..........................................   116
    Overflights................................................127, 189
    Revenue Bonds for Capital Improvements.....................119, 129
    Threats, Problems..........................................137, 308
    Transportation Systems.......................................   190
National Petroleum Reserve--Alaska...............................   269
Natural Resource Subsidies.......................................   135
New World Mine Exchange...................................148, 172, 300
Office of Surface Mining.........................................   331
    Ownership and Control........................................   269
Official Time....................................................   286
Oregon Inlet Jetties......................................149, 150, 244
Outer Continental Shelf:
    Moratoria....................................................   198
    Offshore Leasing.............................................   236
Partnerships..................................................... 4, 13
Payments in Lieu of Taxes.................................110, 284, 304
Private Lands....................................................   282
Public Affairs...................................................   273
Questions Submitted for the Record...............................   153
    Questions From Congressman Miller............................   286
    Questions From Congressman Moran.............................   336
    Questions From Congressman Regula............................   229
    Questions From Congressman Skaggs............................   334
    Questions From Congressman Skeen.............................   273
    Questions From Congressman Wamp..............................   291
    Questions From Congressman Yates.............................   294
RS 2477..........................................................   335
Rural Abandoned Mine Program.....................................   291
Savanna Army Depot...............................................   302
Science..........................................................    20
Special Trustee for American Indians, Office of the....11, 19, 207, 327
Statement of the Secretary of the Interior.......................    12
Timber Harvest.................................................124, 131
Timber Salvage...................................................   294
Trail of Tears.................................................108, 292
Travel...........................................................   287
U.S. Geological Survey...........................................   251
Utah Lands.......................................................   336
Valid Existing Rights............................................   271
Vanishing Treasures..............................................   250
Ward Valley....................................................208, 337
Western Confrontations...........................................   129
Wetlands Restoration.............................................    24
Witnesses........................................................     3
Wolf Reintroduction............................................132, 284
Yosemite Flood Damage............................................   169

                       Bureau of Land Management

Biographical Sketches............................................   350
Budget:
    Request......................................................   362
Request History Table............................................   398
    Savings......................................................   371
Economic Contributions...........................................   361
Endangered Species...............................................   406
El Camino Real Project...........................................   373
Fee Collection...................................................   369
Federal Subsidies for Use of Public Land.........................   400
Field Employees..................................................   397
Fish Lake Mine Project...........................................   373
Flood Damage.....................................................   379
Funding Levels...................................................   395
Grand Staircase Escalante National Monument...............381, 399, 406
    Mineral Operation at the Monument............................   382
Grazing:
    Fees.........................................................   401
    Permits......................................................   402
Green River Basin Advisory Council...............................   387
Interior Columbia Basin Ecosystem Project......................377, 378
Land Between the Lakes.........................................392, 393
Land Exchanges...................................................   372
Law Enforcement Regulations......................................   363
Mining:
    Hardrock Bonding Rule........................................   405
    Hardrock Mining Royalty......................................   404
    Law Regulations..............................................   404
    Revenues.....................................................   402
New World Mine...................................................   383
Number of Personnel..............................................   374
Oil and Gas Inspection and Enforcement...........................   391
Opening Remarks..................................................   360
Opening Statement of Interim Director............................   364
Payments in Lieu of Taxes............................371, 374, 376, 399
Questions Submitted for the Record...............................   408
    General......................................................   408
    From Congressman Regula......................................   462
    From Congressman Skeen.......................................   481
    From Congressman Yates.......................................   525
Recreation:
    Fees.........................................................   388
    Visits and Visitor Centers...................................   369
Resource Advisory Councils.....................................361, 401
Resource Management Plan Protest Extension.......................   371
Rights of Way....................................................   360
Sharing Costs....................................................   362
Timber:
    Clear Cutting................................................   371
    Forestry Practices...........................................   370
    Sale Design..................................................   371
    Sale Planning................................................   371
    Salvage......................................................   386
Trading Post Initiative........................................388, 390
Ward Valley......................................................   380
Wilderness:
    Areas........................................................   400
    Roads in Wilderness..........................................   403
    RS-2477......................................................   404
    Unauthorized Road Building...................................   404
Witnesses........................................................   349

                     U.S. Fish and Wildlife Service

Bear Baiting on Kenai NWR........................................   737
Bear Viscera.....................................................   723
Biological Research..............................................   634
Bonneville Power Administration..................................   578
Budget Request: Overview.........................................   591
California Bay Delta.............................................   624
California Condor..............................................585, 617
Canada Geese.....................................................   562
Caribou Reintroduction...........................................   571
    Selkirk Caribou Population...................................   572
Chicago Wetlands Office..........................................   769
Coastal Program..................................................   638
Columbia Basin Ecosystem Management..............................   573
    Columbia Basin Environmental Impact Statement................   575
Conservation Easements...........................................   563
Construction..............................................560, 669, 689
Cooperative Endangered Species Conservation Fund.................   674
Delhi Sands Flower-loving Fly....................................   619
Economic Impact of Shutdown......................................   773
Emiquon Refuge Grant Application.................................   768
Endangered Species:
    Delisted and Reclassified Species............................   584
    Delisting Criteria...........................................   584
    Endangered Species Act Flexibility...........................   554
    Endangered Species Act and Property Rights...................   587
    Endangered Species Act Reauthorization.....................606, 609
    Endangered Species Act Section 7 and Flooding................   582
    Last Delisted Endangered Species.............................   585
    Listed Species...............................................   606
    Listing Moratorium...........................................   585
    Reports......................................................   576
    Research.....................................................   580
    Status of Listed Species.....................................   586
    Wilderness Institute Report..................................   581
Everglades, South Florida:
    FWS Accomplishments..........................................   687
    FY 1997 Funding..............................................   563
    Project History..............................................   600
    Restoration..................................................   598
Federal Aid......................................................   566
Federal Energy Regulatory Commission.............................   635
Feral Ungulates, Halalau Forest NWR..............................   724
Fish and Wildlife Management.....................................   659
Fisheries........................................................   555
Forest Service Cooperation.......................................   583
General Administration...........................................   664
Great Lakes......................................................   690
Hatchery Operations..............................................   654
Hatchery Transfers...............................................   655
Headwaters.......................................................   621
Hunter Education.................................................   566
Hunting..........................................................   566
Hostility Towards the Fish and Wildlife Service..................   586
International Conservation.......................................   666
Lahontan Valley..................................................   676
Land Acquisition.................................................   688
Land and Water Conservation Fund.................................   560
Land Between the Lakes...........................................   582
Law Enforcement..................................................   647
Mahogany.........................................................   652
Maintenance......................................................   694
Maintenance Backlog............................................563, 623
Manatees.........................................................   614
Mason Neck Environmental Center..................................   567
Metzger Marsh....................................................   685
Mexican Wolf...................................................611, 696
Migratory Bird Management........................................   654
Miscellaneous....................................................   693
National Fish and Wildlife Foundation............................   738
National Wildlife Refuges:
    Caribbean Islands NWR........................................   732
    Culebra NWR..................................................   732
    Halalau Forest NWR, Feral Ungulates..........................   724
    Hanford Reach................................................   649
    Kenai NWR, Bear Baiting......................................   737
    Laguna Cartagena NWR, Remediation............................   731
    Mason Neck National Wildlife Refuge...................565, 567, 695
    Midway Atoll NWR...........................................648, 728
    Rocky Mountain Arsenal NWR.................................564, 650
    Turnbull NWR...............................................568, 570
    Visitors.....................................................   553
Native Unionid Mussels...........................................   685
Natural Communities Conservation Program.......................563, 641
Natural Resource Damage Assessment...............................   667
North American Wetlands Conservation Fund.................555, 561, 673
Northwest Forest Plan..........................................580, 593
Opening Remarks:
    Director's Summary...........................................   553
Opening Statement:
    Acting Director Rogers' Statement for the Record.............   557
    Biographical sketches........................................   544
Overpopulation of Wildlife.......................................   568
Partners for Wildlife............................................   634
Pelicans.........................................................   615
Prairie Chickens.................................................   618
Public Outreach..................................................   553
Questions Submitted for the Record:
    Additional Questions from the Committee......................   591
    From Congressman Regula......................................   683
    From Congressman Skeen.......................................   696
    From Congressman Yates.......................................   713
    Government Performance and Results Act.......................   678
Recreation Fee Demonstration Program...........................562, 641
Refuge Operations..............................................645, 690
Region 3 Allocations.............................................   734
Remediation, Laguna Cartagena NWR................................   731
Research Needs...................................................   583
Resource Management..............................................   558
Rio Grande Field Office..........................................   733
Savanna Army Depot Transition....................................   719
Snow geese.......................................................   620
Telecommunications...............................................   665
Trapping on Refuges..............................................   736
Urban Resources Partnership Program..............................   768
Volunteers, Fish and Wildlife Service..........................554, 555
Wetlands.........................................................   640
Whirling Disease.................................................   658
Witness List.....................................................   543

                         National Park Service

Advance appropriations projects..................................   867
Air Quality Monitoring...........................................   843
Arlington Boathouse near Theodore Roosevelt Island...............   817
Backlog...............................793, 819, 824, 847, 850, 863, 880
Belle Haven Marina in Fairfax County, Virginia...................   817
Bighorn sheep death in Mojave National Preserve..................   877
Biographies:
    Galvin, Denis P..............................................   782
    Sheaffer, C. Bruce...........................................   783
Blackstone River Valley National Heritage Corridor...............   914
Budget funding levels............................................   834
Budget highlights................................................   784
Budget request to Office of Management and Budget................   812
Calumet Ecological Park feasibility study........................   910
Cape Cod National Seashore exotic ring-necked pheasants..........   911
Carter Barron Amphitheatre.......................................   915
Channel Islands National Park....................................   868
Collections Cataloging for park museums..........................   841
Construction...................................................862, 866
Contracting for services.........................................   806
Cooperative Ecosystem Studies Units.......................822, 838, 904
Cumberland Island National Seashore..............................   869
Cuyahoga Valley National Recreation Area.........................   888
    Abandoned unsafe structures demolition.......................   892
    Construction priorities......................................   894
    Deer management..............................................   895
    Historic structures stabilization............................   890
    Krejci Dump..................................................   892
    Land acquisition.............................................   894
    Law enforcement..............................................   889
    Operations...................................................   888
    Park operational increases...................................   896
    Rail line bridge and track...................................   893
    Riverbank stabilization......................................   889
    Virginia Kendall Unit........................................   888
Dam safety.......................................................   803
Dayton Aviation Heritage National Historical Park................   896
Denali National Park and Preserve: Northern Denali access road...   879
Education Initiative outreach beyond park areas..................   808
Ellis Island in Statue of Liberty National Monument..............   800
Elwha Dam near Olympic National Park.............................   823
Everglades National Park and ecosystem...........................   785
Fees:
    Demonstration program............................805, 819, 850, 912
    Emergency assistance.........................................   877
    Entrance.....................................................   801
    Local visitors entrance......................................   803
    Revenue......................................................   801
Financial Management Improvements................................   848
George Washington Memorial Parkway...............................   815
Gettysburg National Military Park: tower site....................   809
Glen Canyon National Recreation Area, Antelope Point at..........   840
Golden Gate National Recreation Area.............................   867
Government Performance and Results Act (GPRA) implementation.......790, 
                                                               849, 883
Grand Canyon National Park:
    Fees for river rafting and air flights.......................   797
    Overflights restrictors......................................   877
    Transportation system........................................   865
Heritage Areas.................................................857, 906
Historic Preservation Fund grants................................   861
Historic Structures Stabilization................................   846
Historically Black Colleges and Universities, grants to..........   861
Hopewell Culture National Historical Park........................   899
Housing for employees............................................   871
    Construction costs...........................................   805
Illinois and Michigan Canal National Heritage Corridor Commission   913
Indian Tribes, grants to.........................................   861
Indiana Dunes National Lakeshore.................................   910
Information Management for park telecommunications...............   842
Interior Department Electronic Acquisition System (IDEAS)........   849
Introductions....................................................   784
Inventory and Monitoring Program.................................   844
James A. Garfield National Historic Site.........................   896
Joshua Tree National Park, Eagle Mountain dump at................   870
Land acquisition:
    Channel Islands National Park................................   868
    Cumberland Islands National Seashore.........................   869
    Golden Gate National Recreation Area.........................   867
    Hopewell Culture National Historical Park....................   900
    Inholdings...................................................   799
Legislative taking at Channel Islands National Park..............   868
Mojave National Preserve bighorn sheep death.....................   877
Mount Rainier National Park......................................   818
Museum collections cataloging....................................   841
Museum exhibits production.......................................   866
National Center for Preservation Technology and Training.........   878
National Park System:
    Condition of.................................................   820
    New park areas and programs..................................   820
Northwest Ecosystem Office.......................................   837
Olympic National Park............................................   818
Opening remarks: Galvin, Denis P., Acting Deputy Director......784, 786
Opening statement: Galvin, Denis P., Acting Deputy Director......   788
Overflights (Air tours) restrictions.............................   877
Park Operations, including funding for new units...............839, 851
Park Police, United States................................815, 822, 881
Pennsylvania Avenue design project...............................   887
Presidio Trust, Board of Directors of..........................869, 911
Priorities, budget.............................................837, 851
Prioritization process...........................................   862
Questions submitted for the record:
    Additional Committee questions...............................   834
    From Congressman Regula......................................   887
    From Congressman Yates.......................................   910
Reorganization...................................................   834
Reservation system:
    National.....................................................   880
    Yosemite National Park, for vehicle day use..................   879
Rivers and Trails Conservation Assistance........................   856
Rocky Mountain National Park:
    Overflights restrictions.....................................   877
    Water rights and wilderness designation......................   795
Rutherford B. Hayes site.........................................   900
Safety.........................................................811, 820
    Dams.........................................................   803
    Employees....................................................   807
    Park areas...................................................   802
    Visitors.....................................................   808
Savings through streamlining, re-engineering and reinventing.....   834
Seasonal hires...................................................   823
Standardized budget report from pilot program....................   848
Strategic plans of parks and National Park Service...............   882
Telecommunications in parks......................................   840
Trial of Tears National Historic Trail interpretation............   803
Transportation system:
    Grand Canyon and Zion National Parks.........................   865
    Yosemite National Park.......................................   911
Uncontrollable costs.............................................   834
Vanishing Treasures program....................................846, 912
White House construction projects................................   864
William Howard Taft National Historic Site.......................   900
Witnesses list...................................................   781
Yellowstone National Park bison...........................872, 901, 914
Yosemite National Park...........................................   802
    Reservation system for vehicle day use.......................   879
    Transportation system projects and congestion................   911
Youth Conservation Corps.........................................   823
Zion National Park transportation system.........................   865

                                <all>
</pre></body></html>
